<html>
<title> - A P P E N D I X</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                  

                         [H.A.S.C. No. 116-65]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2021

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          THE FISCAL YEAR 2021

                     NATIONAL DEFENSE AUTHORIZATION

                        BUDGET REQUEST FROM THE

                         DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                           FEBRUARY 26, 2020

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-451                       WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                                     
                      COMMITTEE ON ARMED SERVICES
                      
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                 Katy Quinn, Professional Staff Member
                Jason Schmid, Professional Staff Member
                          Emma Morrison, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     5

                               WITNESSES

Esper, Hon. Mark T., Secretary of Defense, U.S. Department of 
  Defense........................................................     7
Milley, GEN Mark A., USA, Chairman, Joint Chiefs of Staff........     9

                                APPENDIX

Prepared Statements:

    Esper, Hon. Mark T...........................................    83
    Milley, GEN Mark A...........................................    96

Documents Submitted for the Record:

    Secretary Esper Letter to Senator Inhofe.....................   113

Witness Responses to Questions Asked During the Hearing:

    Mr. Brindisi.................................................   121
    Mr. Carbajal.................................................   117
    Mr. Cisneros.................................................   119
    Mr. Crow.....................................................   120
    Ms. Escobar..................................................   120
    Ms. Horn.....................................................   119
    Mr. Kelly....................................................   118
    Mr. Langevin.................................................   117
    Mrs. Luria...................................................   121
    Mr. Rogers...................................................   117
    Ms. Slotkin..................................................   120
    Ms. Stefanik.................................................   118
    Mr. Waltz....................................................   120

Questions Submitted by Members Post Hearing:

    Dr. Abraham..................................................   129
    Mr. Bacon....................................................   131
    Mr. Banks....................................................   132
    Mr. Byrne....................................................   140
    Mr. Cisneros.................................................   130
    Mr. Golden...................................................   136
    Ms. Haaland..................................................   134
    Ms. Houlahan.................................................   131
    Mr. Kelly....................................................   129
    Mr. Lamborn..................................................   125
    Mr. Rogers...................................................   125
    Mr. Scott....................................................   126
    Ms. Sherrill.................................................   133
    Ms. Speier...................................................   137
    Mrs. Trahan..................................................   135
    Mr. Vela.....................................................   128
    Mr. Waltz....................................................   133
                
                
                THE FISCAL YEAR 2021 NATIONAL DEFENSE
                 AUTHORIZATION BUDGET REQUEST FROM THE
                         DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 26, 2020.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning, everyone.
    We are gathered this morning to hear from the Secretary of 
Defense Dr. Mark Esper and the Chairman of the Joint Chiefs of 
Staff General Milley to hear about the President's fiscal year 
2021 budget proposal for the Department of Defense.
    And I will start with some good news. Well, first of all, I 
will start by thanking our witnesses for being here and 
thanking them for their service to our country.
    Both have served our country in various capacities for a 
long time, not an easy thing to do. I respect and appreciate 
that work. I look forward to continuing to work with you.
    The good news I want to start with is that, unlike last 
year, we have a budget agreement and last year we spent a lot 
of time talking about how difficult it is to run, well, 
anything in the government but, certainly, the Department of 
Defense without appropriations bills in a timely manner.
    Now, last year we were off by, I don't know, 3\1/2\ 
months--something like that. But that's better than drifting 
into the next year. We did get appropriations bills and an 
authorizing bill done by December of last year, which gives 
some predictability to the Department. I think that is 
enormously important.
    This year, we hope to come a little bit closer to October 
1st, certainly, on the authorizing bill but also in the 
appropriations bill. But, most importantly, we have a budget 
number and, hopefully, we can get that predictability in place.
    I think the second thing that is very important is 
something we have heard a great deal about and that is the so-
called blank slate review that the Department of Defense is 
doing.
    And I want to say I think that is perfectly appropriate to 
take a hard look at what we are doing in the Department of 
Defense, what makes sense, what doesn't, and what our strategy 
should be, going forward.
    And I think this is the great challenge of this budget. We 
can go through the line items number by number, talk about the 
number of ships, the number of planes. But what is the 
strategy? And I think we are still struggling to get a clear 
coherent strategy in place.
    As the history lessons go, we had the Cold War. We had a 
clear strategy during the Cold War and then we developed a 
post-Cold War strategy and now for a number of years we have 
been in the post post-Cold War period.
    I don't think we have still quite worked out what that 
strategy should be. We have a number of complex challenges. We 
have heard about great power competition. The terrorist threat 
is still present. We deal with Iran. We deal with North Korea.
    And the thing that I think is most concerning to me, and 
the Secretary and I have talked about this, is that right now 
we have ambitious goals that outstrip our means and that means 
in too many cases we are asking people serving in the military 
to do things that we don't have the resources to do.
    And I don't know the exact stats on this but I do 
consistently hear that our combatant commanders, they make 
requests for assets and a frequent complaint from people 
advocating for one program or another is, do you realize that 
we only met 40 percent of CENTCOM's [United States Central 
Command's] requests last year for aircraft carriers, or 
whatever. Fill in the blank.
    There are countless statistics exactly like that where 
whatever the combatant commanders ask for they get maybe half, 
maybe less than what they asked for. And a lot of people look 
at that and panic and say, oh my gosh, we are not meeting our 
needs.
    I look at that and say our strategy is fundamentally wrong. 
If we are setting up an expectation that we are not even half 
meeting, then we don't have the right strategy.
    Because it is not like we are not spending a fair amount of 
money--$738 billion plus some emergency money last year 
projected to be $741 billion this year. We need to rationalize 
our strategy to our resources, to understand what we can do 
and, most importantly, to figure out how to balance the risk.
    And I am not, you know, unmindful of the fact that if we 
decide to do less there is risk attached to that. But thinking 
you can do absolutely everything and you can't also comes with 
a fair amount of risk and that's why I do think I wouldn't have 
called it a blank slate review, personally, because I think we 
do have lessons from the past that we should simply not wipe 
out.
    But that is just a philosophical point. However you want to 
look at it--bottom up, start over--I think a review of our 
strategy is perfectly appropriate and we look forward to 
hearing more of the details about that.
    One important aspect of this continues to be the audit 
issue, which is enormously important. I, certainly, want to 
thank the Secretary and I know the Deputy Secretary has spent a 
lot of time on this as well and progress has been made--
progress from an absolutely unforgivably abysmal situation to 
one that is simply merely bad.
    We still don't know where we spend our money in many 
instances. Transfers are not adequately accounted for. We don't 
know the assets that we possess. There is a legacy reason for 
that.
    But it is something we still need to be committed to 
fixing, because in an era of scarce resources, making sure that 
we are spending those resources wisely or, at a minimum, we 
know where we are spending them becomes all the more important. 
So I want to make sure we emphasize that.
    But overall, and I think, you know, we have heard a lot 
about the AFRICOM [United States Africa Command] situation 
because that is where the blank slate review started, with 
AFRICOM. I think getting a deep dive on the thinking behind 
that will be very appropriate.
    There are two issues beyond that basic challenge that I do 
want to bring up and am concerned about. Number one is the 
money that is once again being diverted for the wall, and there 
are two chunks this year.
    Three point eight billion dollars has just been 
reprogrammed, primarily out of the procurement budget into the 
drug interdiction account to go to building the wall.
    This is an enormous problem, and for the moment I will put 
aside the debate about the wisdom of building the wall and 
simply focus on the wisdom of simply walking in and taking 
money out of the Pentagon budget that was otherwise authorized 
and appropriated and spending it on the wall.
    I think that is very, very damaging to the Pentagon. 
Obviously, it creates, in this case, a $3.8 billion hole but 
also the message it sends is that the Pentagon has got plenty 
of money.
    You know, we just got this long list from the services of 
their, quote, ``unfunded requirements,'' a sentence that I 
think should be banished from the Department of Defense's 
language, because if it's a requirement and it is unfunded then 
that sends a very dangerous message.
    We ought to be able to meet our requirements within the 
budget we have. But we received, and I would have to add it up, 
but it was somewhere in the neighborhood of $20 to $30 billion 
of, quote, ``unfunded requirements,'' and at the same time we 
found $3.8 billion just sitting in a corner that can go to a 
purpose that was not intended. It undercuts any argument about 
the need for resources within the Department of Defense and it 
also undercuts the congressional process.
    I do understand the 1976 emergency law and what is involved 
in it. But this, basically, says that Congress doesn't spend 
the money. The President does.
    I think that is a violation of our constitutional 
responsibility and significantly undercuts the Department of 
Defense.
    And make no mistake about it, these decisions have an 
impact. I have mentioned the $3.8 billion from procurement. 
There is still $3.6 billion now to be taken out of the MILCON 
[military construction] budget for this year, fiscal year 2020. 
That is not counting the $3.6 billion that was taken out last 
year, and that has a very real impact.
    I was just in Europe actually, and Africa, visiting with 
European Command in Stuttgart and there are a couple of MILCON 
projects that are part of our European Defense Initiative that 
we are now not able to fund because that money was taken for 
the wall.
    These are particularly important because these are projects 
that were done in partnership with our NATO [North Atlantic 
Treaty Organization] allies. And if our NATO allies cannot even 
rely on us to come through on a--I forget the exact amount of 
money; I think it was in the tens of millions, maybe just over 
a hundred million dollar MILCON project--if we can't come 
through with that, how much can they rely on us when we make a 
promise that we don't keep for something as simple as that?
    Meanwhile, Russia is very aggressively pushing for greater 
influence in that region. We have to be a reliable partner to 
offer an alternative to what Russia wants to offer, and this 
effort to keep stealing money for the wall is really 
undermining the Department of Defense and something, regardless 
of how you feel about the wall, we should have a bipartisan 
consensus that that should not be done.
    The last issue I want to raise is surrounding the JEDI 
[Joint Enterprise Defense Infrastructure] contract, which, as I 
understand it, the court has once again slowed down. Not once 
again. I think this is the first time the court has done it. 
Department of Defense had done it before.
    Part of our modernization effort, part of a blank slate 
review to understand how new technology is important, what 
legacy systems we can get off of, technology is crucial to this 
and the cloud is crucial to this as well.
    I don't care who gets the contract, to be perfectly honest 
with you. I just want to move forward with the process.
    And this is an issue, actually, that the ranking member has 
done a great deal of work on is to try to speed up the 
procurement and acquisition process so that we can take 
advantage of new technology more quickly in an era of 
incredibly rapid change and the need to upgrade your 
technology.
    The slow bureaucratic process in the Pentagon is a 
significant impediment. We have tried to find ways to clean 
that up. Where the JEDI contract is concerned, we have the 
President once again inserting himself into the debate and 
causing a problem.
    Now, I don't know exactly what happened but, 
unquestionably, a judge decided that because the President 
specifically, apparently, said that he didn't want the contract 
to go to Amazon because he has some beef with Jeff Bezos, we 
are now slowed down in our ability to properly defend this 
country.
    We cannot continually have petty differences, petty 
vengeance that the President wants to exercise on people he 
disagrees with, interfere with policy. We have seen it in the 
intel community. We have seen it in the Justice Department. We 
do not want to see it in the Department of Defense.
    And I hope people understand. I am not making a partisan 
point. I am not choosing sides in the argument. We should not 
let the personal preferences of the President get in the way of 
good policy.
    If he has something he wants to decide on a pure policy 
standpoint, that is fine. But if it is petty and personal it is 
not worth what it does to the Department of Defense and 
elsewhere.
    Again, I want to thank the Secretary and the Chairman for 
being here. It is incredibly important that you are doing the 
review you are doing.
    This is a complex situation. We cannot do everything we 
would like to do, which means you got to make tough choices. 
You got to make tough choices about how to properly balance the 
risk.
    What is the best way to defend the country? How can we 
leverage alliances, whole-of-government approach, so that we 
don't have an excessively militaristic approach to meeting our 
national security needs.
    Balancing all of that is difficult and it definitely takes 
a sort of start over approach, a thorough review of where we 
are at, where we should spend our money, and how best to meet 
our national security needs.
    I look forward to the discussion with the members and, 
again, I thank our witnesses for being here.
    With that, I yield to the ranking member for any opening 
statement he may have.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman, and let me begin 
by joining you in thanking our witnesses for being here, but 
even more importantly, thanking each of them for their service.
    As you point out, this is a challenging security 
environment. It is also a challenging political environment, 
and to be charged with what I believe is the first function of 
the Federal Government--to defend the country--is a significant 
responsibility and I appreciate the service of both the 
Secretary and the Chairman.
    I also appreciate the effort the Department has made to 
have a budget that reflects a strategy. We haven't had that in 
quite a while, and I think it is absolutely true that the 
strategy is imperfect and the budget is imperfect.
    The old ``you can't turn an aircraft carrier on a dime'' 
analogy has some application. But there is at least a concept 
around which we can make spending decisions. And so I 
appreciate the effort that the Department has put into doing 
so.
    There are tough choices, and especially with a fixed top 
line it will be a significant challenge for Congress to make 
these choices in a way that reflects the long-term security 
interests of the country.
    I also want to say I appreciate the efforts the Secretary 
has made for the defensewide review. It is something we have 
talked about in this committee, trying to get more value out of 
the taxpayer dollars for the benefit of the warfighter.
    And, again, we may agree or disagree with some of the 
specific choices. But the point is trying to not only make 
reductions in some areas but to make reforms also that can 
result in more for the--for the warfighter.
    I have to also make some comments about the recent 
reprogramming. Article 1 section 8 says it is Congress' 
responsibility--not just our authority but our responsibility--
to provide and maintain, raise and support, make the rules and 
regulations for the military forces of the United States.
    There have been decades--literally, decades--of practice 
where if there are changing needs money can be moved within the 
Department budget with the approval of Congress.
    That has not taken place in this most recent reprogramming. 
Now, you can argue that last year there was the MILCON and the 
other thing, but there was excess funds in the Army personnel 
account because they didn't meet their recruiting goals and so 
that money could be used for other purposes.
    This year is very different. This is not taking excess 
funds. This is substituting the judgment of the Department 
for--and actually the administration. I think, my opinion is, 
this is not totally at the discretion of the Secretary.
    It is substituting the judgment of the administration for 
the judgment of Congress by reducing specific weapons systems 
that had been authorized and appropriated.
    It is a--we made a different judgment call than the 
administration's budget request and, in effect, what the 
administration does is say we don't care what has been 
authorized and appropriated. We are going to do what we darn 
well want.
    In this room, as long as I have been in here, I think a 
fair amount about the guy that is just to the right of the TV 
screen there, Carl Vinson, for whom this room is named. In his 
history of the Second World War, Victor Davis Hanson said that 
the American fleet that broke the back of the Japanese navy in 
1943-44 was designed and approved before Pearl Harbor mostly 
through the efforts of one naval visionary, Congressman Carl 
Vinson, chairman of the House Naval Affairs Committee, who from 
1934 to 1940 pushed through five successive bills to expand and 
reconfigure the Navy.
    In other words, he had a different judgment call than the 
Roosevelt administration and because of what he did we were 
able to defeat--break the back of the Japanese navy in 1943-45.
    Different judgment calls we have made, and the list is 
long. Predators, MRAPs [Mine-Resistant Ambush Protected 
vehicles], ISR [intelligence, surveillance, and reconnaissance] 
aircraft, A-10s. We have made different judgment calls for 
years, and while our history, again, is not perfect it looks 
pretty good.
    But, to me, it is not just that sometimes we are right, 
sometimes we are wrong. It is the constitutional issue, and let 
me just quote, again, Carl Vinson, because he got into a tussle 
with the second Secretary of Defense, Louis Johnson, and he 
said, ``Congress provides the forces, the President commands 
them. If we ever get this principle of our government 
distorted, our whole fabric of government will be in jeopardy.
    ``It is whether the Constitution--I mean, whether the 
Congress will say what kind of defense the Nation will have or 
whether the creature of the Congress--the Secretary of Defense, 
Mr. Louis Johnson--will tell us what kind of a defense he will 
let the Congress have.''
    This is a deeper issue than the wall. I support physical 
barriers on the border. I support walls. But I am deeply 
concerned about where we are headed with the constitutional 
issue about Congress' role in national defense and whether that 
is being overridden.
    We need to hit on all cylinders in national defense. There 
are too many challenges out there for us, and I am afraid that 
this--the result of this will be greater restrictions on the 
Department's ability to move money around, to meet changing 
needs, and the country will suffer as a result.
    I hope I am proved wrong, but I am concerned about where 
this is headed. I yield back.
    The Chairman. Thank you.
    Mr. Secretary.

  STATEMENT OF HON. MARK T. ESPER, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Esper. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, I appreciate the 
opportunity to testify in support of the President's budget 
request for fiscal year 2021.
    I am joined today by the Chairman of the Joint Chiefs of 
Staff, General Mark Milley. The 2018 National Defense Strategy 
[NDS] provides a clear roadmap for the Department of Defense to 
address the reemergence of long-term strategic competition from 
near-peer competitors China, then Russia.
    Throughout the Pentagon and the joint force, the NDS guides 
our decisions and actions as we adapt the force to 
simultaneously contend with the threats of today while 
preparing for the challenges of tomorrow.
    We do this by increasing the readiness and lethality of our 
warfighters, strengthening our alliances and partnerships, and 
reforming the way that the Department does business.
    Additionally, we have placed renewed emphasis on taking 
care of our service members and their families. The Department 
is grateful for the strong support provided in the fiscal year 
2020 NDAA [National Defense Authorization Act] and DOD 
[Department of Defense] appropriations, which allowed us to 
make vital investments in our military's modernization, enabled 
the creation of the United States Space Force, and provide our 
service members with the largest pay increase in a decade.
    Our continued success is contingent upon predictable, 
adequate, sustained, and timely funding and I encourage 
Congress to pass a full year spending package for fiscal year 
2021 on time to avoid the debilitating effects of another 
continuing resolution.
    The Department's total fiscal year 2021 budget request is 
$705.4 billion. This represents a minor increase from the 
fiscal year 2020 enacted amount of $704.6 billion but does not 
keep pace with inflation.
    Given this flattened funding level, we were required to 
make many tough decisions to ensure our highest priorities were 
adequately funded.
    To enable our decision-making, we conducted a comprehensive 
defensewide review to reallocate resources from programs and 
activities that offer a low return on investment relative to 
the goals and objectives of the NDS.
    Over a 4-month period, we conducted over 20 review sessions 
examining almost $100 billion in programs, agencies, and 
activities that make up the Fourth Estate.
    This review generated $5.7 billion in fiscal year 2021 
savings that were reinvested back into readiness and lethality 
efforts.
    Each of the military services is also instituting a similar 
review process across their budgets to achieve the same outcome 
of realigning resources and finding savings that can be 
reinvested into higher priorities.
    Additionally--this is the third review--I have initiated 
the process of conducting full reviews of all combatant 
commands--all combatant commands--to properly align our global 
military posture to the NDS.
    This effort will enable the Department to shift greater 
emphasis to our higher priority region--the Indo-Pacific--or 
allow us to return troops home to build readiness.
    Thus far, we have ongoing reviews of AFRICOM and SOUTHCOM 
[United States Southern Command], and will expand to other 
commands over the coming months. My recent decision to deploy 
elements of an Army Security Force Assistance Brigade to Africa 
to replace units from a brigade combat team is an example of 
how this process is enabling us to better match resources to 
the mission of each combatant command.
    The Department's fiscal year 2021 budget reflects the same 
disciplined adherence to the NDS. To preserve our overmatch, we 
have made significant investments into several critical 
technologies that will alter the future battlefield.
    Our RDT&E [research, development, test, and evaluation] 
budget is the largest in our history and prioritizes 
hypersonics, microelectronics, 5G communications, autonomous 
systems, and artificial intelligence.
    We are moving forward with long overdue recapitalization of 
the Nation's nuclear triad with key investments in the ground-
based strategic deterrent, the B-21 stealth bomber, the 
Columbia-class submarine, and improved nuclear command, 
control, and communication systems, to name a few.
    We are also enhancing our missile defense capabilities to 
protect against the growing threat of advanced enemy missile 
defense systems.
    This budget request expands our capacity to defend our 
interests in space as we consolidate much of our space 
enterprise into the Space Force.
    It also advances the Department's cyber capabilities, 
allowing us to protect our digital infrastructure while 
disrupting covert foreign malign activity. This includes 
defending the integrity of our democracy by assisting in the 
security of our elections.
    The Department appreciates this committee's advocacy of the 
National Defense Strategy and we value Congress's guidance on 
reform. I now ask for your support so we may fully implement 
our decisions and move forward with the investments needed to 
ensure America's military maintains our competitive advantage, 
continues to deter conflict, and preserves our Nation's 
security.
    Thank you.
    [The prepared statement of Secretary Esper can be found in 
the Appendix on page 83.]
    The Chairman. Mr. Chairman.

STATEMENT OF GEN MARK A. MILLEY, USA, CHAIRMAN, JOINT CHIEFS OF 
                             STAFF

    General Milley. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, thank you for the 
opportunity to join Secretary Esper here today.
    It is my distinct honor and privilege to represent the 
almost 3 million soldiers, sailors, airmen, Marines, 
coastguardsmen, and civilians of the United States Armed 
Forces, the best trained, best equipped, and best led military 
force in the world, and we cannot do it without your continued 
support.
    This budget is a strategy-driven budget. It is driven by 
the NDS, which you are fully aware of and I fully support. We 
stand ready and capable today to deter war, defend our homeland 
from attack, support our allies, and fight and win our Nation's 
wars against any potential adversary anywhere on the Earth's 
surface or subsurface.
    But our competitive advantage has eroded and no one should 
be--have any doubt about that. China and Russia are increasing 
their military capabilities to outmatch the United States and 
its allies in order to exert their global influence.
    North Korea, Iran, and violent extremist organizations fuel 
regional instability and pose threats to partner nations and 
U.S. citizens. And while the nature of war is constant, 
advanced technologies have stressed our industrial-age 
capabilities, concepts, and processes, changing the very 
character of war in a fundamental way.
    Additionally, we are recovering from readiness shortfalls 
and modernization deferments over about 20 years now of 
continuous warfare and a decade of budget instability.
    This year's budget builds on previous readiness and 
modernization gains, and I believe the 2021 budget submission 
is the best allocation of resources. It is balanced in support 
of the National Defense Strategy.
    It builds a more lethal force. It strengthens allies and 
partners, and it reforms the Department for greater performance 
and affordability. It also prioritizes, as the Secretary said, 
the Indo-Pacific region to deter Chinese aggression, maintain 
stability, and ensure access to the common domains in order to 
preserve a free and open international system.
    Additionally, this budget accounts for continued efforts in 
Europe to counter Russian aggression and it will continue to 
allow the United States military in concert with our allies and 
partners to deter a provocative North Korea or Iran from 
aggressive actions in their regions while conducting 
counterterrorist operations in various parts of the world.
    In short, PB21 [President's budget 2021] supports a ready, 
agile, and capable joint force that can compete, deter, and win 
across all domains today and in the future, and it targets 
specific investments in readiness, modernization, leader 
development, and support to our people, our soldiers, our 
sailors, our airmen, Marines, and coastguardsmen and our 
families.
    It invests in our readiness recovery that was built over 
the last 3 years and with this committee's support all services 
are scheduled to meet their readiness recovery goals inside 
this FYDP [Future Years Defense Program].
    It funds modernization for great power competition across 
all the warfighting domains and it improves the safety, 
security, reliability of our nuclear enterprise.
    It invests and stands up the Space Force and increases the 
resiliency, deterrence capability, and warfighting options in 
both space and cyber. It funds joint all-domain command and 
control to improve our interoperability across all the services 
and with our allies.
    It invests in advanced technologies that the Secretary 
listed to address more complex threats and a faster pace in 
this changing character of war.
    This budget invests also, and finally, in our most valued 
asset, the United States Armed Forces--our people. It also 
funds facilities, infrastructure, family support, and quality 
of life programs, and it invests in the education and talent 
management processes to develop our junior leaders with the 
values and intellectual ability to fight and win future 
conflicts--the captains and ensigns of today who will be the 
admirals and generals of tomorrow.
    Ultimately, our military needs sustained, predictable, 
adequate, and timely funding to retain its competitive 
advantage in this era of great power competition with the 
understanding that we must be good stewards of the resources 
entrusted to us by Congress and the American people.
    I want to thank this committee for your continued support 
to our soldiers, sailors, airmen, Marines, and our families, 
and I look forward to asking--answering your questions.
    [The prepared statement of General Milley can be found in 
the Appendix on page 96.]
    The Chairman. Thank you very much.
    We will now move on to question and answer. As we go 
through, we have got a lot of people. It is going to be very 
difficult to get through. The one thing is, every member has 5 
minutes and, as I've said before, you can't ask the question 
for 4 minutes and 45 seconds and then get a 3-minute answer.
    I will try to let you gentlemen finish. But as we hit 5 
minutes if you could wrap up so we could move on to the next 
one. That would enable us to get to as many members as 
possible.
    I just want to ask about the blank slate review and just 
start from that point. If you could give us a little insight 
into how that worked, and AFRICOM is where you started.
    So if you could just--well, I mean, obviously, there were 
others there. AFRICOM was the first command that you looked at, 
and there has been a lot of press reporting on this, most of it 
inaccurate, I am aware.
    But if you could tell us when you looked at it did you 
contemplate, well, let's just pull all the forces out of 
Africa? Was that contemplated?
    If so, how far did that get? And then what was the analysis 
in terms of how you looked at our interests in Africa and the 
role that our forces could play and the risks that you were 
balancing, wherever you were going to send them?
    Just walk us through a little bit the specifics of how you 
did that because this is one piece of what you're going to be 
doing in a lot of other places as well.
    Secretary Esper. So, first of all, Mr. Chairman, there are 
three reviews ongoing right now. I mentioned them in my opening 
statement. One is review of the combatant commands. I will talk 
about that here in a minute.
    The second is the defensewide review led by the CMO [Chief 
Management Officer] and the third are the service reviews of 
their budgets. With regard to the combatant command reviews, 
you hit the nail on the head in the beginning.
    What I am trying to do is make sure we are aligned to the 
NDS but, secondly, that we can get in the better equilibrium 
demand, which is way up here, and supply, which is down here. 
This is what is driving our force in the ground in many 
instances and burning readiness.
    And so the way we began this process concurrently with the 
Joint Staff, what the Joint Staff did was look at all the 
combatant commands and went through two or three decades worth 
and discovered that these respective commands all have hundreds 
of tasks and requirements placed on them that the combatant 
commanders are working hard to achieve and resource, and that 
review is ongoing. In the case of AFRICOM, it was easily over a 
thousand.
    So as we looked at each command, what I wanted to make sure 
as I gave guidance to them is make sure that they came to me 
and presented a range of options that made sure that we 
prioritized what we needed to do.
    First, do you have the resources you need to meet your 
wartime and your contingency plans; second, great power 
competition; and then third, starts becoming unique to the 
theater.
    In the case of AFRICOM, do you--what are your missions with 
regard to counterterrorism and how are you resourcing it. With 
SOUTHCOM, it's the same first two but the third becomes counter 
drug--counter narcotics--and there are some other missions.
    And then what they--what we have been engaging now on over 
a series of months are back and forth as we look at different 
questions and issues and considerations.
    There are no plans to completely withdraw all forces from 
Africa. That has been misreported and repeated over and over 
again.
    But what I am looking to do is to make sure that I can 
resource the missions that are actually required and to 
rightsize the force consistent with that and the need to build 
readiness across the force so I can deal with China, then 
Russia, as part of the NDS.
    The Chairman. Can you give us just an example of something 
you have identified in any one of those reviews where it is, 
like, yes, that is something that we don't need to do anymore?
    And I am not saying that it is unimportant or irrelevant. 
But you looked at it and said we need to move off of that 
because it is not the best use of our dollars in that case, 
whether in Africa or in the services or wherever.
    Secretary Esper. Well, no decisions have been made yet on 
SOUTHCOM. The only decision I have made so far in AFRICOM was 
to replace a regular infantry unit from the 101st with a 
Security Force Assistance Brigade.
    It makes great sense in terms of great power competition 
because the Security Force Assistance Brigade is trained, 
organized, equipped to do that mission, to provide training 
that is important to forces on the ground as we try and make 
sure we compete and improve their capabilities, whereas an 
infantry battalion doesn't have that. The infantry battalion in 
this case need to go back home so they can prepare for great 
power competition.
    So that is an example where just swapping out the forces 
really gets your great power competition to a different level. 
So that's a case in point.
    We have found in the theaters--and the Chairman may want to 
speak to this--over the years, we have stacked up crisis 
response forces and have held them pending in the cases we 
never--we never actually used them.
    And so we are looking at how do we make sure we get those 
special operation forces and others back to where we can meet 
the needs if there is a crisis, but at the same token not--
allow the others to go back and retain a better readiness 
posture.
    That is one issue that has come up. I have not made any 
decisions on that yet. But that is something that I think we 
all recognize. The Chairman may want to comment on that one 
about these are the things that we are uncovering and we are 
uncovering a lot of things as we go through this process.
    General Milley. Just very briefly. You know, pick the red 
pen up first. We have to do an intel analysis of not only the 
globe but in specific areas. So do a rigorous intelligence 
analysis of the actual threats that are in Africa relative to 
our national security vital interests.
    Take terrorism as an example. There is a lot of terrorist 
organizations and groups in Africa. Not all are created equal. 
So we got to parse all of those out, determine which ones are 
actual threats to the United States and make sure we have the 
right size and we have the right type of force in the right 
place at the right time to meet that.
    Same thing with China, Russia, and great power competition. 
For example, in Africa, are they at the right place, the right 
time, and so on.
    We have multiple things that have been built up over 20, 30 
years in EXORDs [execute orders] and OPORDs [operations orders] 
and we are going through that and editing it and making sure 
that it is rational in given--rational in accordance with the 
NDS.
    The Secretary mentioned the crisis response forces. But 
there is other things out there. Take the Sinai, for example. 
You know, Camp David Accord, signed in 1981. I served in the 
Sinai. Is that still a valid mission for U.S. military forces? 
Yes, no. Arguments to be made on both sides.
    We are going through all that kind of stuff, every single 
task and purpose out there for the United States military from 
space down to undersea. Does it still make sense in accordance 
with the NDS?
    Is it warranted with the changing character of war, and so 
on, and if yes, check. Continue, pass go, collect $200. If not, 
then we delete it.
    The Chairman. Thank you.
    Secretary Esper. I was in--just a quick anecdote. I was in 
STRATCOM [United States Strategic Command] last week. Admiral 
Richard, who runs STRATCOM, has a tasking on his books that 
dates to the 1960s. He can't even find out where it came from, 
and in the present context it doesn't make any sense.
    And so as I had my initial discussion with him about his 
review, those are the things we are trying to undo because if 
you can--if you look at the mission, if it doesn't make sense 
it frees up resources--time, money, and manpower--that can put 
back into higher priority things.
    The Chairman. Thank you, gentlemen.
    Mr. Thornberry.
    Mr. Thornberry. Mr. Secretary, we are about to embark on 
trying to write a defense authorization bill for what would be 
the 59th straight year if it's signed into law, and I guess my 
basic question to you is is it going to matter.
    Or will OMB [Office of Management and Budget] send down a 
directive saying, we don't--even though it is signed into law, 
authorized, and appropriated we are going to take away some 
money for some planes or satellites or something and move it to 
other things?
    Secretary Esper. Mr. Thornberry, what the Congress does 
matters. It matters very much, and we look to the Congress as 
partners as we try and develop our game plan to serve the 
country, defend the country, and help us implement the NDS.
    Mr. Thornberry. Well, as I have already expressed some of 
the concerns I have, I hope we can be partners because I think 
the country is stronger as a result.
    Mr. Chairman, let me just ask you briefly before we get 
into all of the should we spend more on this or less on that 
sort of questions.
    Help us provide some context for the situation we find 
ourselves in. If you were to give a brief description to the 
Rotary Club in Amarillo, Texas, about how warfare has changed--
in other words, the context for which tough choices have to be 
made, a strategy has--a different strategy has to be in place, 
how would you encapsulate that in a brief description?
    General Milley. I am not sure it could be brief, 
Congressman Thornberry. But I guess as brief as I can there, 
technology has influenced warfare throughout the ages and today 
is no different, and we are probably in one of the greatest 
shifts in the character of war. Not the nature. The nature of 
war is all about politics, friction, uncertainty, et cetera--
fear, violence. That is war--the nature of war.
    But the character of war changes very frequently. It 
changes, largely, driven by technology but there is other 
reasons, societal reasons as well.
    But in today's day and age it is changing very, very 
rapidly because of precision of munitions, the ability of our 
sensors that are available to many, many countries, our ability 
to see and determine where people are, where things are 
throughout the world, and that which you can see you can hit.
    The range at which we can engage is much, much longer today 
than it's ever been in human history. There's a wide variety of 
emerging technologies that are converging in time and space 
that are going to have a significant military implication.
    Artificial intelligence is huge. Hypersonic, robotics, and 
there is a laundry list of about 20 or 30 additional emerging 
technologies. All of that is going to change the fundamental 
character of war, that which--how we fight, the weapons we 
fight with, the methods, the doctrines, et cetera. We are 
living through that right now.
    What is really the challenge for the United States and for 
other countries is who is going adapt to that changing 
character the most--with the most speed and who is going to 
have it about right.
    You are never going to get it perfect but you got to get it 
right more than your adversary gets it right and that is going 
to determine in large respect whether or not we prevail in some 
sort of conflict against our next adversary.
    There is a lot at stake here. This budget, what it does is 
it lays the foundations. It doesn't create that future force 
but it does lay the foundation with research, development, 
science, technology, and a few other lines of effort that lead 
us into the future.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to both of 
you. Thank you for your service, for joining us today.
    I want to follow up with both the chairman and the ranking 
member's comment regarding the transfer of funds that the 
Congress has not approved.
    As we know, there have been a lot of comments about budget 
predictability from Congress and I appreciate that. I think 
that is the right way to go, of course.
    But what--could you tell us what funds are you planning on 
transferring to the wall in 2021 so that we can find a better 
use for those dollars now?
    Secretary Esper. Thanks, Congresswoman.
    The funds--the sourcing would be from fiscal year 2020 
dollars that were either ahead of need or excess to need--in 
other words, not requested in the fiscal year 2020 budget by 
the Department.
    Mrs. Davis. If they--if they were not requested and if they 
are not important, if they are not a high priority, why are 
they there? And aren't there many, many more uses that we have 
for those dollars?
    Secretary Esper. They are there because Congress put them 
there.
    Mrs. Davis. If they are there because we put them there and 
you didn't believe that they were important or a high priority, 
was there a discussion about that that you felt you couldn't 
change?
    And it seems to me that, you know, we have to be doing 
what's the most important and the message that you are sending 
is that these projects, and some of them are critically 
important.
    Some of them involve major vehicles. Air Force--there are 
so many things that have been touched by that that it sends a 
message that the military doesn't need that money.
    How do we respond then to constituents that see us cutting 
out areas where we have--we made a strong commitment not to 
refill--to pay back those dollars and yet, you know, we are 
sitting here without having been involved in that decision, the 
transfer decision specifically?
    Secretary Esper. Sure. Look at--I understand what you are 
saying, Congresswoman. The President has determined that we 
have a national emergency on our southwest border--that to deal 
with that emergency that we need a barrier system, that that 
barrier system development, which is led by DHS [Department of 
Homeland Security], requires the support of DOD, and that is 
our role in this process, supporting DHS.
    Mrs. Davis. Is the southern border security in the National 
Defense Strategy?
    Secretary Esper. Homeland security is in the National 
Defense Strategy and it is one of the things that 
administrations have supported in the past with regard to 
security of the southern border.
    Mrs. Davis. Because I wanted to point out that the word 
border only appears once in the National Defense Strategy and 
it is about Russia violating sovereign borders.
    Secretary Esper. Right. Homeland security is in the--is in 
the National Defense Strategy. There is a lot of things we do 
that aren't in the National Defense Strategy. We help people 
during floods. We help people during hurricanes.
    We help put out wildfires in the West. I mean, there is a 
lot of things that we do that aren't always captured. But it's 
the nature of what we do when the Nation calls upon us to 
support.
    Mrs. Davis. Well, I think that if there are areas that you 
know that you are going to tap for part of your strategy on the 
border, which is not in the National Defense Strategy, then I 
think that is important for Congress to know, because you are 
telling us that that is not very important.
    Secretary Esper. Congresswoman, there is a lot of things 
that we do that are not in the National Defense Strategy. That 
is what we are trying to clean up as we do our review here with 
the COCOMs [combatant commands] and with the rest of the 
services.
    Mrs. Davis. Okay. Thank you, Mr. Secretary.
    General Milley, if I could just turn to you for a second. 
The National Nuclear Security Administration [NNSA] still has 
about $8 billion left in unspent funds from last year and that 
is half their fiscal year 2020 budget.
    So is it in your best military advice that cutting a 
Virginia-class submarine to increase the NNSA's budget by 20 
percent is good prioritization?
    General Milley. No, it is not, ma'am. In that particular 
case, I wasn't personally involved in the decision on that. 
However, that was a case where there was some internal 
deliberations at the last minute to make sure that the nuclear 
enterprise was fully funded.
    Mrs. Davis. Do you believe----
    General Milley. Well, let me just--so it is a question of--
I wasn't personally in the meeting on that one. However, had I 
been, I would have supported the fully funding of the nuclear 
enterprise.
    We have been--we have not had a great power war in seven 
and a half decades--75 years since World War II. A big reason 
for that is the United States nuclear enterprise.
    That is not the only reason, and I believe and I said it in 
testimony previously, that the number one priority of the 
United States--the budget--is to make sure that we have a safe, 
secure, guaranteed nuclear enterprise and that is where that 
money----
    The Chairman. We are going to have to--I apologize, but we 
are going to have to leave it there because we are over time.
    General Milley. Okay. I would have supported it.
    The Chairman. Understood.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Secretary Esper and Chairman Milley, thank you for 
being with us here today to discuss the fiscal year 2021 
defense authorization budget request.
    The United States faces complex and dynamic security 
environments and, thankfully, President Donald Trump's budget 
for the national security matters promotes peace through 
strength.
    And, Secretary Esper, I want to let you know how much I 
appreciated joining you touring and visiting the troops at Fort 
Jackson last year, and then you not only observed but then you 
joined the troops in rapelling from the tower and that was very 
impressive, your identification with our new trainees.
    Secretary Esper, American strategic nuclear forces are 
critical, as has been so correctly cited by Chairman Milley, to 
deterring our adversaries. President Trump has made it clear 
his priority at the Department of Defense is to modernize our 
aging nuclear enterprises.
    Can you provide the committee with an update where China 
and Russia are with our nuclear capabilities and why we need to 
modernize and expand our American nuclear programs?
    General Milley. With respect to Russia, they are the only 
country on the Earth that represents an actually no kidding 
existential threat to the United States of America. Every man, 
woman, and child could be killed by the Russians, and we can do 
the same to them.
    And they know that and we know that. Hence, mutually 
assured destruction. Hence, deterrence. So maintaining a 
guaranteed nuclear enterprise is critical relative to Russia.
    With respect to China, their nuclear enterprise is growing 
and growing rapidly, and us having a modernized nuclear 
enterprise is fundamental to the security of the United States 
in the outyears and we are at a point now where we have to 
modernize and invest in the triad in order to assure ourselves 
security in the future.
    It is very expensive and I know that. We all recognize 
that. But it is absolutely critical to the security of the 
United States.
    Mr. Wilson. Thank you very much.
    And then, Secretary Esper, we are grateful that the U.S. 
Army Cyber Command is our next-door neighbor at Fort Gordon. It 
is important to defend our cyber networks and infrastructure.
    Acting Secretary of the Navy Thomas Modly said 5 days ago, 
``It's not so much the top tier suppliers but it's the second 
and third tier suppliers that have a lot of vulnerabilities 
that we have discussed and discovered,'' end of quote.
    What is being done by the Department to address this threat 
and what industries are most vulnerable?
    Secretary Esper. Mr. Wilson, I think as you--across the 
entire industrial base as you move from the primes all the way 
down through the supply chain the further you get out there, 
the more vulnerable they typically are to cyber influence, 
tampering, et cetera.
    So I know our folks in research and engineering and 
acquisition sustainment are working on programs where we might 
be able to assist them with that surety.
    I met recently, had dinner with a number of company CEOs 
[chief executive officers]. We discussed the same issue. But we 
have to do a whole lot better job and help these extended 
tier--second, third, fourth tier suppliers improve their 
cybersecurity so that we have confidence in the systems once 
they come together and provide us that capability.
    Mr. Wilson. Thank you very much.
    And then, Chairman Milley, I believe that the F-35 and 
fifth-generation aircraft are essential to securing and 
maintaining U.S. air superiority. However, as a multi-role 
fighter, can you tell us from your perspective what the F-35 
brings to the fight in support of ground troops? How is the F-
35 a game changer for the troops on the ground?
    General Milley. Well, as someone who has been in a fair 
share of ground contact, the very first call you ever make--
frankly, when the bullets are flying you call for attack 
helicopters or you call for close air support, and an F-35 is 
the premier fighter bomber in the world.
    It is an incredible aircraft. It is, obviously, very, very 
expensive but it's an incredible aircraft, and it will be a 
significant weapon system in support of ground forces in the 
future.
    And it also--one thing on the air-to-air piece is that the 
United States Army and Marine Corps have not come under 
sustained enemy air attack, really, since Normandy and I think 
there was one attack during Vietnam or maybe the Korean War or 
something like that. But nothing sustained.
    Why is that? It is because we have the most unbelievable 
Air Force the world has ever seen and we not only maintain air 
superiority we get air supremacy across the board.
    And that is what that F-35 is all about--making sure that 
we don't lose soldiers and Marines on the ground from enemy 
air. So that will clear the skies, maintain supremacy, and also 
perform a close air support role.
    Mr. Wilson. Well, we are grateful that F-35s are located in 
Marine Corps Air Station Beaufort.
    Thank you very much.
    General Milley. Thank you.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Mr. Secretary, Mr. 
Chairman, I want to thank you for your testimony here today and 
for all you do on behalf of our Nation and keeping us safe.
    I want to follow up just on--in commenting on the issue 
that my colleague, Mrs. Davis, raised on the Virginia-class 
submarine. I want to express my very strong concern that the 
budget only includes one Virginia-class sub rather than two, 
and this is against the recommendation of combatant commanders.
    While nuclear modernization, of course, is certainly 
important--very important--we shouldn't be financing it with 
funding for an attack submarine.
    So this is something that we are going to be following 
closely through the NDAA reauthorization process, the 
appropriation process. Given the demands for the Virginia-class 
submarines by our combatant commanders and a very small 
percentage of requests that they make are only fulfilled and 
our enemies and adversaries have a high build rate on 
submarines right now and they have grown capabilities, it is 
something that we need to be concerned about. I don't think 
that is an area that we can afford to be cutting.
    But that being said, I want to go to another issue on--you 
know, the issue of climate change. In fiscal year 2018 in the 
NDAA I authorized--I authored legislation that instructed each 
service to assess the risks of climate change on the military 
facilities.
    Secretary, I appreciate the--you, Secretary of the Army--
the list that you sent back to the committee identifying those 
bases. But the implications of climate change are indisputable. 
The Department manages more than 1,700 military installations 
in worldwide coastal areas that may be affected by sea level 
rise. Hurricane Michael and Florence, just by way of example, 
caused an estimated $8.3 billion in damage.
    Secretary Esper, do you agree that the change in climate 
poses a threat to our readiness and ability to achieve military 
objectives?
    Secretary Esper. Thank you, Mr. Langevin.
    I agree, as I think we reported as the Chairman and I when 
we were at the Army is that climate change posed a challenge 
for our installations in making sure that we can maintain 
installation readiness to support our forces.
    We discovered this in the Army that the biggest challenge 
we face was, for example, I think as you and I spoke, was 
desertification out west at many of our bases.
    So it is something I am aware of. I know we face a 
challenge at Norfolk with rising tides. It is something we have 
to plan on to make sure we can address it so we maintain a 
strong installational base.
    Mr. Langevin. Is it affecting our readiness?
    Secretary Esper. I don't think it is affecting our 
readiness right now. I would have to dig into that and get back 
to you to give you a more sound answer. But I have not--it has 
not been reported to me that it is affecting our readiness 
presently.
    [The information referred to can be found in the Appendix 
on page 117.]
    Mr. Langevin. Do you agree that we need to make investments 
today in order to mitigate the risks that we do face and that 
we will face in the short, medium, and the long terms and what 
would some of those investments be?
    Secretary Esper. Sure. I think we do where it is 
appropriate and where we can make a difference. And so I 
mentioned Norfolk. I believe, you know, there is concern about, 
again, a rising tide, what it may do to the dry docks, and I 
think the Navy is investing in that.
    But, again, that is something I would like to come back to 
you on. But we are looking at those issues and tracking them 
and making appropriate investments.
    Mr. Langevin. Well, will you commit to working with me and 
my colleagues at the Department to determine the appropriate 
investments necessary to protect our national security from 
climate change?
    Secretary Esper. Sure.
    Mr. Langevin. Thank you.
    On another topic, on cybersecurity, Secretary Esper, over 
the last year I have had the privilege to serve on the 
Cyberspace Solarium Commission and worked with your colleagues, 
Deputy Secretary of Defense David Norquist and Assistant 
Secretary Ken Rapuano.
    I appreciate their contributions to the discussion and 
their work product in the coming weeks. The Commission is going 
to outline a strategy of layered deterrence to protect the 
Nation from the many threats that we face in cyberspace.
    Secretary, will you commit to working with me and 
Congressman Gallagher, who is one of the co-chairs of the 
Commission, and also Senator King and the members of the 
Commission and also the members of this committee to implement 
the many legislative recommendations outlined in the 
forthcoming Commission report where we can find agreement and 
where practical?
    Secretary Esper. Yes, Congressman. I do. I look forward to 
working with you on that. I have gotten positive feedback 
from--well with regard to that effort. So thank you for your 
contributions.
    Mr. Langevin. Thank you.
    In our discussion the other day when we had an opportunity 
to talk by phone I expressed my concern also about the 
rebalance potential in forces in AFRICOM and I want to just 
express my concern there that leaving power vacuums will not 
go, obviously, unfilled.
    Our enemies and adversaries, China and Russia, are going to 
look to fill those areas and I would ask you to work with the 
committee before any decisions are made so that we understand 
the costs and benefits of that rebalancing in Africa, should it 
occur.
    The Chairman. Thank you. The gentleman's time has expired.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, I want to begin by acknowledging that there 
is probably nobody in this room who is more disappointed than 
you that there are funds being taken from the Department of 
Defense to secure our border.
    Securing our border, obviously, is an issue of our national 
defense. But it is Congress's failure to act, not your actions, 
that are resulting in dollars being taken from the Department 
of Defense budget.
    It is our congressional law that allows the President to 
take these funds to secure our border, which has already been 
upheld by the Supreme Court. Congress's failure to act is the 
failure to actually provide the funds necessary to secure our 
border. We all know you don't have too much money. You have 
other resources and other responsibilities you would like to 
apply those funds to.
    But, certainly, hope people that were fond to criticize you 
for this realize this is a criticism that should be directed 
toward Congress and that we should take an action to backfill 
those funds and give the President the funds necessary to 
secure our border.
    Mr. Secretary, I want to congratulate you on your comments 
at Munich and your focus with respect to China. I participated. 
I spoke at events with the Atlantic Council, the Potsdam 
Foundation, Hudson Institute, and the German Marshall Fund.
    I want you to know your comments resonated both with our 
German counterparts, our U.S. counterparts, and also with our 
NATO allies, and specifically with respect to Huawei I think 
your comments made a tremendous difference and I appreciate 
both of you participating and speaking out.
    I also want to thank you for having attended Wright-
Patterson Air Force Base and going and touring NASIC [National 
Air and Space Intelligence Center]. It made a tremendous 
difference to the more than 3,000 people that you know 
contribute directly to our intelligence every day.
    And I want to raise an issue with respect to NASIC. Two 
questions for you, one with respect to Space Force and NASIC 
and the second with respect to our nuclear enterprise.
    In standing up Space Force, you have said that it is our 
intention to advance our space capabilities and our defense of 
our assets and looking at that as a warfighting domain.
    You've indicated that you do not want duplication of 
services. But, obviously, as you know, there are a number of 
people who are concerned as Space Force is stepped up not that 
it would--that they might go to Space Force but their job might 
and that they might not instead.
    So anything that you could say to protection of our Centers 
of Excellence that they are not at risk as you are looking at 
standing up Space Force and you want to actually augment and 
support those would be helpful.
    And then with respect to nuclear modernization I want to 
thank you for David Norquist's work and your support for the 
NNSA, and if you could speak for a moment--because we are going 
to have to debate those funds--about what Russia is doing and 
how is it a threat to us. Because they are not just modernizing 
their nuclear weapons; they are creating new ones, and what 
does that mean as we debate our budget, Mr. Secretary?
    Secretary Esper. Sure, just quickly I just want to say 
thank you for hosting me at Wright-Pat and I did have a great 
visit to NASIC. They do exceptional work, and as we look 
forward to how we organize Space Force, obviously, you are not 
looking for duplication, and I don't want to break something 
that is working.
    So you and I talked about that before. I will take it back 
and make sure that works into all the calculations and make 
sure we consult with you as things evolve. But they do great 
work there and thank you for showing that to me.
    With regard to Russia, you are absolutely correct, 
Congressman. What they are doing is not just growing their 
strategic forces but they are creating new capabilities and 
they are improving the quality of their force as well.
    We talk a lot about their strategic systems. What often 
goes--is ignored are their tactical and nuclear weapons. I call 
them the unaccountable nuclear weapons. They number nearly 
2,000 and then they are--they are battlefield weapons. They 
are--we see them used in naval warfare and that is one thing we 
have to pay close attention to as well with regard to their 
strategic forces.
    Mr. Turner. So as we take a look at this budget, I mean, we 
are, obviously, going to have to look at what NNSA needs so we 
can modernize our forces. Now, we are only modernizing, meaning 
we are trying to keep the capabilities that we have, not even 
reach their hypersonic capabilities, their violations of the 
INF [Intermediate-Range Nuclear Forces Treaty].
    Could you give us your concerns about our current nuclear 
enterprise and the need for those funds that are in the 
President's budget?
    Secretary Esper. Well, the current nuclear enterprise is 
very old, both in terms of the platforms, which is why we are 
modernizing all legs of the triad, but also the packages, if 
you will--the devices themselves.
    So it is important that we get to that 80 pit per year by 
2030 goal so that we have what is essential: a safe, reliable, 
effective credible secure nuclear force that can keep us safe 
and secure in the 2030s and well beyond.
    And that is going to be critical. We are not trying to--we 
are not trying to get into an arms race with Russia because 
that is--we are not trying to match them weapon for weapon. But 
what we do need to have is the essentials to keep America safe 
and secure, to have that--the different capabilities that each 
leg in the triad brings us with either complementary or other 
purposes.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman.
    I want to yield my time to Representative Horn of Oklahoma.
    Ms. Horn. Thank you, Mr. Larsen. Thank you, Mr. Chairman.
    Thank you, Secretary Esper and General Milley, for being 
here today.
    I would like to turn our attention to a different issue. It 
is a component of our readiness that we have been doing a lot 
of work on over the last year that is critical and that is our 
military housing.
    As you are both undoubtedly aware, we have had some 
significant issues with our privatized military housing 
programs and we undertook in last year's defense authorization 
bill the Tenants Bill of Rights and a number of other things to 
help address that.
    In the fiscal year 2021 budget request, it contains $54.6 
million for the military housing privatization initiative 
[MHPI], which is an 82 percent increase from fiscal year 2020.
    We know that caring for service members and their families 
and ensuring that they have safe liveable housing is a critical 
component of our readiness, and as I understand it, this 
Department request for these funds are to help augment staff, 
improve quality control measures, develop and manage a 
database, and much more. We are, I think, just at the 
beginning.
    And yesterday you signed a document that would guarantee 
the implementation of most of the provisions in the Tenants 
Bill of Rights by May 1st. But there are a few outstanding 
issues that I would like to get some insight on.
    There are three I think of the most critical that will not 
be implemented by the 1st and that they are the maintenance 
history of the housing unit, dispute resolution process, and a 
withholding of rent.
    Because at Tinker Air Force Base, right in the heart of 
Oklahoma, we have not seen tangible improvements in many areas 
that we would like to due to contractors and responsiveness.
    So I would like to hear from you since we have implemented 
the Tenants Bill of Rights in the beginning, the timeline for 
implementing those and making sure that the funds are going 
directly to address these critical issues.
    Secretary Esper. Sure. Thank you, Congresswoman.
    I understand the issues at Tinker are fairly acute. You 
know, I was at Fort Sill last year and walked through a number 
of homes. It has its own separate set of issues that the 
Chairman and I worked on previously.
    You are right. Last night the service secretaries and I 
yesterday signed out the Tenant Bill of Rights, addressing 15 
of the 18 rights that were set forth in law. Those 15 were ones 
we were working on contemporaneously. The three that we are 
going to require more assistance on are dispute resolution, 
maintenance history, and withholding of rent provisions.
    In these cases they are--they are--the reason why we can't 
unilaterally is because there are legal contracts between DOD 
and the MHPI companies with regard to that.
    We have a pathway on some of these to move forward to find 
a mutually agreeable way to meet the intent and the spirit if 
not the letter of the law. But I think we are going to have to 
come back and work with you all as well to assist us because 
these are--again, we have legal contracts between them and we 
want to make sure we--what I don't want to do is promise a 
right that I can't deliver on. The important thing is we have a 
deliverable right that service members can act on because they 
should live in quality safe housing. What we have seen in the 
past is completely unsatisfactory.
    Ms. Horn. And, Secretary, what I would ask of you and 
General Milley that we need--we have continued work to do on 
this issue. I think there is more that we need to do.
    So wherever you are running into roadblocks we have got 
to--we have got to fix this problem that is affecting the 
health and well-being of our service members and their 
families.
    General Milley, I want to turn to you for just a moment. 
The Army initiated a policy of having someone in uniform 
visiting every soldier's on-base housing unit so they could 
actually put eyes on the problem.
    We discovered that part of the challenge was a lack of 
oversight from our chain of command, and I am wondering about 
when we can expect the other service branches to begin to 
implement this sort of policy.
    General Milley. I will come back to you with an actual date 
but we have discussed that amongst the Joint Chiefs and each of 
the respective chiefs of not only just the Army but the CNO 
[Chief of Naval Operations], Chief Staff of the Air Force, 
Commandant, Marine Corps, they have all committed to doing 
that. I trust they are doing that. But I can get back to you 
with specific dates on when it will be complete.
    [The information referred to can be found in the Appendix 
on page 119.]
    Ms. Horn. Thank you very much. I yield back the balance of 
my time.
    The Chairman. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, and thank both of you 
for your attendance and for your service to our country.
    Mr. Secretary, in last year's NDAA we passed language that 
was explicit in directing you to, quote, ``assign the director 
of the Missile Defense Agency with the principal responsibility 
for the development and deployment of hypersonic and ballistic 
tracking space sensors.'' Money was put in to fund that. But, 
yet, the money was redirected to the Space Development Agency.
    This year's funding request you say, quote, ``Funding 
responsibility has transferred from MDA [Missile Defense 
Agency] to SDA [Space Development Agency] for the continued 
hypersonic ballistic tracking space sensor development 
efforts.''
    Why? Why is it not being left in MDA where we directed it 
to be conducted?
    Secretary Esper. Mr. Rogers, my understanding is it is at 
MDA. If there is something misstated in our budget documents I 
need to get back to you. But my understanding is it resides 
with MDA. It is the hypersonic and ballistic missile tracking 
space sensor payload, as you discussed. They both are, 
obviously, closely coordinating on that. But MDA did receive 
the funding for both those things and it is 2-year funds. So--
--
    Mr. Rogers. I would ask you to revisit that because that 
funding was redirected to SDA and nothing has been done in the 
last year on that--on that issue, which you know is a very 
important threat for us.
    Secretary Esper. Right. You know, I have been down to the 
arsenal and I have walked through those programs in the past. 
But let me get back to you because I am getting a different 
readout from my folks and let us--we can reconcile that.
    [The information referred to can be found in the Appendix 
on page 117.]
    Mr. Rogers. Thank you.
    You have made it clear that you are fully committed to a 
355-ship Navy and in order to get that we are going to have to 
buy smaller ships that can be deployed faster.
    You have also said you see those being lightly manned 
ships. Do you think those are going to be medium or large 
unmanned vessels? Or do you think you are going to have to get 
some smaller ships into the fleet mix?
    Secretary Esper. First thing, I am committed to a 355-ship 
Navy but I got to say I actually think we need more than 355 
ships and to get there I think the composition needs to change. 
Fewer large platforms, more smaller platforms.
    We need to have lightly manned, moving to, eventually, 
optionally manned. And I think we need more attack submarines, 
frankly. They have to have certain compositional 
characteristics. They have got to have distributed awareness 
and lethality, survivability. They have to be sustainable in 
the long run and they have the ability to deliver lethal fire.
    So I think what we need to do is be much more aggressive in 
terms of experimenting and prototyping, and then quickly move 
to production once we feel confident. But we need to have--we 
need to maintain the U.S. Navy as the greatest force in the 
world and we need to adapt to the threats we see.
    The two challenges that we have right now is we need to 
base it off of a current op plan [operations plan], which we 
don't have, and secondly, we need to update it based on a new 
joint warfighting doctrine, something that the Chairman of the 
Joint Chiefs of Staff is working on.
    I think that will really help inform so that we are 
prepared to deal with the challenges we see in the 2030s, 
2040s, and 2050s.
    Mr. Rogers. Great. You have also emphasized the need for a 
healthy industrial base including shipyards. How do you plan to 
incorporate these shipyards into our industrial base?
    Secretary Esper. They are absolutely critical, not just the 
yards but I assume when you say yards it's the workers as well. 
I have talked to several members about how do we certify, how 
do we give predictability in funding, how do we do those 
things. I think we need--probably need more yards to do the 
work to build a much, much larger Navy and I think it is 
something we really have to focus on.
    GAO [Government Accountability Office] did an extensive 
report in December which outlined all the challenges the Navy 
is facing with regard to maintenance, and so much of it is 
based on both capacity at the yards the training of the 
workforce.
    Mr. Rogers. Great.
    General Milley, the Indo-Pacific region is getting a lot of 
attention for good reason, given what China, Russia, and North 
Korea are up to.
    There has been some discussions about increasing the 
duration of rotations of the Army's Pacific Pathways program. 
Is that something you are planning to do across the services or 
just the Army?
    General Milley. No, that is across the services in terms of 
increasing rotations throughout Indo-Pacific. Again, in the 
NDS, a strategy-driven budget here--in the NDS, the Indo-
Pacific was designated as the, quote, in military terms, ``the 
main effort.'' That doesn't mean it's the only effort but it's 
the main effort.
    So the preponderance of the U.S. military capability in 
various forms, either forward based and stationed and/or 
cyclically rotating through for exercises and our deployments 
is what we are trying to do. So it applies to all the services, 
not just the Army.
    Mr. Rogers. Okay. I yield the balance of my time to Ms. 
Cheney if she has a question.
    Ms. Cheney. I just want to echo the concerns and the 
comments that you have heard about the reprogramming. I also 
want to know whether or not the Department has decided that, 
contrary to what we heard repeatedly from your predecessors, an 
increase of 3 to 5 percent real growth annually is necessary in 
order to maintain and continue the kind of growth that we have 
seen in rebuilding the budget. That is not what we have seen, 
and if we are being forced to choose between modernizing our 
nuclear forces and building Virginia-class submarines, then you 
are not asking for enough money and we are not providing you 
with the kind of regularity that you need.
    Secretary Esper. The Department needs----
    The Chairman. That is--go ahead. You have got 2 seconds.
    Secretary Esper. The Department needs 3 to 5 percent real 
growth annually if we are going to fully implement the National 
Defense Strategy.
    The Chairman. Okay. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    In the spirit of Carl Vinson, I want to just talk to the 
two witnesses today about the 19 percent cut to shipbuilding in 
this year's budget.
    A couple days ago, the Congressional Research Service 
looked at the Department's submission of the budget. Mr. 
O'Rourke, who knows more about shipbuilding than anybody in 
this town combined, actually, in his understated way, 
eviscerated this request.
    In the Department's submission this morning it states that 
there are eight ships--new ships--that are in their budget 
plan.
    Mr. O'Rourke actually determined that the LPD [landing 
platform, dock] 31, which was listed, actually we funded and 
authorized last year. So there's actually only seven. Two of 
those seven are tugboats. They are salvage ships. We are not 
getting briefings in this committee about Russian tugboats or 
Chinese tugboats.
    We, in fact, then are left with, really, five combatant 
ships.
    Mr. Secretary, I have been on the Seapower Committee for 14 
years. You have to go back to the height of the surge when the 
Navy shipbuilding was a bill payer because we had 200,000 
troops in a land war over in the Middle East to see such an 
anemic shipbuilding request from the administration here today.
    And I would just say this is a punch in the gut to shipyard 
workers, the metal trades who are making life commitments to 
learn how to be welders and electricians and carpenters, to see 
this radical rudder turn in this year's budget in terms of 
shipbuilding.
    It is also a punch in the gut to the supply chain who, 
again, we have been coaxing back into shipbuilding, again, 
after the lean years during the Iraq and Afghanistan war to 
make investments in terms of capital and hiring. Again, they 
are going to be on the Hill next Monday making the rounds here. 
BWXT from Ohio issued an earnings warning yesterday. They are 
the sole supplier of nuclear reactors for Navy ships because of 
that cut to the Virginia-class program.
    But, lastly, it is a punch in the gut to the combatant 
commanders. Again, just in the last few days we have had 
General Wolters at European Command talk about a 50 percent 
increase in Russian submarine patrol operations.
    We have had Woody Lewis from the U.S. 2nd Fleet talking 
about the ever-increasing number of submarines, Admiral 
Davidson over in Indo-Pacific saying that his day-to-day 
submarine requirement is met by slightly only 50 percent of 
what I've have asked for.
    So, again, this budget fails the test in terms of the 
National Defense Strategy which is focused on our near-peer 
competitors because it is primarily an air and sea challenge 
when you are talking about Russia and China and, again, you 
don't recover from a cut like this anytime soon.
    Again, just for the record, we are 52 attack submarines 
today. With the retirement of Los Angeles-class submarines, 
which are going to accelerate over the next 4 or 5 years, that 
fleet is going to shrink to 44 subs.
    Your budget keeps us in that trough into the 2030s and, 
again, it just defies any analysis in terms of something that 
comports with the National Defense Strategy, again, based on 
the activities that we are seeing from China and Russia.
    Thank goodness that Admiral Gilday, in his unfunded budget 
priorities, number one on his list, which he submitted a couple 
days ago, is to restore that Virginia-class submarine so that 
we at least get out of this trough which we are going to still 
be contending with throughout the 2020s and we can get closer 
to the goal of a 355-ship Navy.
    And, again, Mr. O'Rourke's report, which I would ask to be 
admitted to the record----
    The Chairman. With no--hearing no objection, so ordered.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    Mr. Courtney [continuing]. Makes it crystal clear that 
you--projecting out over the next 5 years it is a cut from the 
Obama projection in terms of fleet size and also keeps us 
further away from trying to get to the goal of the 355-ship 
Navy.
    Mr. Secretary----
    General Milley. Can I respond, Mr.----
    Mr. Courtney. Just let me just ask a question now.
    Okay. Article 10 section 231 of the U.S. Code says that 
when a budget comes over from the Department of Defense it 
shall--shall--be accompanied by a 30-year shipbuilding plan.
    This is not sort of a feel-good law. It is because Congress 
needs headlights to see where you are going because of the fact 
that shipbuilding is such a long game and, again, you don't--
it's not like helicopters or planes. When you cut you don't get 
it back. Time is of the essence.
    Mr. Wittman and I sent a letter to your Department on 
February 12th asking for the 30-year shipbuilding plan which, 
again, did not accompany the budget and we have still not seen 
that 30-year shipbuilding plan today. When are we going to get 
that 30-year shipbuilding plan which, again, is mandated by 
law?
    Secretary Esper. I think I am going to need more time, Mr. 
Chairman.
    The Chairman. Yes, I am sorry. You may have to take that 
for the record.
    Secretary Esper. No, I----
    The Chairman. Go ahead. Take a shot. Go ahead.
    Secretary Esper [continuing]. It is a very good discussion. 
It is a very important discussion.
    So, Mr. Courtney, I haven't seen the 30-year shipbuilding 
plan. I am awaiting its presentation to me. It is my report. 
Once I have had a chance to review it and digest it and follow 
up on it, at the appropriate point in time I will share with 
you what I believe our future force structure should look like.
    [The information referred to can be found in the Appendix 
on page 113.]
    Secretary Esper With regard to the first points you made, I 
will say this much. I think it is a very important issue. I am 
a big believer in attack submarines. I actually believe--my gut 
tells me we need more than what we planned for, number one.
    But there are two competing pressures we have right now--a 
top line budget, which actually gives us 2 percent less buying 
power. But the second thing and, importantly, is I support what 
the Navy did in terms of moving $4 billion--nearly $4 billion--
from shipbuilding to maintenance. The concern that the CNO has, 
that the acting secretary has, that I have is that we have a 
hollow Navy.
    Why do I know that? A GAO report dated December of last 
year said this much. Over the last 5 years, 75 percent of our 
surface ships never left maintenance on time. Of that 75 
percent, half of those ships took over 3 months to get to sea. 
And what does that account for? That means----
    The Chairman. And I know this is very important, but the 
other members are going to kill me. So----
    Secretary Esper. Okay. One--just a last point. What that 
equates to is 19 ships in 2019 unavailable to go to sea. We 
cannot have a hollow Navy. I agree we need to build a 355-plus 
ship Navy. But we can't have a hollow Navy at the same time.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And, Secretary Esper and General Milley, thank you both for 
your service. I realize we are in open session and much of the 
information on military space is classified.
    But I think it is necessary for us to talk in general terms 
about the threats to our space systems. We have enjoyed a 
distinct advantage for decades but now that is being severely 
tested and challenged.
    So what actions have you taken to address this threat to 
our military space, our national security space assets in this 
budget?
    Secretary Esper. It is a great issue. There is so much we 
cannot talk about in open session. But needless to say, we are 
advancing our capabilities in a number of different areas to 
make sure that we can fight in space, which has now become a 
warfighting domain.
    Obviously, we have stood up Space Force. We have stood up 
Space Command. That will give us enhanced authorities to 
control. We have requested additional authorities which the 
President has granted.
    And so we are doing our very best and putting a lot of 
resources into this to make sure that we can continue to 
guarantee our space capabilities and what we need from space.
    Mr. Lamborn. Are you confident that the assets we are 
investing in in this budget will stay ahead of and will meet 
the threat?
    Secretary Esper. Yes, I am.
    Mr. Lamborn. Okay, good. That is good to hear.
    Then let me shift attention to missile defense funding. 
Secretary Rood and General O'Shaughnessy have both said that 
while our current GMD--ground-based midcourse defense--posture 
can be relied upon to counter a North Korean threat for the 
next 5 or 6 years, beyond that, we have to begin assuming 
increased risk due to their desire to develop their ICBM 
[intercontinental ballistic missile] capabilities.
    Earlier this month General O'Shaughnessy said before SASC 
[Senate Armed Services Committee], ``Given the nature of the 
ballistic missile threat, I am a strong advocate for bringing a 
layered capability onboard for the warfighter well before NGI--
Next Generation Interceptor--is fielded,'' and Secretary Rood 
agreed.
    So are you in support of an SM-32A underlay or some kind of 
interim GMD solution to bridge this gap until NGI comes online 
in a decade or so?
    Secretary Esper. Well, I think it's a matter of principle 
we should have--always have a layered defense. I know the 
Department is looking at those systems to include enhanced 
THAAD [Terminal High Altitude Area Defense] as a way to provide 
a layered defense.
    But in all circumstances you typically want a layered 
defense.
    Mr. Lamborn. So testing the SM-32A would be one way to 
begin establishing that under layer?
    Secretary Esper. SM-32A is a system that you would have to 
continue testing to make sure we can do that. I have a recusal 
with regard to the company that makes that system----
    Mr. Lamborn. Sure.
    Secretary Esper [continuing]. Or parts of it. So I don't 
want to say too much. It is an established program nonetheless.
    Mr. Lamborn. Okay. Sure.
    Now, on the budget itself the dollars you are asking for 
for missile defense, when you subtract things out that 
historically have not been in the missile defense budget like 
Air Force OPIR [Overhead Persistent Infrared], you come up with 
a number that's about $14 billion and the way I look at it that 
is half a billion less than last year's budget.
    How can we keep pace with emerging threats if we are 
cutting that budget?
    Secretary Esper. Well, Congressman, when I look at missile 
defense, our numbers, we see actually a 5 percent increase. 
Important to that is a OPIR layer in LEO [Low Earth Orbit]. 
That will give us critical tracking capabilities, 
sustainability with regard to enemy hypersonic weapons. It is a 
growth area where we really need to invest more with regard to 
that LEO OPIR.
    Mr. Lamborn. Okay. Thank you for that.
    That is all I have, Mr. Chairman. I yield back the balance 
of my time.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Mr. Secretary, thank you for your service. 
But, apparently, you are not listening. You apparently were not 
listening to what the chairman and the ranking member said 
about the authority of this committee with regard to 
appropriations.
    I urge you to very carefully consider what has been said 
thus far with regard to the ripoff and with regard to the 
disregard that this administration has for the Constitution and 
the appropriation power of Congress.
    Secondly, in your response to Mr. Courtney, you were out of 
line, sir. The law is quite clear. When you submit your budget 
you are to submit the shipbuilding plan, and for you to say you 
are going to give it to us on your own good time and when you 
are ready, you are not in line with the law.
    I will let it go with that. You should listen very 
carefully. You are heading for a major brawl with this 
committee.
    Now, my question goes to you, Chairman Milley. The U.S. 
Government's current approach to strategic sealift has yielded 
an aging and inactive government fleet that depends on a 
shrinking pool of merchant mariners and ships that have trouble 
getting underway.
    I am concerned that a resilient maritime logistics strategy 
doesn't exist and that in your job as Chairman it seems to me 
that you are responsible for coordinating all of the necessary 
elements to achieve a resilient maritime logistics program.
    How are you going to achieve that?
    General Milley. Thanks, Congressman.
    I would even expand it beyond just the maritime. So the 
issue is for the United States to project power overseas at 
points of crisis--time and need sort of thing--and do it in a 
timely way. Get there firstest with the mostest sort of thing. 
And we do that through--fundamentally, through sealift and 
airlift, and in both those areas our strategic ability to do 
that has been under stress. It has deteriorated over not just 
last year or the year before but many, many years.
    And you are right to point out the vulnerability of the 
maritime fleet and our reliance on other means of trying to do 
this. We can handle the smaller contingencies no problem. But 
if you start seriously considering great power competition, 
great power war--when you start seriously considering the NDS, 
well, those requirements then, and I think you heard the 
TRANSCOM [United States Transportation Command] commander talk 
the other day or testify perhaps recently, then it becomes very 
much a stress.
    So what are we doing about it? There's lots of studies and 
analysis and so on and so forth. That is important and we have 
to try to figure out exactly what the facts are.
    But it is all about investment, it's all about these 
budgets, and it is all about looking at TPFDDs [Time Phased 
Force Deployment Data] and also concepts of the operation and 
OPLANs [operation plans] as to how we are going to have to 
modify with the deck of cards we are dealt. We are not going to 
magically create a new maritime fleet this year or next year 
and, yet, something could happen.
    So how are we going to have to deal with that, and we have 
a review ongoing right now amongst the Joint Chiefs of all the 
global combatant commanders' plans--war plans--and I am the 
global integrator, as you rightly point out, and we are working 
through all that. It is a very, very difficult situation and it 
is a vulnerability that we have, we recognize that we have it, 
and we are going to try to get it fixed.
    Mr. Garamendi. Thank you, sir. That does take us back to 
what I just brought up with Mr.--with Secretary Esper and that 
his shipbuilding plan doesn't speak to this issue at all.
    There are ways of doing it. There is an interesting report 
out there called ``Sustaining the Fight.'' It talks about the 
development of a national fleet, which is really the rebuilding 
of our maritime sector--the private commercial sector--in such 
a way that it is useful to the Navy for sealift capacity. Draw 
your attention to that. I look forward to working with you on 
this set of issues.
    And finally, Mr. Secretary, obey the law and recognize you 
are in for a major brawl with at least a good section of this 
committee as the President continues to rip off what were 
apparently necessary funds.
    You also indicated in your response on climate change that 
it is not affecting the Navy or not affecting the military. 
Perhaps I heard you wrong. You might look at Tyndall. You might 
look at Moffett. You might look at Norfolk.
    You might look across the entire spectrum of the military 
and recognize that there is a severe impact already as a result 
of climate change that is going to get worse, and I urge you to 
pay attention to the current NDAA that requires you, as 
Secretary, to pay attention to this issue in every single part 
of the military.
    With that, I yield back.
    Secretary Esper. Mr. Garamendi, I am paying attention. As I 
said very clearly to Mr. Langevin, I do recognize the impact on 
the military. In fact, I mentioned Norfolk in particular and I 
mentioned the impact of desertification on Army bases.
    Mr. Garamendi. Yes, and where is it in the budget?
    The Chairman. I am sorry. The gentleman's time has expired. 
I get the feeling this could go on for a while.
    So I will go to Mr. Wittman.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Esper, General Milley, thank you so much for 
joining us.
    Secretary Esper, I wanted to ask you specifically about 
sealift. You heard a little bit of the question but I want to 
go to September 17th when there was a turbo activation of our 
surge sealift capacity--essentially, trying to exercise what 
would be a full-scale operational exercise if the call went out 
that day.
    Our readiness goal there is 85 percent availability is what 
we are supposed to have. Unfortunately, over that exercise we 
saw that our availability was at about 40 percent. We know we 
have an aging Ready Reserve Fleet, on average, 45 years old. 
Those ships are older than a number of members on this 
committee.
    So we are really pushing the envelope with that. The 
question not only becomes what do we need to do to reestablish 
that. I think that some of that is laid out, although I think 
more needs to be done.
    But one of the important elements is, you know, how do we 
pay for that. You stated that of the--of the strategic 
necessities for our Nation the B-21 was the responsibility of 
the Air Force, the Columbia class was the responsibility of the 
Navy.
    Since surge sealift capacity is the ability for the Army to 
get to the fight, should it not be the Army's responsibility to 
fund surge sealift capacity?
    Secretary Esper. Well, first of all, I completely agree 
with you on the sealift issue. I have been concerned about it 
for a few years now. General Lyons and I have had multiple 
conversations. As you know, 90 percent of the Army goes by sea, 
which is why once I get the 30-year shipbuilding report and I 
have a chance to go through it I want to make sure sealift is 
in there because we have to have that capacity and, you know, 
it is a combination of new ships, old ships, and other means to 
do that. So it is vitally important.
    I have--with regard to your specific question, I have not 
looked at that with regard to who should pay that. It has 
traditionally been a Navy bill. Each of the services pays bills 
that they argue should not be theirs. The Air Force, for 
example, doesn't like the pass-through with regard to a lot of 
black programs. Army has concerns on its front. So I think at 
the end of the day what we have to do is find a solution, going 
forward, so that we can fund the Navy we need and that includes 
not just surface combatants but that includes the strategic 
sealift.
    Mr. Wittman. Yes. I think the logistical element of 
supporting forces, sustaining forces, is going to be key, 
especially in that strategic environment where all our 
adversaries have to do is to look at it and go, listen, they 
can't sustain operations. They can't protect tankers. All those 
things incredibly important to those OPLANs that General Milley 
spoke about.
    Let me take another step further, too. You have heard some 
conversation about the 355-ship Navy. I think it's got to be 
there and, as you spoke of, maybe even higher as we look at all 
the different platforms.
    The key is, though, this year's budget--I mean, this year's 
budget request, as Mr. Courtney pointed out, you know, eight 
ships, two of those tugboats, and then we are decommissioning 
four LCSes [littoral combat ships], four cruisers, and three 
amphibious ships. So, I mean, I am not very good at math but 
that math doesn't add up, to me, to get to 355. In fact, we are 
heading south on that.
    So tell me, as we see our near-peer adversary, China, bring 
on board a brand new destroyer, a very capable ship--the 
Shandong class of aircraft carriers--is that really the 
direction that we need to be going and is the budget reflective 
of what this Nation needs to project power and to deter 
conflict?
    Secretary Esper. We need to get on a better trajectory for 
355-plus for sure. That is why, as I said earlier, we need that 
3 to 5 percent annual real growth to help do that.
    I do support, though, the Navy's decision to reallocate 
dollars, if you will, to readiness because of the challenge 
they have with getting ships to sea and operationally 
available.
    I also understand the reason. In many cases, they are 
putting more money in the maintenance for ships than what it 
would cost to fund them, going forward. So they are in a tough 
situation. I want to help the Navy as much as possible.
    Acting Secretary Modly has made, I think, a good call to 
dig deep within his own budget. I mean, you know, about 10 or 
11 percent of the Navy--the entire Navy budget--is only 
dedicated to shipbuilding and I think he is going to dig to try 
and find additional funding to do what he needs to do. And then 
what we would like to do also--I think I mentioned to you--is 
have a legislative provision come forward where DOD would seek 
authority to transfer any expired Navy funds which otherwise 
would go to the Treasury and have them plowed back into SCN 
[Shipbuilding and Conversion, Navy].
    We think that could generate at least a billion a year or 
so that we could plunge back into shipbuilding and that is 
something that other departments of the Federal Government 
already have available to them.
    Mr. Wittman. I agree. I think it is incredibly important to 
have flexibility in the SCN account, especially since the 
demand is going up. Dollars are either level or going down. 
Things like the National Seabased Deterrence Fund--I understand 
the whole debate back and forth about the strategic assets in 
this Nation's arsenal. But I think that discussion needs to be 
had because we did do Ohio class that way and when you put a $6 
billion ship into that shipbuilding budget it makes the seas 
pretty tough.
    The Chairman. The gentleman's time has expired.
    Mr. Norcross.
    Mr. Norcross. Thank you.
    General Milley, Secretary Esper, thank you for coming in 
today.
    I want to shift my first question away from some of the 
things we've been talking about but very much involved: making 
sure our warfighters get the best available to them. Comes from 
a number of areas--our industrial base who supports them, and 
then our human capital, the employees at Department of Defense.
    Secretary Esper, on January 29th, President Trump 
authorized you to eliminate collective bargaining in the DOD 
and to delegate that authority to any Senate-confirmed official 
in the Department.
    The President cited perceived threats to national security 
and the Department's flexibility to adapt to new technologies 
as justification for this.
    DOD civilian workforce are some of the greatest employees 
in the world. We know what they do day in and day out. 
Ultimately, our national security is bolstered by those 
employees. We talked about that.
    Do you plan on exercising this authority to provide the 
President to exclude the defense civilians?
    Secretary Esper. Well, first of all, Congressman, we do 
have a great DOD civilian workforce. In my multiple iterations 
at the Pentagon, I have had the chance to work with them. I am 
one of them, and it is a great workforce. We rely on them for 
the continuity and expertise that are critical to sustaining 
our military.
    You are right. That Executive order was issued late 
January. It is working its way through the system right now. It 
has not come to me with any recommendations or analysis, and I 
know that is in the process and that is all I have for you 
right now on it.
    Mr. Norcross. Did you request that or somebody on your 
behalf from the----
    Secretary Esper. No, I did not request that.
    Mr. Norcross. Do you have any idea why that came up?
    Secretary Esper. I don't.
    Mr. Norcross. Can you point to a time in our recent history 
where that might be employed? Because I was going back through 
labor history. I didn't see any issues. I have never heard of 
it from anybody. But the folks that you want to be part of your 
team could be, potentially, eliminated because of this order 
that, apparently, came out of nowhere.
    And if you can't think of a reason why it might have been 
done in the past and I don't know of any, how is it showing up?
    Secretary Esper. Well, just because I can't recall an issue 
right now doesn't mean one doesn't exist. That is why I think 
the prudent thing for me is to wait to see what the analysis 
is--comes up from my staff and what they are looking at and 
make an assessment from there, based on what recommendations 
are made.
    Mr. Norcross. So when you get that report we would love to 
have that shared with us. The idea of creating potential havoc 
when we work well together just seems rather crazy.
    I only have a few minutes but I just want to bring up 
something that has been alluded to. We have early retirements 
for the 13 KC-135s and 16 of the KC-10s. It was about 4 years 
ago that General McDew said in this very room what keeps him up 
at night are the refuellers.
    We know the issues with the KC-46. There appears to be a 
gap that is growing here. Boeing--I believe you are very close 
to having a fix on both the boom and the visual system. But 
regardless of what the fix is, it is going to be a period of 3 
years possibly. Why would we be retiring more refuellers when 
we are building up the capacity to need those?
    Secretary Esper. You know, it is a great issue. It is one 
of these issues that is not sexy, right. It's like strategic 
sealift. But it is utterly important. I was on a 46 last week. 
I actually sat in the front of the airplane where the--the 
issues with the remote vision system and talked through all the 
issues, and head of Air Force acquisition thinks that a 
solution is in sight. But it will take some time.
    At the same time I had this exact discussion about, well, 
what does that--what does that do to a growing gap, right, and 
I think General Lyons is going to come to me, probably the 
Chairman, and make some recommendations as to maybe we should 
not retire some 10s or some 135s until we get a better 
assessment of what--how long it will take to get that fix in 
place.
    And I look forward to hearing from him on it because it is 
critical that we maintain that capability. This kind of also 
gets back into the reason why I am doing COCOMs reviews. We 
have COCOMs all the time that are using tankers for various 
missions and if they are missions that are not important or not 
on a high priority I can close--in addition to increasing 
supply I can reduce the demand.
    Mr. Norcross. Are you considering contracting tanker 
support from private industry?
    Secretary Esper. I think all the ops--I would like to rely 
on General Lyons to bring me a range of options that we can--we 
can entertain and figure out what is the best way so that we 
don't have a gap that seriously impedes and impacts our 
national security.
    The Chairman. Thank you, Mr. Norcross.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, gentlemen. I appreciate your 
service.
    Clearly, we are in a great power competition with China and 
we are assessing the threats. The National Defense Strategy 
lays out a lot of the concerns and strategies.
    But a vulnerability that we have is in our pharmaceutical 
industry. As we know, our national supply of antibiotics and 
vaccines and many other drugs depends on Chinese manufacturers. 
In fact, Chinese pharmaceutical producers provide 97 percent of 
our U.S. antibiotic market.
    So, General Milley, could you expound a little bit more on 
the vulnerability to our military as it relates to our 
dependence on the Chinese for our pharmaceuticals?
    General Milley. Well, as you well know, we have got a 
military medical system and we have access to all the same 
drugs that are available in the commercial system, et cetera. 
And you rightly point out that it is a vulnerability to have a 
country such as China manufacturing high percentages. I don't 
know if it is 97 percent or 98 percent or 80 percent or 
whatever it is but I do know it is high percentages of the 
ingredients to the American pharmaceutical industry across the 
country, both military and civilian.
    So it is a vulnerability. If in time of armed conflict if 
that were to ever happen--hopefully, that would never happen--
that would, obviously, be a significant vulnerability to the 
U.S.
    So it is something we need to address. We need to address 
that as a nation. There is vulnerabilities imposed on us as a 
military but also as a society.
    Mrs. Hartzler. That is great. I appreciate that. 
Representative Garamendi and I have a bill that would ask the 
DOD to look further into this threat and to pursue standing up 
American pharmaceuticals in order to make that supply available 
for our military. So look forward to working with you on that.
    Secretary Esper, I wanted to talk about in 2019 Congress 
authorized the Defense Community Infrastructure Program, 
which--to address deficiencies in community infrastructure that 
will enhance military value and resilience, quality of life for 
a military installation.
    And in the fiscal year 2020 Congress appropriated $50 
million for this program that is to be managed and executed by 
the Office of Economic Adjustment.
    Yet, to date, the Department has yet to release guidelines 
or details about the process by which communities will be able 
to propose projects and compete for funding under this program 
and I have communities in my district that are very excited 
about this program and they are ready to apply. They just need 
that information, that guidance.
    So can you share a little update on when they could expect 
that guidance and are you committed to this program?
    Secretary Esper. Sure. Well, thank you for raising it, 
Congresswoman. I actually received several letters that I have 
reviewed recently and I asked the team what is this--what is 
going on. So I got a quick briefing on it.
    My understanding is they are going to be delivering, you 
know, recommendations with regard to implementation here in the 
coming weeks--a month or so--and then from there we can move 
forward in terms of implementing the law and expending the 
appropriations as----
    Mrs. Hartzler. Good. That is great.
    We also have challenges in our country right now with 
respect to the munition capability and capacity. As you know, 
our stockpiles of our high-demand preferred and precision-
guided munitions have been significantly reduced over the last 
15 years. We have been trying to address this. But I was 
wondering, Secretary Esper, as well as General Milley, if you 
could talk a little bit about your assessment of where we stand 
right now with our precision-guided and preferred munitions as 
far as the risk that we are facing right now and what steps are 
you taking to adjust and counter this risk?
    Secretary Esper. Another issue that doesn't get much 
attention. It is something I get updated on regularly with 
regard to a status of munitions, particularly key munitions. 
There are some areas we need to continue to put a lot of money 
into. We did in this budget cycle.
    I have also messaged to many of our allies and partners 
that they need to procure their own key munitions. In many 
cases they are depending on us and I just told them that is not 
going to be available for them.
    So I think it is something we got to focus on and continue 
to put money against. Again, it is not sexy but it is 
critically important we have availability of these assets and 
for an extended period of time because in some cases if you get 
in a shooting match you just can't produce the munitions quick 
enough.
    Mrs. Hartzler. Exactly, and there are supply chain issues 
as well.
    Secretary Esper. Absolutely.
    Mrs. Hartzler. What has been the reaction of your allies as 
you have said, you need to step up?
    Secretary Esper. I think this is one of these cases that 
for too long we haven't told them the truth with regard to what 
their expectation should be and it--by the way, for them to do 
that it would not only make them more whole and take the burden 
off of us.
    It would also help our own industries remain healthy and be 
able to reinvest and recapitalize. So I think this is a message 
I am trying--I have discussed with many of our allies about the 
need to procure their own precision munitions and other items.
    Mrs. Hartzler. Great. Thank you very much.
    I yield back.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    Mr. Secretary, if the President were to declare a national 
emergency over climate change, would he be able to reprogram 
money from DOD to respond to that emergency using existing 
transfer authority?
    Secretary Esper. I don't know, Congressman.
    Mr. Gallego. You don't know? Okay.
    Would there be a limit how much money the President could 
reprogram to have the Pentagon pay for that declared national 
emergency?
    Secretary Esper. I just don't know. It is speculative and I 
am not a lawyer so----
    Mr. Gallego. Well, you are the Secretary of Defense and 
they just reprogrammed a lot of money away from us. Do you have 
an opinion on that?
    Secretary Esper. I know that is legally available to us 
because the DOD lawyers and the White House lawyers and the 
Department of Homeland Security lawyers have advised me that it 
is legally available.
    Mr. Gallego. It is legally available because the President 
has declared that the border is an emergency. So, therefore, if 
we have any other President declaring something random and 
emergency don't you think that same authorization would be 
legal at that point?
    Secretary Esper. Well, again, I am not going to speculate.
    Mr. Gallego. All right. So there--in that case then also 
you wouldn't be able to speculate what accounts would be 
available to be reprogrammed. So is it ships, troop pay, 
military construction, all of that should be fair game, 
according to the ideology this President is using in terms of 
reprogramming?
    Secretary Esper. Again, I am not going to speculate.
    Mr. Gallego. General Milley, let me get your advice then. 
Does the recent reprogramming notification that we receive 
taking money away from what you have previously briefed us as 
critical Department needs, does that constitute a threat to the 
defense of the Nation now that we have reprogrammed that money?
    General Milley. I was--in this particular case I was asked 
to conduct a formal assessment. I did that and submitted it to 
the Secretary of Defense in writing. And, in short, what I said 
was that this reprogramming of $3.8 billion was not a 
significant immediate strategic negative impact to the overall 
defense of the United States of America.
    Those were precisely selected words. So strategic and 
overall. It's a half of 1 percent of the overall budget. So I 
can't in conscience say that it is, you know, significant, it 
is immediate, it is going to--the sky is falling, it is going 
to be a dramatic decrement in the preparedness of the U.S. 
military to defend ourselves. We can defend the United States 
of America.
    So I had to do a risk assessment. I did that and that is 
what I said.
    Mr. Gallego. Thank you. Thank you, General.
    Let us move on to the Army V Corps headquarters in Europe 
and I will start with Secretary Esper. I was really pleased 
actually to see that we reactivated the V Corps and I 
understand that it is focused on our interests and national 
security in Europe, and I think we all here applaud that, 
without a doubt.
    But my question is if V Corps is European focused, why was 
the decision made for it to be based in Fort Knox?
    Secretary Esper. I would have to refer you to the Army for 
that answer, Mr. Gallego. I don't why they chose Fort Knox as 
the basing location.
    Mr. Gallego. General, I don't know if you have any insight 
into this.
    General Milley. Yes. I mean, it is an Army--in the rule 
sets that we operate by, basing decisions is a service 
secretary decision. But having said that just, you know, a 
short while ago, then-Chief of Staff of the Army it was 
discussed that--it has been out there for quite a while--the 
entire decision-making process.
    The bottom line is do you want a forward based permanent 
force or do you want to rotate it through and what is the needs 
of the combatant commander, and the consensus--the decisions 
were made with then Scaparrotti, now Wolters, fully involved in 
the decision-making that it is best to have it CONUS based--
continental U.S. based--and rotate forward a small forward 
command post that can then move around to various countries 
within Europe rather than be tied to a given base and have a 
big structure put in Europe.
    So that was the logic behind it and that is why we decided 
to base it in the United States and the Army decided Fort Knox.
    Mr. Gallego. Was there--General, thank you for that answer. 
Was there a cost----
    General Milley. Cost-benefit analysis?
    Mr. Gallego [continuing]. Cost-benefit analysis between 
having it in Europe or other places in Europe and here at 
CONUS?
    General Milley. Cost-benefit analysis--I would say yes. I 
would have to check with Secretary McCarthy for a final 
analysis on that. But I would say yes because cost-benefit 
analysis is part of the process of basing decisions along with 
environment impact statements and all kinds of other things. 
There's an entire checklist of requirements you have to do to 
do a basing decision and cost-benefit analysis is part of that.
    Mr. Gallego. And just to drill down a little deeper, when 
doing a cost-benefit analysis between Europe or European 
headquarters and CONUS there was an actual analysis of European 
potential sites? They weren't just automatically excluded from 
that cost-benefit analysis?
    General Milley. I can't answer that specifically. But I 
would tell you, at a broader level and for several years I have 
been an advocate within the Department of Defense on rotating 
forces forward and minimizing forward presence and permanent 
basing in foreign countries.
    There is reasons for that. Force protection is a key part 
of that, but also expense. It is very expensive to have us, the 
U.S. military with our families, et cetera, and DOD schools and 
commissaries and PXes [Post Exchange] and all that, and it is--
operationally it is much more useful if the combatant commander 
can move forces around quickly without thinking about having 
to--well, I am taking them away from their family for 2 or 3 
weeks or whatever.
    If you deploy on a rotational basis as a soldier, sailor, 
airman, or Marine you are much more flexible if you are 
operating on a rotational basis. That is why the Army went to 
brigades, for example, to rotate into Korea. So I am an 
advocate for minimizing a forward presence.
    The Chairman. The gentleman's time has expired.
    General Milley. Sorry.
    The Chairman. If you could just sum that up. Sorry, I don't 
want to----
    General Milley. Yes. Advocate for minimizing a forward 
presence and I am an advocate for rotating forces forward.
    Mr. Gallego. Thank you, General. Thank you, Mr. Chair.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Secretary Esper, I don't necessarily blame this on you but 
I would appreciate your assistance with it.
    We received your testimony sometime around 5:00 p.m. 
yesterday afternoon, just shortly before that. I know that you 
have to submit your testimony, I believe, to OPM [Office of 
Personnel Management] and then OPM has to approve it before it 
actually comes to committee staff.
    Obviously, you, with your history, understand when we 
received it at 5:00 p.m. or thereabout and the hearing is the 
next morning at 10:00 a.m., that has become more commonplace 
than not and would appreciate your help in having those reports 
submitted in a more timely manner. Some of us do--I think most 
of us personally read them and if not get the opportunity to 
personally read them have somebody in our office point out the 
highlights.
    Secretary Esper. Absolutely. I wasn't aware of that. So 
that is--we do want to get it to you on time for sure.
    Mr. Scott. General Milley, you mentioned the F-35 versus 
the A-10. My understanding is that the--a report was due at the 
end of 2019 from the Operational Test [and] Evaluation office, 
a comparison between the F-35 and the A-10 on the close air 
support mission.
    Has that report been completed?
    General Milley. I honestly don't know. I can give you a 
comparison from my own personal experience having not called in 
close air support from a F-35 but on an A-10. A-10 is a great 
weapon system, too.
    So when it comes to close air support, we, on the ground, 
we really don't care where that bump comes from as long as it 
shows up, and all of these weapon systems are very, very 
effective. The A-10 has proven extraordinarily effective in 
Afghanistan and Iraq. But the F-35 is your next generation. As 
you start looking at great power competition it is the F-35.
    Mr. Scott. Absolutely. But from a close air support 
mission, the F-35, depending on which variant, has between 182 
and 220 rounds of ammunition.
    General Milley. Roger that.
    Mr. Scott. And that is--in prior National Defense 
Authorization Acts and appropriation measures, we have 
prohibited the drawing down of the A-10 until the DOD could 
convince this body, the legislative branch of the government, 
that the F-35 was capable of handling the close air support 
mission.
    And yet, the one thing that is not mentioned in either of 
your testimonies is the fact that you have proposed to draw 
down 44 of the current A-10s that are in the inventory. And so 
that is----
    General Milley. I mean, I don't want to--a decision like 
that are the secretaries. I am not going to get into the 
secretaries. But from an advice standpoint, there is a 
fundamental issue at stake here, which is--and it is coming up 
in a lot of areas. Whether it is tankers and maritime and ships 
and, you know, whatever it is, it is a question of divest to 
invest.
    We are at a pivot point, in my opinion--my military 
assessment is we are at a pivot point relative to the changing 
character of war and the geopolitical landscape that is 
occurring in the world today, and we have got to make some 
fundamental choices and to lay down the markers for what the 
future military is going to look like in 5, 10 years. And if we 
don't make those hard choices, then we are going to be at the 
short end of the stick here 10 years from now. So----
    Mr. Scott. So if I could, General Milley, war is the 
decision between the bad and the worse----
    General Milley. That is right.
    Mr. Scott [continuing]. And budgets are decisions between 
the needs and the needs more.
    General Milley. Yes, that is right.
    Mr. Scott. My concern with what I see from the Department 
is sometimes we give up a weapon system that is extremely 
efficient to operate and extremely effective----
    General Milley. Yes.
    Mr. Scott [continuing]. In the hopes that we are going to 
have one that is better at some point in the future.
    General Milley. Right.
    Mr. Scott. And in the private sector nobody would give up 
the system that works until the replacement system had proven 
itself----
    General Milley. Right.
    Mr. Scott [continuing]. Both capable and efficient.
    And I know, Secretary Esper, you were about to make a 
statement.
    Secretary Esper. Just I know you--because you are short on 
time, just like the Navy did with older ships, what the Air 
Force is trying to do is retire a number of aircraft. It is not 
just some A-10s but it is tankers and B-1s and F-15s. I don't 
think they are--what they are trying to do is retire older 
aircraft that are--that cost more to maintain and operate than 
they do.
    So I don't think what the Air Force is doing--it was not a 
statement about the A-10. It was a statement about just 
retiring a legacy aircraft.
    Mr. Scott. I am down to about 30 seconds and I want to say 
this. ABMS [Advanced Battle Management System] and the JSTARS 
[Joint Surveillance Target Attack Radar System] are at Robbins 
Air Force Base. I think it was a premature decision to cancel 
the recap of the JSTARS fleet.
    I think you could have bought a new platform that was a 
better platform that would have served its purpose long into 
the future cheaper than you can maintain the existing fleet of 
JSTARS as time goes on. I am concerned about an article that I 
read.
    This is the article, ``ABMS Can't Be the `Sole Solution' 
for Joint C2, Army Tells Air Force.'' There are three generals 
quoted in that article: General Wesley, General Gallagher, and 
General Bassett, I believe, quoted in that article expressing 
their concerns about the ABMS platform not being able to 
deliver for the ground troops.
    General Milley. Yes, the----
    The Chairman. The gentleman's time has expired.
    Mr. Scott. My time has expired. General, thank you.
    The Chairman. I apologize. And I think--I think the point 
has been made.
    General Milley. I will give you a short answer for the 
record, if that is okay.
    The Chairman. That would be great. Yes.
    General Milley. I am heading out to take a hard look at 
exactly what you are talking about.
    The Chairman. That is an ongoing discussion.
    General Milley. Yes, it is.
    The Chairman. You don't have to give an answer.
    Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    Mr. Chairman, I could not agree more with your statement 
that we are at a pivot point where we have to modernize our 
approach to national security.
    Do you believe in a whole-of-government approach to 
national security?
    General Milley. A hundred and ten percent yes.
    Mr. Moulton. Secretary Mattis has said before Congress 
that, quote, ``If you don't fund the State Department fully 
then I need to buy more ammunition.''
    General Milley. That is right.
    Mr. Moulton. Do you agree with that? Secretary Esper, do 
you agree with that statement?
    Secretary Esper. I do. I think we need to fund the 
interagency, particularly in places like Africa where the 
interagency brings a lot to the--a lot to the game.
    Mr. Moulton. Great, because that is actually where I am 
going. To quote again from Secretary Mattis, ``What you have to 
do is you have to make certain that your foreign policy is led 
by the diplomat, not by the military,'' end quote.
    Do you agree with that statement?
    Secretary Esper. I agree.
    Mr. Moulton. So, Mr. Secretary, what is the State 
Department's opinion on the blank slate review in Africa?
    Secretary Esper. I have--they support it. I have had a 
number of conversations with Secretary Pompeo with regard to 
the process I am going through. You know, my aim is to----
    Mr. Moulton. That is illuminating because I was just in 
East Africa and literally every single military officer and 
State Department official I spoke to on the ground said that we 
should both increase State Department and DOD funding and 
effort for AFRICOM.
    But your blank slate review is not really a blank slate 
because the only options on the table are reducing our 
commitment to AFRICOM. Isn't that correct?
    Secretary Esper. That is not correct. In fact, I actually 
approved an increase recently for security forces at Manda Bay. 
So we are looking at a variety of options. The predominant ones 
are to make reductions right now.
    Mr. Moulton. Okay. Well, there is a fundamental 
disagreement between you and AFRICOM commander then because he 
briefed me that the only options were reducing the presence.
    Secretary Esper. They are predominantly to reduce presence 
but I am--if they have a proposal to increase, I would look at 
anything. But it is a blank slate review, and I can't speak to 
what State Department is doing with regard to, you know, how 
they look at the situation.
    Mr. Moulton. Well, the State Department people on the 
ground said they haven't even been asked. So you might suggest 
that Secretary Pompeo actually ask his people on the ground 
what they think.
    I mean, I do know that in 2018 President Xi announced that 
China will be providing $60 billion financial support to 
Africa. China now has surpassed the U.S. as Africa's largest 
trading partner. They have troops on the ground in Africa for 
the first time ever.
    So we have got a rising threat from China to meet right on 
the ground in Africa.
    Secretary Esper. Well, this is why what I am trying to look 
at is to make sure we are properly positioned and rightsized to 
deal with great power competition. My sense is right now we are 
focused maybe too much on counterterrorism. So I want to get 
the balance right with regard to forces.
    On the other hand, it is not a purely military mission. It 
requires a whole-of-government approach.
    The third thing I would say is, look, we can't play man-to-
man defense with the Chinese and Russians in Africa. We have to 
be very thoughtful with regard to how we allocate our 
resources, whether it is the military, diplomats, whatever the 
case may be. Otherwise----
    Mr. Moulton. I couldn't agree more.
    Secretary Esper [continuing]. We will face our--I will 
never be able to meet the demands imposed.
    Mr. Moulton. Couldn't agree more.
    Mr. Secretary, Republican Mac Thornberry of Texas 
courageously asked if Congress's military budget next year 
would matter or whether you and OMB would simply reprogram 
money for things like the border wall that the President wants 
and Congress has not, in our constitutional authority, 
authorized. You failed to answer the question. You simply said 
that you hope Congress and the administration will be partners.
    Mr. Secretary, does the word partners occur in the 
Constitution describing Congress and the committee's budgetary 
authority?
    Secretary Esper. Not that I am aware of, Congressman.
    Mr. Moulton. Mr. Secretary, after you were nominated to be 
Secretary of Defense of the greatest military in the world I 
was pleased to see a smart and accomplished professional in 
national security, a fellow infantry officer and someone who I 
have worked with personally on a number of issues, selected to 
succeed Secretary Mattis.
    And if you remember I addressed one pointed question to 
you, which is this. I said Secretary Mattis left big shoes to 
fill and the single most important thing that he did in your 
position was he was willing to stand up to the President, to 
disagree with Donald Trump when he proposed doing things 
against the national security interests of the United States 
and our troops.
    Now, look, we all know that Trump, a draft dodger, in great 
contrast to yourself and the Chairman, who have served our 
country for decades, has often done things that are in his own 
personal or political interests against the national security 
interests of the United States or the well-being of our troops.
    Mr. Secretary, have you been willing to not just disagree 
but stand up to the President?
    Secretary Esper. I am not going to speak to my personal 
conversations with the President. But I can assure you that the 
President welcomes dissenting views, opposing views, because 
what he seeks from his advisors is a wide range of opinions 
that can help him make the best choices.
    Mr. Moulton. Mr. Secretary, when you took this job did you 
take an oath to the President or to the Constitution?
    Secretary Esper. Constitution of the United States. I have 
taken that oath multiple times over my 40 years of professional 
life.
    Mr. Moulton. It must be very difficult to reconcile having 
lived with the West Point Honor Code, that quote, ``No cadet 
shall lie, cheat, or steal or tolerate those that do,'' when 
working for this President.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Stefanik.
    Ms. Stefanik. Mr. Chairman, I just want to take a moment to 
remind members of the rules of the committee and the rules of 
the House, given the questions asked by Mr. Moulton denigrating 
the President.
    But moving on, I want to focus my questions on missile 
defense. As both you, Secretary Esper, and you, Chairman 
Milley, are aware, according to the 2019 Missile Defense Review 
it states that building a new GBI [Ground-Based Interceptor] 
interceptor site in the continental United States would add 
interceptor capability against the potential expansion of 
missile threats to the homeland including a future Iranian ICBM 
capability. The decision to do so and site selection will be 
informed by pertinent factors at the time, particularly 
emerging threat conditions.
    So my question is, knowing that we are facing emerging 
threats, whether it is Iran not abiding by the Iranian 
restrictions in the JCPOA [Joint Comprehensive Plan of Action], 
the ongoing status of North Korea, the cancellation of the 
Redesigned Kill Vehicle, the 10-year delay with NGI, these are 
all pertinent factors when it comes to our assessment of 
emerging threats and the conditions that we are facing.
    Would this prompt an operational requirement, from your 
perspective, for a third CONUS interceptor site?
    Secretary Esper. Congresswoman, what I would like to do is 
take that back to actually my staff, both military uniform, to 
get their assessment. Obviously, it has to be threat driven. 
Many of the studies have been conducted so far on some of the 
sites.
    But it is threat driven. It probably warrants an update to 
find out as events--as things and circumstances have changed on 
the ground with regard to Iran in particular, does it warrant a 
relook or an updated assessment.
    Ms. Stefanik. And, Chairman Milley, I would like your 
assessment of the threats as you look to the future for missile 
defense.
    General Milley. Yes. Basically, the same thing. Right now, 
it is a little bit too early to tell with respect to Iran as to 
whether the need is there yet or not because we do know that as 
of today an intercontinental ballistic missile capable of 
carrying a nuclear weapon has not been fully developed and 
tested by Iran.
    But we don't know what the future is going to hold. So it 
is something that we are under constant evaluation on. 
Specifically what you are talking about is a missile defense--
an array of layered defenses like we have in the Pacific, also 
on the east coast.
    But we are taking a hard look at it and the decisions are 
not yet made but we owe the studies back to the Secretary of 
Defense for a decision.
    Ms. Stefanik. So as you know, Mr. Secretary, Fort Drum was 
selected as the preferred location for an east coast missile 
defense capability. In the 2019 MDR [Missile Defense Review] it 
directs 12 follow-on studies that should be conducted for 
missile defense to include the necessity of an east coast site.
    Is that study complete? Are you able to share the results 
of that study? If not, when can we expect those results?
    Secretary Esper. Yes. Those are great questions. I don't 
have the answer. Let me take that back and get back to you, 
Congresswoman.
    [The information referred to can be found in the Appendix 
on page 118.]
    Ms. Stefanik. Great. Really important for my district, very 
important for our broader missile defense discussions.
    Shifting gears, I wanted to ask about coronavirus. Last 
night, U.S. Forces Korea confirmed the first case of a soldier 
with coronavirus, and given the metastization that we are 
seeing within CENTCOM and EUCOM [U.S. European Command] and 
around the world, whether it is in Italy, whether it is in the 
Middle East, how is DOD addressing this and, particularly, what 
is your perspective on the potential impact for our joint 
training exercises and our overall readiness?
    Secretary Esper. Sure. So, first of all, we have--the 
commands have--many of the commands have established plans for 
dealing with things like this. I am sure the Chairman can speak 
to that.
    On the 1st of February as this emerged coming out of China 
I signed a campaign plan that directed NORTHCOM to integrate 
all of our operations with regard to coronavirus. The 
commander, General O'Shaughnessy, has been implementing that. 
We meet daily, my team, on a basis. There is also an 
interagency team working this. Between him and OSD [Office of 
the Secretary of Defense] staff of personnel readiness we have 
issued a variety of memorandums advising the force on how to 
deal with coronavirus, the tools in their toolkit.
    We continue to respond to requests for information. I have 
empowered the commanders in this case. INDOPACOM [U.S. Indo-
Pacific Command]--I met with Admiral Davidson yesterday but I 
get frequent updates from General Abrams on the peninsula with 
regard to what is happening in Korea.
    But we are taking a look at all of this. My first priority 
is protection of our people, both service members and families, 
and then make sure we protect our ability to accomplish our 
mission. So those are the two priorities for me.
    And then third, I want to make sure we can support the 
interagency as they need support from DOD and what we bring to 
the table.
    General Milley. And with respect to exercises, we are 
taking a look at specifically, as you know, the center of 
gravity of the thing is in China. But South Korea, Japan, some 
other countries--Italy, in fact, in Europe--are the next 
countries that have the highest number of infected cases. So we 
are taking a hard look at that with the joint exercises with 
the Republic of Korea army on--that are coming up and whether 
or not they continue, postpone, or modify, we are waiting for 
the final recommendations of General Abrams and the Chairman of 
the Joint Chiefs of Staff of the ROK [Republic of Korea] army, 
General Park, to see what those are.
    More broadly, though, I want to put some of this in 
context. Coronavirus is a very serious thing. We, the U.S. 
military, and we, the Department of Defense, are taking all 
kinds of appropriate precautions. We have enacted one of our 
global pandemic OPLANs to work this and that is what he was 
talking about with O'Shaughnessy, et cetera.
    We also need to keep it in context as well. There is, 
roughly----
    The Chairman. And I do apologize, Mr. Chairman. The 
gentlelady's time has expired. I think that is a good answer.
    General Milley. Sure. Oh, yes. The rest of it will be for 
the record, ma'am.
    [The information referred to can be found in the Appendix 
on page 118.]
    Ms. Stefanik. Thanks.
    The Chairman. Thank you.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman.
    Secretary Esper, the President's budget requests funding to 
begin phase one for the W93 nuclear warhead. However, as late 
as August 2019, NNSA referred to a, quote, ``next Navy 
warhead,'' unquote, but estimated that the weapon would not 
need funding until 2023.
    I have a three-part question. Why has the timeline shifted 
forward by 2 years? Two, does the Department plan to maintain 
the three other warheads in the submarine leg--the W76-1, the 
76-2, and the W88--if this warhead is developed.
    And three, the 76-1 life was extended only a few years ago 
and the W88 is about to enter production. Both will last a 
decade. Why the rush?
    Secretary Esper. Congressman, I would have to refer you to 
NNSA on those questions. Maybe number two I can help on and get 
back to you. But, certainly, one and three are NNSA questions. 
I don't have the answer for you at this point in time.
    [The information referred to can be found in the Appendix 
on page 117.]
    Mr. Carbajal. I would appreciate your follow-up.
    Well, too, let me continue with you Secretary Esper. As we 
all know, New START [New Strategic Arms Reduction Treaty] is 
expected to expire in February 2021, in just 1 year.
    What are the risks for allowing New START to expire without 
a replacement? Is negotiating an extension a priority for the 
administration this year?
    Secretary Esper. The administration is--we have not--I have 
not yet at my--met at my level yet with my counterparts to 
discuss the way forward. We hope to engage on that soon. Beyond 
that, there is nothing I can add to the question you have 
asked.
    Mr. Carbajal. That is disconcerting. Well, let me continue 
with General Milley.
    The Philippines is a treaty ally of the United States and 
is a partner in our efforts to fight against terrorism. The 
U.S. signed a Visiting Forces Agreement, VFA, and an Enhanced 
Defense Cooperation Agreement as a sign of our close defense 
partnership.
    With the government of the Philippines submitting a notice 
of termination of the VFA, have you been in contact with your 
counterparts to decide next steps in the U.S.-Philippine 
defense relationship, and two, will this decision impact our 
freedom of navigation operations in the South China Sea? And 
three, how will the termination affect the Philippine 
government's ability to combat terrorist organizations?
    General Milley. We have concerns about the notification of 
termination and it is a 6-month notification. So we have got 6 
months to work it out. I have not yet personally called my 
counterpart on that notification. I do intend to do that.
    But I am still working through the staff exactly what our 
position is going to be. If it is implemented--and, again, this 
is a 6-month notification--if that is implemented, then yes, it 
would have an impact on U.S. military force posture and our 
exercises and a wide variety of other things.
    We want access basing, all fly rights, those sorts of 
things in--relative to the South China Sea. Philippines is key. 
We have had a longstanding relationship with the Philippines.
    We want to keep our Visiting Forces Agreement in place if 
possible. That will be a decision for the Philippine 
government. But we think it is an important thing for the 
mutual defense of both the Philippines and the United States.
    Mr. Carbajal. Thank you.
    Mr. Chair, I yield back.
    The Chairman. Thank you.
    Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    Secretary and Chairman, I am, number one, just--I am very 
concerned about security at our southern border. Always have 
been. Not just at our southern border but all our borders, all 
our ports of entry, and our entire immigration policy to make 
sure that we are only letting folks who are friendly to the 
United States in.
    That being said, I think we risk a whole lot with the $3.8 
billion reprogramming to fund a border wall without consulting 
with Congress, and at a minimum I think it would be much easier 
and that we would for short-term progress if you at least 
discuss with the chair and ranking member what we are going to 
reprogram and how we are going to reprogram, I think at a 
minimum if you discuss it with those two that would make that a 
whole lot more palatable to all of us.
    That being said, I am supportive of the President's policy 
on the border. But we have to be careful about how we 
reprogram.
    Now, I want to talk about the $3.8 billion. The National 
Guard is 40 percent of our combat forces. Yet, the cuts in the 
reprogramming, or the $3.8 billion, is $1 billion or 30 percent 
of the total budget comes out of the Guard. I think that is 
alarming to me because if we are relying on 40 percent of our 
force to be able to fight tomorrow, as General Milley has said 
over and over again--we got to be able to fight tonight--we 
have got to get those guys in the fight--and what we are doing 
is taking away the ability for them to keep pace with our 
Active Component counterparts with equipment.
    So Secretary Esper and Chairman Milley, just please tell me 
that you are planning on making sure that our Guard and Reserve 
will continue to be an operational force with these cuts and 
future cuts.
    Secretary Esper. Mr. Kelly, the Guard and Reserve are 
actually very important critical components of the total force, 
whether it is Army or Air Force. Everywhere I travel around the 
world I see guardsmen and reservists standing shoulder to 
shoulder with Active Duty. The integration is seamless. Their 
professionalism is exceptional.
    And so I think there is--there is the commitment between--
by me, I am sure by the Chairman--he will speak to it--and 
services to make sure that we--that the Guard and Reserve has 
the tools and equipment, everything they need, to perform those 
important missions.
    Mr. Kelly. And, Secretary, I just----
    General Milley. You have my commitment as well.
    Mr. Kelly. Thank you, and I knew that, Chairman Milley. I 
knew that answer from both of you. I was hoping.
    The second part of that is, is we have the Futures Command, 
which I think is the absolute way that we need to start 
acquisition and it is a great program, and the development is--
have been--we are doing great things in the Futures Command.
    What concerns me is, though, is when I see the patch chart 
for the fielding there are no Guard and Reserve units in that 
fielding. I think we need to make sure that we don't field 
next-generation stuff to the Active Component and then give the 
left behinds to the Guard and Reserve and I hope that when we 
look at the fielding of those systems that--and I don't think 
there is a proportionality thing there.
    I think it is the units that are going down range to do the 
mission ought to be on the newest and best equipment the United 
States has to offer. Do you guys agree with that?
    Secretary Esper. I do. I am a little surprised. I know the 
last time we discussed this in our previous roles and, 
certainly, General McConville and Secretary McCarthy agreed, I 
recall National Guard units being some of the early fielders of 
some of the equipment we were considering.
    So I will certainly take that back and have them follow up 
with you.
    [The information referred to can be found in the Appendix 
on page 118.]
    Mr. Kelly. Thank you. And I may just have missed it. I just 
want to make sure that they are on that.
    The second thing I want to talk about is I just got back 
from Africa with Senator Inhofe, and I can tell you every 
African president and prime minister that we met with while we 
were there, all the military and State Department folks that we 
met when we were there, we do not need to reduce the number of 
troops that we have.
    It is a great economy of force mission. I think we get 
great return for investment. I think we have some real threats, 
both terrorist and great power competition in that region, and 
I just think that we need to be judicious in making sure that 
we don't reduce the amount of troops there. We at least keep 
them the same or either invest a little more to make sure 
because I think the return on investment is great.
    And the final thing that I will say in my final 40-
something seconds is I hope that we will continue to stay 
committed and work with the State Department on the IMET 
[International Military Education and Training] programs.
    We are losing opportunities that we cannot regain for the 
next 30 years, when all of us will be long gone out of 
government. We need to make those relationships, and I will use 
a point in case.
    When I was in Iraq a week ago, the CHOD [chief of 
defense]--I actually served with him in V in Iraq. That 
relationship matters. That familiarity matters. And so I think 
we need to make sure we continue to invest in IMET and not be 
so quick to take them off the list, Secretary.
    Secretary Esper. I completely agree. In the 6 seconds, I 
will tell you, during my time in uniform I participated in 
these programs, sponsored foreign students. You are absolutely 
correct. I think it is the best investment our country can 
make. I put 10 percent growth in the budget this year. I want 
to get 50 percent growth by the end of FYDP. I would ask--we 
are going to ask for legislative authority to expand it under 
DOD terms and not just State so that we can actually then 
prioritize it and allocate it where we need it as well.
    But I think it is a great investment for our country and 
the more we can do, the better.
    The Chairman. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    I want to focus my questions and comments on Africa. I am 
actually excited that not only did the chairman raise Africa as 
an issue but you see that there is bipartisan interest in 
Africa.
    It is probably the most we have talked about Africa outside 
of an AFRICOM posture hearing of all the hearings that I have 
participated in in this committee. And before I say anything or 
ask a question, I do want to, you know, highlight that Africa 
is not a monolithic continent and there is a diversity and 
variety of challenges and opportunities.
    So I visited Africa, started in Stuttgart AFRICOM when 
General Townsend--soon after he took command. It was a 
bipartisan delegation. And I was very much interested in the 
comment that General Townsend made at the end of January I 
think before the Senate, and he said that, ``At AFRICOM we 
recognize the strategic environment is changing and the joint 
force must orient the bulk of our efforts against China and 
Russia even as we counter VEOs [violent extremist 
organizations] that threaten America. In Africa, the C-VEO 
[counter-violent extremist organizations] fight is a key 
component of global power competition as these efforts are not 
mutually exclusive.''
    So my question--I mean, we often--you know, great power 
competition, China, we think Indo-Pacific. Great power 
competition, Russia, we think Europe.
    And I would like for you to kind of describe for the 
committee in as much detail as you can what is great power 
competition with China and Russia in Africa and is there an 
intersection with the C-VEO effort or not?
    Secretary Esper. It is a great question because this is--
this is strategy, right. The great power competition is global 
with China and Russia, but we will just focus on China. We see 
China busy in South America and, frankly, in every continent. 
We see China----
    Mr. Brown. No, I want to go right to Africa. Let's just 
stay right on Africa.
    Secretary Esper. No, we--no, completely agree. Because we 
see them in the Arctic, too. But in Africa you see them in 
terms of certain countries maybe trying to get port 
authorities, maybe access to critical materials, minerals, et 
cetera.
    So that is happening through not all of Africa but many 
critical parts. Obviously, they are in Djibouti. And so as we 
look at the--as we look at the continent, all 53, 54 countries, 
we got to ask ourselves what is important to us and if what--
and make sure we sustain that if not improve that, and then 
what are the Chinese going after and why and understanding 
that, and it may or may not require a presence by either the 
military or State or USAID [United States Agency for 
International Development] or whoever the case may be.
    Mr. Brown. So you, in response to a letter that I wrote 
with--along with 10 of my colleagues--a bipartisan letter--you 
did respond. I appreciate it.
    And you mentioned today about the SFAB [Security Force 
Assistance Brigade]--substitution for the 101st Airborne. The 
commander, Brigadier General Jackson, he commented recently 
that they are not going to have the military structure like 
they had in Afghanistan and network of bases, supply chains, 
readily available helicopters and other lift.
    What are we doing to ensure that the SFAB has the 
infrastructure they need to do their job? What is that 
investment?
    Secretary Esper. Well, obviously, two different theaters. 
Africa very austere. I might let the Chairman speak to this. 
But we are not going to put them out there without the means to 
do their job.
    They are, again, ideally suited, prepared, trained, 
organized to do the train, advise, and assist mission and we 
will make sure they have what they need to get the job done.
    Mr. Brown. Yes. I would like to hear detail. Because I have 
been to Ouallem at West Niger. I have been to Diffa in East 
Niger. Special operators do a great job out there in kind of 
sparse conditions.
    SFAB is a lot different. Can you please talk maybe in some 
detail, General Milley, how we are going to support them with 
the infrastructure?
    General Milley. Yes. So Steve Townsend--General Townsend, 
the commander of AFRICOM--is conducting a review, the blank 
slate review that everyone has talked about. Part of that is 
the infrastructure, too--how is he going to adjust the 
infrastructure. Based on the prioritization of the countries, 
based on the U.S. national security interests, and then the 
SFAB will overlay on top of that--the soldiers from the SFAB.
    Just so we are clear, though, the SFAB is not special 
operations forces. However, they are trained and explicitly 
selected to be able to operate in an expeditionary manner in 
very austere environments.
    They knew that going into it. They volunteered for that, 
and they are specifically trained to be trained--or 
specifically prepared to train, advise, assist, coach, teach, 
mentor, and accompany indigenous forces in the conduct of their 
operations.
    So the SFABs conduct a foreign internal defense mission. 
That is their very narrow mission set. They don't do all the 
other special forces missions but they are capable of operating 
in very austere environments.
    Mr. Brown. So let me just use my last 20 seconds in making 
this comment. I completely understand. But General Jackson made 
those comments because he does have concerns about the 
infrastructure support--logistics support--that he will get 
while he is on the ground.
    And unlike what we demand in Korea and other places, we 
cannot ask African nations to foot the bill because they are 
broke.
    General Milley. Well, the infrastructure for General 
Jackson and his guys is going to be very austere.
    The Chairman. Thank you very much.
    Mr. Gallagher.
    Mr. Gallagher. Chairman Courtney, in talking about the 
shipbuilding plan, I thought delivered an assessment that was 
tough but fair and, I think, reflects bipartisan frustration 
about the different force structure assessments we have had, 
the lack of a shipbuilding plan in this case.
    And so I would like to just clarify something, Mr. 
Secretary, that you said. You said in response, I believe, to 
something he asked that you had not yet seen the 30-year 
shipbuilding plan. You are waiting it to be presented to you.
    Could you clarify that? Because there was a report 
yesterday from Breaking Defense that you have been given the 
plan and have been reviewing it for 2 weeks but are awaiting 
that plan versus potentially a plan that is coming from CAPE 
[Cost Assessment and Program Evaluation], and this is all just 
in the spirit of we want to see the plan. We want to get your 
vision for what the future fleet looks like and work with you.
    Secretary Esper. No, it is--I think there is confusion and 
a little bit misreporting.
    So I was briefed last Friday, a few days ago, on the 
INFSA----
    Mr. Gallagher. Okay.
    Secretary Esper [continuing]. Which is the Integrated Naval 
Force Structure Assessment--that I had a lot of questions 
coming out of that. But that was not--that is not the 30-year 
shipbuilding plan. I asked, again, the Navy the other day, let 
us get it on my schedule. Come tell me what your shipbuilding 
plan is. Break break.
    What I said what I want to do is to see what the Navy plan 
is. CAPE--my own internal think tank--has a plan to get this to 
355-plus, and there is some great work going on out there by 
the think tanks and other places about what the future should 
look like to deal with, let's say, China in the year 2030 and 
beyond.
    And what I said is what I want to do is get all these great 
ideas together, get some innovative thinking, and kind of level 
set the--level set the playing field and let us run these 
competing plans and to see which one really optimizes what we 
need for the future.
    The two things we don't have, however, right now is an 
approved op plan--war plan--from which to baseline and we 
should have that in a few months here.
    The other one is going to take time. We can't wait for it. 
But it is going to be the new joint warfighting doctrine. 
Because we fight as a joint force. We just don't fight as the 
Navy or as the Air Force or as the Marine Corps. We fight as a 
joint force, and I want to make sure that--I recognize that we 
are beyond the date that it was due.
    But I want to present to you a right plan, a good plan, and 
not just something that was generated up and delivered on time. 
I think we owe you that. The Marine Corps is doing some 
extraordinary thinking--the Commandant, in how he wants to 
reorganize his force. And I think we owe you that.
    The Chairman--I am going to ask him to review it because he 
is my senior military advisor. But then present to Congress 
what is really a well thought-out, innovative, takes everything 
into consideration to include surge, sealift, but a different 
composition of force.
    Mr. Gallagher. So just so I understand, in the simplest 
terms you have the Integrated Naval Force Structure Assessment, 
which you have been briefed on, but you are going to sort of 
balance that off against, potentially, an alternative analysis 
by CAPE as well as some outside thinkers, come up with what you 
view to be the force structure assessment, and that will be a 
source document for the 30-year ship plan?
    Secretary Esper. Yes. We actually kind of have four plans 
right now. You have the 2021 plan. You have the FYDP. You have 
the INFSA, which is a 10- to 15-year plan. Then you have the 
30-year plan. As we know, the further you go out the less 
credible they become.
    But I want to look at those. There are some questions with 
regard to INFSA that I have that I am concerned about. So end 
assumption in the INFSA is that the OFRP [Optimized Fleet 
Response Plan] works. The OFRP hasn't worked for years so why 
should we assume that it will work in the future?
    So there are assumptions I want to go back and have 
discussions with the Navy about how do we make--and there are 
others. There are assumptions in there about ships and 
warfighting.
    But I want to make sure we get it right so when I present 
you the plan it is defensible and I feel confident in it and 
the Chairman feels confident and that we think this is where we 
should be in the future.
    Mr. Gallagher. Can you give us any--I know this is a very 
complicated process--can you give us any sort of notional 
timeline about when we can expected to be briefed on that? I 
know--it seemed that you were looking over at my colleague, Ms. 
Luria, and you have made comments in the past about OFRP.
    Secretary Esper. We have had a lot of conversations.
    Mr. Gallagher. I know. About--you have made some comments 
about trying to bring Congress into that process. I think that 
is wise----
    Secretary Esper. I do. I do. I want to run a particularly--
--
    Mr. Gallagher [continuing]. Particularly bringing Ms. Luria 
into that process because she is smarter on this than most 
every other human being.
    Secretary Esper. I think the--I am pushing--I am pushing. I 
have anointed the DEPSECDEF [Deputy Secretary of Defense] to 
run this. I want to move quickly. In a matter of a few short 
months I want to find key points in there where we can invite 
interested members of Congress in to look at the process, what 
we are doing, does that make sense, does it pass the common 
sense test, and then at the end we see what comes up.
    I would also like--I think we should invite the Navy's 
future leadership into this process, whether they are young 
ensigns and lieutenants, whatever the case may be, to help 
inform this because they are going to have to--this is the Navy 
they are going to sell, that they are going to fight, and I 
just want to kind of open the lens up and get the best 
assessment from everybody to include inviting interested 
members in it.
    Mr. Gallagher. Well, and just to close, I want to commend 
what you had said earlier about just kind of your hunch about 
where the fleet needs to go in terms of smaller ships, 
experimenting with optionally manned, unmanned ships.
    I think if you can make a geopolitically informed--in other 
words, something that makes sense in terms of geography and 
international politics--case to this committee, I think you 
would find a lot of support, notwithstanding the very real 
concerns that Chairman Courtney and others have articulated.
    And I yield.
    Secretary Esper. Thank you. I mean, that is my ambition. 
Like I said, I am a big believer in attack subs. From what I 
have seen, I think we need more than what has been there in the 
past.
    The Chairman. Thank you.
    Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary and General, for your service.
    As you know, Mr. Secretary, we were in Munich with a 
delegation with Speaker Pelosi and the delegation was unified 
in echoing the message that European countries shouldn't be 
using Huawei.
    One of the questions that came up from the former President 
of Estonia was, well, if you're not going to tell us--if you 
are telling us not to use Huawei, what alternative are you 
providing.
    And, as you know, there has been a report that suggests 
that one of the things the United States should be doing is 
allowing medium- and low-range spectrum to be used to develop 
an alternative.
    I mean, just the high-speed spectrum isn't sufficient. My 
question for you is have you considered that. What do you think 
we need to do with either Nokia and Ericsson or other industry 
to help develop alternatives and whether you would be willing 
to come out to the Defense Innovation Unit in Silicon Valley 
and discuss some of these strategies.
    Secretary Esper. Yes, I would like to come out. I am 
actually trying to get a--make a trip out to the west coast to 
speak to them and some others. So, yes, Congressman, for sure.
    We have a lot of great Western companies--and I don't want 
to exclude any Japanese, let us just say non-Chinese 
companies--out there that I think provide great products.
    I am very concerned about Huawei. I spoke about it publicly 
in Munich as did the Speaker. DOD is investing hundreds of 
millions of dollars to set up prototypes at four of our bases 
around the country where we could invite companies in to test 
because we would benefit from 5G.
    I am conscious of the time. The last thing I would say on 
the 5G side is that a lot of U.S. companies, at least, want to 
go to the mid-band range. The mid-band range is between 3,100 
and 3,550 megahertz. It is where we operate our air defense 
systems, whether it is AWACS [Airborne Warning and Control 
System], whether it is Navy Aegis or Army and Air Corps--Army 
and Marine Corps air defense systems.
    Private sector wants that. We need that. We are willing to 
share it. We think that is the way is to share this. The 
technology is out there, I am told, to do that. I think that is 
the best way to move forward so we can meet the economic 
priority with the national security priority.
    Mr. Khanna. Well, that is encouraging to hear. I appreciate 
that.
    My next question concerns encryption. Your department has, 
understandably, and I think rightfully, talked about the 
importance of encryption. There are some people who are saying, 
well, let us have a back door. And I guess from a national 
security perspective I really don't understand that.
    I mean, if you were to tell Apple to have a back door key 
to get into every iPhone, would you really want to risk having 
Apple have that technology that could be hacked by any employee 
or the Chinese and then have access to every phone in this 
country or world?
    And so, you know, it seems that the administration actually 
has different approaches to encryption.
    Secretary Esper. What specific question can I answer, 
Congressman?
    Mr. Khanna. You know, your department has said encryption 
is really important to protect these phones. The attorney 
general is saying--is asking Apple or some other companies to 
create a back door key.
    Now, a back door key, just to be clear, would be--Apple 
would have it so, basically, any employee at Apple, if you 
create a back door key, would be able to break into any phone 
and who knows who is working at Apple.
    I guess I just would wonder whether you could be working 
with the Justice Department to look at the national security 
implications of having a back door to encryption.
    Secretary Esper. Okay. I am not completely fluent with what 
the Department of Justice's views on the law enforcement side 
of it. Clearly, for DOD we need encryption to pass classified 
data, operational plans, et cetera, amongst ourselves and with 
allies and partners. So I could take that back for you.
    Mr. Khanna. I appreciate that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Khanna. And my final question is--you know, when we 
were in Germany one thing that struck me is that the Bundestag 
actually has to approve every increase in troops anywhere 
around the world.
    Now, obviously, that is asking a lot for Congress to be 
able to do that. But isn't there a way Congress could be more 
involved in understanding exactly where our troops are and 
decisions about how many troops we are sending and why and have 
input in that?
    Secretary Esper. I think that is the--been the longstanding 
prerogative of the Commander in Chief. But I do know we have--I 
believe we have systems where we notify you of deployments. I 
would have to check and see. But that is my understanding.
    Mr. Khanna. It would be great if we could even get a sense 
of where all we are deployed and have some ability to have an 
input in that.
    Secretary Esper. Sure.
    Mr. Khanna. Thank you.
    The Chairman. Thank you.
    Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    And Mr. Secretary, I want to start by thanking you for your 
recent visit to my district after my constituents were attacked 
by a terrorist. You brought calm and comfort, and I had been 
very encouraged by our discussions that DOD is doing everything 
necessary to ensure that we have a productive safe working 
environment for our service members and the service members 
that we host from foreign countries. And so I thank you for 
that great progress.
    I also want to thank you for the development of this budget 
that seems that prioritize our near-peer adversaries. There are 
enhancements in research, development, test, and evaluation 
dollars. We are particularly proud of that mission at Eglin Air 
Force Base where the eastern Gulf of Mexico is an unparalleled 
range.
    There is money in the budget to enhance our ranges and it 
is my hope that the Department will continue to maintain the 
strong position opposed to offshore oil drilling, which is not 
consistent with the launching of experimental missiles, which 
is I can't believe something I have to say out loud but, 
indeed, it is. And so thank you for that great work.
    As the Department is raising its gaze under your leadership 
to meet those challenges of the future against our near-peer 
adversaries, it is notable to me that we have deconflicted in 
Syria from what was U.S. involvement in a Syrian civil war with 
tremendous sectarian violence.
    In this budget you have presented to us, is there an 
expectation that our Nation would reengage in the Syrian civil 
war?
    Secretary Esper. There has not been that discussion about 
reengaging in the civil war. We think the best path forward is 
through the U.N. [United Nations] process that is underway and 
that needs to be--needs to be pursued vigorously.
    I know the State Department is pushing that as well and, 
obviously, the situation has become a lot more complicated in 
Idlib Province right now, given the confluence of many actors.
    Mr. Gaetz. And in our current role, securing oilfields so 
that the Kurds are able to maintain their own resistance and to 
have resources to do that, is it our expectation in this budget 
that we would be funding efforts to reinsert Americans on the 
Turkish-Syria border in that area where Americans were 
previously withdrawn?
    Secretary Esper. Our current mission, Congressman, is to 
ensure the continuing defeat of ISIS [Islamic State of Iraq and 
Syria] in that eastern portion of Syria, working alongside our 
SDF [Syrian Democratic Forces] partners. That happens on a 
daily basis.
    At this point in time, I don't see any likelihood that we 
would be back along the border, if you will. That is----
    Mr. Gaetz. That is great news.
    And, General Milley, I recall a conversation we had where 
you informed me that the only correct decision, in your mind, 
that the President could have made was the decision the 
President, in fact, did make, to take the tens of Americans on 
the Syria-Turkey border and to remove them from that conflict 
zone.
    Is that still your position?
    General Milley. It is, and I would just reinforce what the 
Secretary said. Our mission remains--primary mission remains a 
counter-ISIS mission there in the eastern parts of Syria and, 
to my knowledge, there is no intent nor plans to reengage in 
the Syrian civil war nor put troops back on the Syrian-Turkish 
border.
    Mr. Gaetz. Again, great news. I very much look forward to 
the Trump Presidency being one where we end our involvement in 
some of these wars rather than reigniting new conflicts and new 
places for newfound reasons that distract us from that 
important National Security Strategy focus that I think the two 
of you have led quite deftly.
    You know, in budgetary times we are always looking forward. 
But at times it is appropriate to look back at the decisions 
the Congress has made and determine whether or not we have got 
the right focus.
    And I am specifically referencing how Joint Resolution 77, 
which was supported by most of the members of this committee, 
Republican and Democrat, and it was very critical of the 
administration's decision to disengage from that civil war.
    And, specifically, in the whereas clause of that 
resolution, it says where an abrupt--whereas an abrupt 
withdrawal of United States military personnel from certain 
parts of northeast Syria is beneficial to the adversaries of 
the United States Government.
    I am wondering if you concur with that statement or now 
with the benefit of hindsight we could say that disengaging 
from that conflict zone actually was beneficial to the United 
States Government and our position.
    General Milley. I think from a military standpoint, we had 
two Special Forces ODAs [Operational Detachment Alphas], a very 
small amount of forces that were facing off against 15,000 
Turkish troops, and they were going to come across that border. 
They were prepared to come across that border.
    They told us they are coming across that border, and we had 
very, very little choice except to remove them from the avenues 
of attack that the Turkish were going to do. Otherwise, we 
would have unnecessarily jeopardized their lives for no 
purpose.
    Mr. Gaetz. And given that decision that we made, I think 
very correctly, despite the fact that many of my colleagues 
disagree with it--I agree with it--are we sensing that there is 
some insurmountable resurgence of ISIS that we are not prepared 
to deal with as a consequence of that sound decision?
    General Milley. We know that ISIS--the caliphate, the 
physical entity--has been eliminated. We also know that ISIS as 
an organization is not yet destroyed. They have broken down 
into small groups and they are continuing to conduct insurgency 
and terrorist operations in a very disparate desegregated way. 
But they are no longer the threat that they were just a year 
ago.
    Mr. Gaetz. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Cisneros.
    Mr. Cisneros. Thank you, Mr. Chairman, and thank you, 
gentlemen, both for being here today.
    Policy cooperation between the U.S. and South Korea has 
been, at best, inconsistent under the Trump and Moon 
administrations. I am concerned with the Department's plan to 
move forward with basing U.S. troops in South Korea and 
maintaining operational readiness, given the underlying 
tensions associated with an expired special measures agreement.
    The President's administration's demand demanded that South 
Korea increase its payments to the U.S. by 400 percent and the 
administration's public statements questioning whether or not 
the presence of U.S. troops in South Korea is even in our 
interest.
    General Milley, what is the strategic significance of 
basing U.S. troops on the Korean Peninsula and how does it 
positively impact our national security?
    General Milley. We have a bilateral defense agreement with 
the Republic of Korea and that requires--the requirement has 
been for seven decades now to have forces there to prevent an 
outbreak of yet another Korean War.
    And I would argue that you can never prove a negative as to 
why something didn't happen. But I would argue that U.S. forces 
in South Korea have deterred North Korean aggression--
territorial aggression--and have prevented the outbreak of a 
second Korean War.
    I think that outbreak of that war is--the prevention of 
that is in the U.S. national security interest for general 
stability in northeast Asia but also for global stability. So I 
think it is a--it is a vital U.S. national security interest to 
maintain our treaty agreement with South Korea and maintain 
U.S. forces there.
    Mr. Cisneros. All right. So we want to make sure that we do 
maintain the U.S. forces on the Korean Peninsula?
    General Milley. That is my military opinion. That is 
correct.
    Mr. Cisneros. Thank you, sir.
    Also, the U.S. desire to maintain rule-based international 
order in the Indo-Pacific AOR [area of responsibility] with 
China's desire to build military capability and expand 
influence in the region, what policies are in place to prevent 
potential escalation of hostilities should an act of aggression 
be perceived by either side towards the other on the tactical 
level?
    Can you identify any potential gaps in communication 
between senior leaders on either side of the operational or 
strategic levels in order to de-escalate a potential volatile 
situation should it arise?
    General Milley. Are you talking about with China 
specifically?
    Mr. Cisneros. Yes, sir.
    General Milley. Well, a couple things. Both in air and 
maritime we maintain communication systems that--we do 
communicate to each other so that we don't have inadvertent 
incidents at sea or in the air that could then escalate.
    So there is an escalation control mechanism. I have and 
will continue to maintain a communication channel with my 
counterpart. I know the Secretary does as well and I know the 
commander of USPACOM or INDOPACOM has channels of communication 
to try to de-escalate any kind of issue.
    At the broader geostrategic level, I think it is in our 
national security interest to continue to maintain adequate 
forces there and at the end of the day it goes towards that 
great power competition--the preservation of great power peace. 
The last thing that anyone needs is a war between China and the 
United States or a war between Russia and the United States.
    So a great power war is a really bad thing and great power 
peace has been maintained for seven and a half decades and we 
want to continue that legacy of maintaining that peace.
    Mr. Cisneros. And just one more question about China. In 
what specific areas is the People's Republic of China investing 
in terms of military capability and how are we countering their 
investments?
    General Milley. Without going into specific classification, 
I think China is--since the Deng Xiaoping's reforms in 1979 
they have made huge economic advances, 10 percent a year, and 
they are down to about 6 or 7 percent a year over the last 40 
years. And with that, history tells us that countries tend to 
develop a very significant military capability and that is in 
fact the case with China.
    So they have developed all the domains--space, cyber, land, 
sea, and air--the traditional domains. They have developed 
those significantly over the course of the last 40 years.
    They are not our peer yet but their objective is to be the 
co-equal--military co-equal of the United States and even 
surpass the United States militarily by mid-century. They have 
said that publicly. They are on trend lines to do that and that 
is what this budget is all about is efforts to try to mitigate 
the Chinese from closing the gaps or, in fact, overtaking us in 
some capabilities.
    Mr. Cisneros. All right.
    And, Secretary Esper, just one last question. There have 
been improvements in diversity in the officer ranks since the 
military became an All-Volunteer Force after 1973. There is 
disproportionate demographic representation in the officer 
ranks. What specific steps is the Department taking to recruit 
and retain minority officers so our officer corps better 
reflects U.S. general population demographics? And I am running 
out of time so I could take that for the record.
    Secretary Esper. Okay. Let me get back to you with details. 
But I would say I completely agree. I think we are more than 
any other institution really embrace diversity and have a very 
diverse officer corps workforce in enlisted and NCO [non-
commissioned officer] corps. But we can always do better and 
should do better.
    [The information referred to can be found in the Appendix 
on page 119.]
    Mr. Cisneros. All right. I yield back.
    The Chairman. Thank you.
    Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    As the co-chair of the Future of Defense Task Force, a role 
that I share with Representative Moulton on a bipartisan basis, 
I am optimistic about the role that the national security 
innovation base and, more specifically, nontraditional defense 
companies can play in emerging technologies.
    Space is one of the domains that is attracting a great deal 
of commercial innovation. And while I am encouraged by the 
establishment of the Space Force, I am disheartened by Federal 
Acquisition Regulations [FAR] that create barriers to entry for 
small startup companies unable to dedicate the significant 
resources needed to navigate the DOD's massive bureaucracy.
    Mr. Secretary, if we view the establishment of Space Force 
as an opportunity to revitalize our approach, what can be done 
to reorganize the FAR to include more new innovative companies 
in our defense ecosystem?
    Secretary Esper. Thank you, Mr. Banks.
    I think, first of all, I agree with you. I think so much of 
the innovation and entrepreneurism is out there with the small 
providers and that is why, you know, we stood up Forces Command 
in the Army to tap into that. The Air Force is doing things 
like pitch days to get at that.
    The regulations are a tough thing. We recently published an 
update to the FAR, the 5000 Series. We should come brief you on 
that to get at that and bring you ideas because we have some 
challenges. Some is regulatory that we control in policy. Some 
are required by law that you might be able to help with. We 
have had a lot of good reforms the last few years that have 
helped us in terms of prototyping, you know, mid-tier, stuff 
like that.
    The biggest challenge we have, frankly, is culture and we 
have to change our culture so it is less risk averse and more 
willing to kind of make bets on the small guys and kind of feed 
that because you find a lot of success there, a lot of great 
ideas, and that is going to be where we are going to get our 
best is from that space.
    Mr. Banks. Can we use the Space Force as an experiment in 
some ways to do that by cracking down on the FAR maybe just for 
the Space Force versus the other branches?
    Secretary Esper. I would fully support that. I had a great 
conversation with General Raymond yesterday about that, about 
how he has the chance to rewrite everything with regard to not 
just acquisition but the force. And that is one of the reasons, 
frankly, we stood up the SDA is to kind of break out of that--
break out of the conventional system and find different and 
more creative ways to field our capabilities.
    Mr. Banks. The Department has identified artificial 
intelligence as one of the core technologies that warrant 
additional investment and has designated the Joint Artificial 
Intelligence Center [JAIC] as the lead of the Department.
    We have met as part of our task force hearings with the 
Joint AI Center Lieutenant General Shanahan and have been 
impressed with his leadership across the services in building 
relationships with industry and academia.
    With his pending retirement and the competition for general 
officer billets, I wanted to stress how important today strong 
military leadership is within the Joint AI Center.
    The next few years for that will be critical.
    Mr. Secretary, what actions are you taking to ensure 
continued leadership of artificial intelligence in the 
Department and in the Joint AI Center specifically?
    Secretary Esper. Yes, I completely agree, Congressman. He 
has done a great job standing it up, working closely with Dana 
Deasy. We need to find a great replacement to carry on his good 
work.
    At the same time, we have increased the budget by over 4 
percent because I think AI is a game changer out there in the 
years ahead. You know, the Army stood up the AI Task Force at 
Carnegie Mellon University with a very capable commander there.
    At the same time, we are trying to use the authorities 
Congress gave us to bring more people from the outside into the 
system so that we could tap into that rich civilian talent out 
there and, again, they have good plans to continue that along.
    We are growing the JAIC as quickly as we can to meet those 
needs.
    Mr. Banks. Thank you.
    Biometric identifiers, as both of you know, plays an 
increasingly important role in military technological 
capabilities and threats. Again, we have heard a great deal 
from a number of experts in our Future of Defense Task Force 
hearings about this subject.
    In December 2019, the DOD issued a directive advising U.S. 
service members against using genetic testing kids such as 
23andMe. The memo states, quote, ``The tests could expose 
personal and genetic information and potentially create 
unintended security consequences and increase risk to the joint 
force and mission,'' end quote.
    General Milley, I wonder if you could maybe comment about 
what could the possible national security implications be if an 
adversary like China gained access to the genetic makeup of 
U.S. service members?
    General Milley. There is a lot of things that the Chinese 
are working on which I am not going to discuss in an open 
hearing. But when you expose any type of personal identity 
information it can be exploited and we know that the Chinese 
have extracted thousands if not millions of records a couple of 
years ago. They have everything from fingerprints and all your 
biometrics and your eye color and all that, a description, all 
your contacts, your families--all that kind of business, right.
    Adding DNA to it just multiplies that ability to exploit 
you as an individual and there is all kinds of things that can 
be done, and I don't want to, you know, spook the herd but 
there is a lot of things that could be done with exploiting 
personal information such as DNA.
    Mr. Banks. Thank you. I am sorry.
    Secretary Esper. Particularly at a time when they're 
building a 21st century surveillance state in China, think 
about them exporting that technology abroad and be able to 
identify key Americans, whatever the case may be.
    Mr. Banks. Thank you. I yield back.
    The Chairman. Gentleman's time has expired.
    Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chair, and thank you very much 
to you all for being here today. I want to first just associate 
myself and my colleagues on both sides of the aisle with my 
concern about moving already congressionally appropriated money 
towards the border wall and also my concerns about making sure 
that we are thinking very hard about our role and presence in 
Africa as we see the rise of China in the area.
    But my questions are actually a little bit more mundane and 
have a lot more to do with regards to the committees that I 
serve on, specifically, Readiness and Emerging Threats, and my 
first question--and I have four and so if I am not able to get 
time I might be able to submit them to the record--has to do 
with just being a woman in the military.
    I separated and one of the reasons I separated in the late 
1980s and early 1990s was due to access to child care. My base 
up at Hanscom Air Force Base was an expensive area to live in 
and had a 6-month wait list in order for me to access the base 
child care.
    And so one of the things that I see with a rising presence 
of women in the military and the rising need for more people in 
the military, a population of 51 percent of us are women, is 
that we really need to be able to allow women and their 
families to be able to bring their whole selves to work so that 
we can support these Active Duty women and their families in 
their pursuit of their careers and also so that we can be 
ready.
    And so my question is with the number--record number of 
women entering the military, would you please be able to share 
with the committee what the Department is doing and what 
aspects of the President's budget are doing to ensure that 
mechanisms exist and are in place for child care and other such 
things to support the warrior?
    And first, before I allow you to answer that question I 
would note that right now the base childcare lists are upwards 
of a year wait list. When I separated almost 30 years ago they 
were 6 months.
    Secretary Esper. And it is terrible. We have got to do a 
better job. This has been a top priority for me as Army 
Secretary. Both child care and spouse hiring, licensure 
reciprocity. I just spoke out in Minot and Omaha about this 
thing.
    The services are investing in terms of child care but there 
is a lot we can do at the policy level and that I am doing at 
the policy level. So just last week, I signed a new policy that 
elevated military kids in terms of getting the priority of 
care. That is going to clean a lot of the lists out so that 
folks like yourself have access to it. I know when I was in 
service my wife didn't have access to that type of care, and 
our son. And so a lot of what we can do on the policy will free 
that up.
    The two other areas, as I talk to spouses or talk to 
service members that they need are greater access to hourly 
care, which is important, and then more flexibility in terms of 
24/7 care.
    That, to me, is the next challenge. Once we can kind of get 
that piece just kind of move to those new phases and I think 
that is what I hear from service members and from their 
spouses.
    Ms. Houlahan. And I really look forward to working with you 
guys on this critical issue. I helped found the Service Women 
and Women Veterans Caucus and we are about 50-some strong right 
now--the first caucus of its kind to focus on these issues.
    In the last cycle of NDAA we had some amendments that were 
successful in investigating this particular issue and I am 
really concerned about it. As we increasingly have more and 
more women, we need to be focused on that.
    General, did you have anything that you wanted to add to 
that?
    General Milley. I would just echo what the Secretary said. 
There are a series of policies that can be improved, one of 
which is, as you mentioned, prioritizing military children over 
the nonmilitary nonuniformed folks that are entitled to the 
same benefits, and that is going to make a big difference I 
think in terms of these wait lists.
    And I have been 40 years now in the military and my family 
has grown up in the military, and there is probably nothing 
more important than taking care of our families in order for 
the soldier, the sailor, the airman, the Marine in order to 
focus on their job and maintain the high levels of readiness. 
So it a critical area and we all recognize it.
    Ms. Houlahan. Thank you.
    And with my last kind of minute and a half, I wanted to 
talk a little bit more about readiness and this time in tech 
talent. I am also an engineer and one of about a dozen in the 
Congress right now. And we, as we know, need increasingly more 
and more tech talent in the military as well.
    In last year's NDAA, one of the amendments, Armed Forces 
Digital Advantage Act, which I proposed, was part of the NDAA 
and it established a policy to recruit, retain, and promote 
tech talent and digital expertise in the DOD.
    The bill was enacted in section 230 of last year's NDAA and 
it isn't supposed to be until May that I first hear reports on 
that.
    But I wanted to know, sir, if you had anything that you 
could report on that and, specifically, the legislation also 
included authorization for a czar that would be, effectively, 
appointed. Do you intend on appointing that individual and have 
you made progress on that?
    Secretary Esper. I would like to read the legislation and 
let the team brief me kind of what is in it and then go from 
there. But I will tell you this much. This is very important. 
It is critical to the JAIC in terms of artificial intelligence, 
the cyber world.
    We have a deficit of people with that background of digital 
skills, the engineering skills. That is the one--as I talk to 
our people and as I talk to industry that is one of the things 
we need.
    So I am looking for any authorities that we can bring 
people in, retain them, do things outside the normal to make 
sure we can recruit and retain that type of valuable talent.
    Ms. Houlahan. Thank you, and I have run out and I will go 
ahead and submit the rest of my questions for the record.
    And I yield back.
    The Chairman. Thank you.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman. Thank you very much, 
Mr. Secretary and Mr. Chairman.
    Mr. Secretary, we are hearing reports that as the United 
States is prepared to sign a deal with Taliban shortly that 
that deal may in fact include secret annexes or side deals. 
Will you give assurances to this committee and make a 
commitment that any deal the United States enters into with the 
Taliban will be made public in its entirety?
    Secretary Esper. I am not aware of that, per se. I know we 
are trying to bring--get folks in the brief in the coming days 
here. But I am not aware of that. I would defer to the State 
Department in terms of the text of----
    Ms. Cheney. So you are not aware that there is any--are you 
aware of any contemplation of any secret side deals with the 
Taliban?
    Secretary Esper. Nothing comes to mind right now that you 
are mentioning. I know--again, I know there is the base 
agreement and some annexes. I don't know if those have been 
agreed upon as secret or something. But I would--I will 
certainly raise that with the Secretary of State.
    Ms. Cheney. Thank you, Mr. Secretary. We will be raising it 
as well. I think it is crucial that the United States not go 
down the path that we saw and, frankly, the Secretary of State 
was so effective with respect to the Iranian nuclear deal in 
uncovering secret annexes and side deals with respect to Iran.
    Secretary Esper. We have tried to be very upfront.
    Ms. Cheney. That any--yes. Any deal that the United States 
would contemplate and enter into with the Taliban should be 
made public in its entirety.
    General Milley, on this same topic we have also seen 
reports that one of these secret annexes may in fact include 
some plan for counterterrorism cooperation for some sort of a 
center for counterterrorism cooperation with the Taliban.
    Will you give the committee your assurance that you 
recognize the lunacy of pretending that the Taliban is a 
partner for counterterrorism cooperation and that there will be 
no center for counterterrorism cooperation between the United 
States and the Taliban?
    General Milley. I will be candid. You are quoting things 
that I haven't seen. So as the Chairman of the Joint Chiefs of 
Staff, I will take a rigorous look at whatever annexes are out 
there and I have very, very strong feelings and opinions and 
lots of experience in Afghanistan with the Taliban.
    So I do give you my commitment that I am going to give all 
of this a hard look. I am not aware of anything that you just 
described. I am not even aware of it.
    Ms. Cheney. Is it your best military advice, Chairman 
Milley, that the Taliban is not an effective partner for 
counterterrorism?
    General Milley. I would--I mean, here is my view on the 
whole things from big to small, I suppose. We have been in a 
military stalemate for several years. We are not going to 
defeat the Taliban militarily and they are not going to defeat 
the government of Afghanistan militarily.
    So the only responsible way to end this thing is through a 
negotiated settlement and that is what is happening right now 
with this reduction in violence, and I support that 100 percent 
and I support signing a peace agreement with the Taliban, fully 
recognizing what the Taliban is all about, having----
    Ms. Cheney. But, Chairman Milley, with all----
    General Milley. So I don't want to say----
    Ms. Cheney. But with all due respect, Chairman Milley, 
though, I think the question is making sure that whatever troop 
level we have on the ground is a troop level that is determined 
based upon U.S. national security interests.
    General Milley. Absolutely. It is totally based on our 
interests.
    Ms. Cheney. And that a--that an agreement with the Taliban, 
for example, that would include secret annexes, that would 
include counterterrorism cooperation or intelligence sharing 
with the Taliban, which is a terrorist entity which continues 
to fight with al-Qaida, would be counter to that.
    And finally, I would like to get your best military----
    General Milley. Number one, I am not aware of it, and 
number two, I would not support sharing intelligence with that 
organization.
    Ms. Cheney. Great. I would also like to get your commitment 
and your best military advice about the extent to which a 
commitment in an agreement with the Taliban for the complete 
withdrawal of U.S. forces--that putting such a commitment in 
writing with the Taliban right now would by definition be 
counter to making troop level decisions based on conditions on 
the ground and would also undermine our ally, the Afghan 
government.
    I know President Ghani has specifically asked us not to 
make that kind of a commitment for a complete withdrawal and 
that such a commitment, again, and any sort of decisions about 
troop levels that are based on agreements with the Taliban 
would, clearly, not be in keeping with making those decisions 
based upon what is in the best interests of the United States.
    And I would also say I think the issue is not a complete 
defeat of the Taliban. I think the issue is what do we need to 
do to make sure that our enemies and that terrorists cannot 
establish safe havens.
    General Milley. And I think that the--depending on--I think 
the whole thing is dependent upon conditions and depending upon 
Taliban and depending upon Taliban behavior, and if the Taliban 
do not agree to continue reduction in violence and so on, then 
I think we are in a different place.
    But right now, things are looking good as of today. So we 
are going to see. It is conditions based. We are going to take 
it step by step, week by week.
    Secretary Esper. The standard is that Afghanistan never 
again becomes a place where--a safe haven for terrorists to 
attack the United States, period. And if at any point in time--
it is completely conditions based--we stop and----
    Ms. Cheney. And I would just say, and I appreciate that--I 
would just say ensuring or committing now that we are going to 
have a complete withdrawal of U.S. forces in this agreement 
makes it very difficult for us to have the credibility that we 
need to ensure that we cannot--to ensure that terrorists cannot 
in the future establish safe havens.
    The Chairman. Thank you. And Ms. Cheney, you will have to 
get the last word on that one.
    Mr. Crow.
    Mr. Crow. Thank you, Secretary Esper, General Milley, for 
your continued service and your testimony here today.
    Secretary Esper, is it safe to say that China is a central 
focus of the National Defense Strategy?
    Secretary Esper. It is the principal focus.
    Mr. Crow. Is it safe to say that the acquisition of 
additional ships and aircraft are a central component of 
meeting that central focus?
    Secretary Esper. Yes, they are, in an appropriate 
timeframe.
    Mr. Crow. Is the construction of barrier walls or a wall 
along the southern border--is that contained within the NDS?
    Secretary Esper. Homeland security is part of the NDS.
    Mr. Crow. But, specifically, is the construction of border 
barriers on our southern border contained within the NDS?
    Secretary Esper. Well, there is a lot of things. A 
southwest border--there are a lot of things that are not in the 
NDS that we do and we fund and we put troops against all the 
time.
    Mr. Crow. Is the reduction in the acquisition of F-35 
aircraft and ships as a result of the reprogramming of funds to 
build additional borders--does that make it more challenging to 
meet the central focus, in your words, of the rise of China as 
a pure adversary?
    Secretary Esper. Well, I go, again, based on the 
recommendations of the Chairman that he made to me formally and 
I would say, again, the items that were sourced for the barrier 
were what we determined to be in the fiscal year 2020 bill 
either excess to need or early--excess or early to need.
    Mr. Crow. Well, I appreciate, you know, your efforts to try 
to support the President's reprogramming requests. But you have 
been very disciplined and very focused on making hard 
decisions, the discipline and a focus that I share, as a matter 
of fact, and you have long spoke about the need to cut back on 
missions in places where we are addressing very well-
established threats in the Middle East, for example, and 
reducing troop levels where we know there are terrorists.
    And it seems entirely inconsistent with me then that you 
then support the shifting of resources from well-established 
defense programs that are directly tied to meeting that central 
threat at the detriment of the NDS. And, you know, I would just 
urge you to be consistent in your focus.
    The next question is do you anticipate additional need for 
money or resources to meet the coronavirus threat within the 
DOD?
    Secretary Esper. We have not had that discussion yet 
internally. What I would like to do is consult with the 
Chairman. This is--this is moving pretty quickly--and then get 
feedback from my combatant commanders and, principally, General 
O'Shaughnessy, Northern Command, who has the campaign order 
right now and maybe get back to you in writing on that one.
    Mr. Crow. There is some urgency. I think that is an urgency 
that we share and members of this committee share. Public 
health officials have been ringing the alarm bells for quite 
some time. I think we are out of time.
    General Milley, would you care to comment on that?
    General Milley. No, I think the Secretary is exactly right. 
We have got to get with General O'Shaughnessy and assess the 
situation but also Admiral Davidson and General Wolter, who is 
over in Europe, because it is spreading and we can't give you a 
definitive answer whether we are going to need additional 
resources or not.
    We are taking all the appropriate measures right now. We 
are doing the estimates of the situation. So we owe you some 
answers.
    [The information referred to can be found in the Appendix 
on page 120.]
    Mr. Crow. The quicker you can get those the better. 
Obviously, we are having the discussions right now about 
funding and resources. We will need that information to make 
sure that we are working together with the Pentagon to meet 
what I believe is a very urgent threat. So we appreciate your 
urgency behind that.
    Secretary Esper, do you believe that climate change is 
real?
    Secretary Esper. Yes, I do, Congressman.
    Mr. Crow. Do you believe that it is a threat to our 
national security and to our military?
    Secretary Esper. I don't believe it is a threat to our 
national security as I have traditionally defined it. I do 
believe it is a challenge for our military installations that 
are confronted with the impact of climate change.
    Mr. Crow. Do you believe that the well-established threat 
of refugees, increased pandemics, and stability and increased 
terrorism that could result from all that instability pose 
additional challenges for us from a national security 
perspective?
    Secretary Esper. They do. It is a chain of events, right, 
that create certain situation. We see that in many conflicts, 
you know, over time that has happened.
    Mr. Crow. So destabilization and mass migration of refugees 
does pose a threat to our national security?
    Secretary Esper. Well, it could create the situation by 
which we are encountered with a national security matter that 
could involve the military. But that is a series of ifs and 
whens and thises and thats.
    Mr. Crow. General Milley, do you agree with that 
characterization?
    General Milley. I think--I think climate change is real. I 
think it is probably going to result in increased 
destabilization with resource depletion--water and things like 
that. You are going to see increases in diseases. There is a 
lot of second- and third-order effects. And does it impact on 
U.S. national security? Yes, it does.
    Mr. Crow. Do you believe that we are making the efforts 
right now to address those increased threats?
    General Milley. I think we are making reasonable efforts, 
yes.
    Mr. Crow. Do you believe that there could be more that we 
could be doing to address the threats?
    General Milley. Right now in terms of the international 
piece, no. In terms of our basing and infrastructure here at 
CONUS, which was one of the previous questions, I think we have 
got to look at all of our infrastructure to make sure that it 
can withstand things like rising seas and increased storms and 
so on and so forth, and that is a level of effort the DOD has 
been pushing.
    The Chairman. And the gentleman's time has expired.
    Mr. Crow. Thank you. Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your endurance.
    I want to augment and reinforce Mr. Kelly's comments before 
he left here about the Guard and Reserve. I mean, if in fact--
we use the term if we are going to fight tonight whether you be 
Active or Reserve, we need to make sure that the Guard and 
Reserve is not viewed as a bill payer for the Active Component, 
because all we have to do is look back at the example of, let 
us say, 1953 on for a period of 15 years and what we had 
capability-wise or lack thereof in the Guard and Reserve 
Component.
    Okay. I would--you know that. I just needed--feel it is 
important to reinforce that as we do budgets and as we do bill 
payers because it just--we have to maintain the capability of 
the total force.
    I would--one of my colleagues mentioned being an All-
Volunteer Force. I would suggest to you we are an all-recruited 
force, because if you have ever been a recruiter you know that 
you had a mission to accomplish, and where we have our long-
term talent management--retention talent challenges--is to 
retain the best of the best whether we retain them on Active 
Duty or they do transition to the Guard and Reserve. But those 
talents that we need to keep the best of the best for as long 
possible in uniform.
    I want to switch subjects here for you just for a second. 
General Milley, you mentioned early on in the hearing about a 
strategy-driven budget is what I wrote down. Now, having used 
your terms, Secretary Esper, does the strategy include serious 
efforts to control internal costs, reduce waste, and 
streamline, if you will, a forward-thinking Department of 
Defense business model?
    Because we can talk about things and capabilities. But if 
our business processes are just funnelling money down black 
holes, I need to hear your thoughts on what we are doing on 
that part of the strategy.
    Secretary Esper. Absolutely. We have to be good stewards of 
the taxpayer dollar day in and day out. I think it begins, in 
many cases, with the audit. It was discussed--mentioned earlier 
but not discussed.
    I am a big believer in the audit. It shows you a lot about 
yourself. You look in the mirror and find out, you know, your 
inventory, where you are spending money, losing money, whatever 
the case may be and we need to continue along that process 
until we get a clean opinion and that will take some time.
    But there is a lot of process reform we can do. I think in 
time we will get there using AI that can help us a lot in terms 
of understanding our processes, doing better on maintenance.
    And then look, you just got to go back every now and then 
and clean--I shouldn't say every now and then--I think annually 
you have to make it a business of going back and looking at 
what you have been doing, whether it is--I called it the 
defensewide review--and getting rid of the old, getting rid of 
the legacy, getting rid of the low return on investment and 
that is hard for people to do. It is hard for people up here to 
do. That is the only way we can kind of shed the past and keep 
moving forward because, you know, $740 billion is a lot of 
money for the Nation's security and we appreciate that. So I am 
committed to making good use of every penny, nickel, and 
dollar.
    Mr. Bergman. Well, you know, you just--you said in your own 
words the Jim Collins good to great, every year. Keep doing 
what you need to keep doing. Start doing what you are not 
doing. But, most importantly and most difficult, is stop doing 
what you no longer need to be doing.
    Switching gears on you a little bit, Mr. Secretary, what 
progress has the Department of Defense made in their efforts to 
invest the PFAS [perfluorooctane sulfonate]/PFOA 
[perfluorooctanoic acid] cleanup, particularly in locations 
that maybe have a more immediate need?
    You know, I realize that the DOD is not the EPA 
[Environmental Protection Agency] here and this is not going to 
be shouldered by--the responsibility totally by the DOD. But 
what are you doing to keep up the inertia in the PFAS cleanup?
    Secretary Esper. This is a nationwide problem and DOD has 
been leading on it. Within I think the first 24 or 48 hours of 
being sworn as Secretary of Defense, I chartered a DOD task 
force on PFAS/PFOA. They have been working for some time now, 
giving me updates. I hope to submit a report to this committee, 
to the Congress, here in the next couple weeks.
    We have been closely engaged with EPA supporting--you know, 
we are going to abide by whatever standard they set. But I 
think there is a few things we need to do. We need to get a 
replacement for the firefighting foam. Number two, we need to 
make sure that we understand the impacts on our people--our 
communities' people--you know, people outside our gate.
    And then number three, we need to just keep moving forward 
with regard to understanding how to mitigate it, going forward, 
and that is kind of the commitment we have made and you will 
get my report soon in terms of where we stand on this.
    Mr. Bergman. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Slotkin.
    Ms. Slotkin. Just continuing in the issue of PFAS, since 
you have two Michiganders going right after each other. Thank 
you for setting up that task force as soon as you came in. That 
was a great thing, and I was really pleased that on a 
bipartisan basis in last year's Pentagon budget we passed the 
first six provisions into law dealing with PFAS that did 
anything more than just study the problem, including laying 
down the marker that you have to be off by 2024--off of PFAS 
firefighting foam--which is great.
    And to Representative Bergman's point, you are not the EPA 
and EPA has not done its job in setting a standard for what is 
safe and not--what is not safe. So you can't live up to that 
standard that doesn't exist.
    My question is this. Based on DOD regulation, you all are 
required to live up to State environmental standards. The State 
of Michigan is currently reviewing setting up our own statewide 
PFAS standard.
    Once enacted and officially promulgated, will you commit to 
living up to Michigan's statewide standards?
    Secretary Esper. I think if that's our regulation driven by 
law we would be required to. But let me come back and give you 
a formal answer to make sure----
    Ms. Slotkin. Yes. I think the people of Michigan would love 
a formal answer because we are moving ahead. It is happening.
    [The information referred to can be found in the Appendix 
on page 120.]
    Secretary Esper. Right. I am not a lawyer.
    Ms. Slotkin. It is happening.
    Switching gears, I want to associate myself with 
Representative Thornberry's comments about the budget and I 
want to take the conversation away from the wall--not the wall. 
People can have a big healthy debate, and we certainly have, 
about the value of the wall.
    But I do have to note that there is an issue of precedent 
here. You are the first confirmed Secretary of Defense to ever 
voluntarily move money out of his own budget against the will 
of the oversight defense committees, and that precedent is 
important for you but it is important for every Secretary of 
Defense to come.
    So I am concerned that we are going to become the piggy 
bank. The Pentagon is going to become the piggy bank for any 
pet project. Today it could be the wall. Tomorrow it could be 
someone's decision to fund a healthcare project exclusively out 
of DOD's budget.
    And I think--I appreciate that you say you want to work 
with Congress and that you respect us. But you don't if in the 
end of the day the money that we have appropriated is going for 
something else.
    The second issue, and I think you leave us no choice but to 
look at what we can do to constrain your reprogramming 
authority, and this kills me because I used to be at the 
Pentagon and I relied desperately on that reprogramming 
authority.
    But you have put us in a situation where to uphold our 
constitutional oath and the separation of powers, we have to 
exert our authority and I am sorry to say that.
    On where you are taking that money from, of the $3.9 
billion that you have asked to take away, $1.5 billion of it is 
from the Guard and Reserve, and Michigan is exclusively Guard 
and Reserve. And you say that is all excess to need including 
all of the equipment, upgrades, and requests.
    Can you say directly to the National Guardsmen and 
reservists in Michigan why they are going to pay--they are 
going to be 34 percent of the bill to pay for the movement of 
money? Please speak directly to them on why all that equipment 
is excess to need.
    Secretary Esper. Well, it is excess to need in the sense 
that that is what was reported to me based on DOD budget in 
2020. Our assessment--I had a chance to speak with all the 
service secretaries about this. There was agreement along the 
same lines. I take my recommendation from the--from the 
Chairman here--his advice.
    But, look, I say it not as a former soldier but also a 
former guardsman. I get it. I understand. But we had sources we 
had to fill and we tried to be--we tried to be very--not 
arbitrary--we try to be very objective in terms of where we 
took the sources and the clearest source was early to need or 
excess to request.
    Ms. Slotkin. Okay. I am really concerned that you guys 
haven't done internal work on coronavirus. I was at the 
Pentagon when we were dealing with Ebola and we didn't--we 
didn't want to get involved and then we had to get involved 
because the crisis was looming.
    And I would note that the President's request for 
coronavirus supplemental funds is $2.5 billion against the $10 
billion that he has requested and moved--not requested, moved 
to the wall. Tell me what you are going to do to make sure you 
are on this so that we understand your needs now since there 
are some concerning reports that this could turn into a 
pandemic.
    Secretary Esper. No, as I said to Mr. Crow, we owe you a 
quick response on this. This is--continues to evolve rapidly. 
We have been very engaged for several weeks now, not just 
internally but in the interagency. And so we--I appreciate the 
offer. We will get that back to you soonest in terms of just 
anticipating leaning forward into it.
    Ms. Slotkin. Thank you. And then, lastly, I just was a 
little confused on your answer on climate change. I sort of 
heard from General Milley that yes, you believe it's a national 
security threat.
    Secretary Esper, you were more caveated. The Pentagon 
itself, your own staffs, put out a report in 2014 that climate 
change was--has an impact on national security. Even just like 
more superstorms, et cetera, means more guardsmen and more 
reservists.
    Can you say yes or no? Do you believe climate change is a 
threat to national security?
    Secretary Esper. What you just said, Congresswoman, is 
different and that is--I agree that climate change creates 
impacts on national security. The specific question was do I 
define it as a national security threat. I don't, in my 
traditional thinking about how I identify national security 
threats.
    Ms. Slotkin. General Milley.
    General Milley. Yeah, and I agree with that. I mean, what I 
said it has second- and third-order impacts on national 
security. I think the significant national security threats to 
the United States the Department of Defense needs to focus on 
is China, Russia, North Korea, Iran, and terrorists, and we 
can't do everything for everyone.
    There is a lot of threats. There is infrastructure. There 
is the education system. There is climate change, the 
healthcare systems. There is all kinds of threats, all of which 
could be bundled theoretically under the rubric of national 
security.
    But I think climate change has impacts that result in 
national security challenges such as resource constraints and 
stability and those sorts of things in different parts of the 
world. Absolutely. So there are second- and third-order 
impacts. There is national security challenges as a result. But 
the threats as I define them are right in accordance with that 
NDS.
    The Chairman. Thank you, Chairman.
    Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, Chairman Milley, for being here today.
    Just to follow on to some of my colleagues on corona, I 
just want to be clear. We have a soldier in South Korea that 
has, from reporting, self-quarantined.
    Mr. Secretary, have you given guidance to U.S. Forces Korea 
to limit the movement of soldiers and their families, 
understanding that this virus is very asymptomatic? That people 
can carry it? We don't know the exposure levels. People can 
carry it for weeks.
    Are you prepared or have you given guidance? Are you giving 
guidance to limit the back and forth of those soldiers and 
families?
    Secretary Esper. I have given guidance to the commanders 
with regard to protection of the force and making sure that we 
can continue our mission. General Abrams and also Admiral 
Davidson have been--acted very aggressively. Abrams has taken 
action already with regard to limiting certain things, 
controlling the gates, who is coming through and all that. They 
are very attuned to this.
    Mr. Waltz. I understand protecting the force there. But 
protecting the transmission back home through the--via our 
military.
    Secretary Esper. Yes, and it is not just local with regard 
to the commander on the Peninsula but it is also the INDOPACOM 
commander and our own folks at the OSD P&R [Office of the 
Secretary of Defense, Personnel and Readiness] in terms of how 
we manage this and making sure it doesn't escape us. And, in 
fact, I got another update this morning from General Abrams on 
this particular issue.
    Mr. Waltz. Thank you. Appreciate it.
    So just to follow on Chairman Smith's opening comments, and 
I think this is important that we begin talking about our 
competition with China this way, that we may be in a post-Cold 
War strategy but I don't think Moscow or Beijing ever got that 
message.
    They are currently in a cold war with us and they are 
explicit, particularly the Chinese, in their desire to supplant 
the United States. It is a whole-of-government effort, taking 
advantage of our free markets, our universities, international 
institutions such as the EU [European Union] and the U.N.
    This is a concerted effort. Would you agree with me that 
actually the strength of the United States but also of our 
adversary, China, is their economy, much more or in--much more 
so than necessarily the military strength?
    Secretary Esper. Yes, I spoke to this in Munich last week. 
What concerns me, people like to make comparisons between China 
and the USSR [Union of Soviet Socialist Republics]--China and 
Russia.
    The big difference is the economic might and potential of 
China as compared to Russia. That could really feed their 
economy, their military, their innovation, et cetera.
    Mr. Waltz. So would you share my concern--I mean, we have 
the largest RTD&E budget ever, which I think is a great thing. 
But I am also concerned that we are funding Beijing's research 
and development.
    So would you share my concern that a lot of those dollars 
are going to institutions where we don't know if their faculty, 
their researchers, and many of the Chinese students are part of 
the Talents program and where that research is going?
    Do you share that concern that on the one hand we have such 
a large budget--on the other hand, we could be funding our 
adversary?
    Secretary Esper. I am concerned about espionage, 
obviously--IP [intellectual property] theft, theft of our cyber 
systems, and I am concerned about research----
    Mr. Waltz. Would you support legislation that limits 
institutions from receiving Federal dollars, particularly DOD 
dollars, if they have faculty that are part of the Talents--
Chinese Talents--China's Talents program?
    Secretary Esper. I don't know enough about the legislation 
or the Chinese Talents program.
    Mr. Waltz. I think you should.
    Secretary Esper. But I am very concerned about Chinese 
students in America or professors in America that have access 
to our research.
    Mr. Waltz. Would you share my concern differently on 
markets that U.S. pensioners and some of our biggest pension 
programs including the Thrift Savings Plan [TSP] are providing 
billions of dollars to Chinese companies, many of them in 
China's defense industry?
    So, essentially, indirectly U.S. pensioners are funding the 
Chinese defense buildup? Would you--would you agree with that 
characterization?
    Secretary Esper. I have worked on this issue in the past 
about China using our capital markets and others to fund their 
activities. Again, it is something I would want to understand 
better before commenting. But I am concerned about Americans or 
groups providing the capital that China needs to invest.
    Mr. Waltz. Should we limit the TSP from investing in 
Chinese firms, particularly those that are--that are funding 
the defense program?
    Secretary Esper. I know you--Congressman, I appreciate you 
want an affirmative answer. But I would like to understand 
things----
    Mr. Waltz. Okay.
    Secretary Esper [continuing]. And get my facts rights and 
my data and my arguments before I commit to something.
    Mr. Waltz. Totally understand. Well, thank you, Mr. 
Secretary.
    Quickly, Mr. Chairman, on Afghanistan. I think the concern 
from Ms. Cheney and myself and others is that the signal that 
we are prepared to draw down and withdraw from Afghanistan--the 
signal sent now, even if that is at some point in the near 
future, could cause a fracturing of the government, by 
extension a fracturing of the Army, which, to me, is the canary 
in the coal mine with the ethnic tensions, and essentially put 
us back to 2001.
    But here is my concern. Would you agree in your military 
advice that the Taliban has the capability? So let us assume 
they have the will to enter into a peaceful political process. 
How do they have the capability to enforce the agreement and 
keep al-Qaida and ISIS at bay where we have struggled, 
coalition has struggled, and a 300,000-man Afghan army has 
struggled?
    General Milley. Yes, so----
    Mr. Waltz. Do you think they have the military capability 
to keep al-Qaida and ISIS suppressed in the wake of the 
withdrawal?
    The Chairman. Unfortunately, at this point that is going to 
have to be taken for the record because we are comfortably over 
time at this point.
    General Milley. I will take that for the record.
    [The information referred to can be found in the Appendix 
on page 120.]
    The Chairman. So you will have to get back to him on that.
    Ms. Escobar.
    Mr. Waltz. Thank you, Mr. Chairman.
    Ms. Escobar. Thank you, Chairman, and, gentlemen, thank you 
so much for sticking around and for being here all morning with 
us. Thank you for your testimony and your service.
    This is a hearing to focus on the budget and I heard some 
things, a couple things, that were alarming to me, and I would 
like to drill down a little bit on them, in particular about 
the wall and the reprogramming of the funds that were 
appropriated by Congress.
    I represent El Paso, Texas, home to Fort Bliss, our second 
largest military installation, a critical key asset to our 
national defense. And so the juxtaposition of what we are 
dealing with is not lost on me, the kind of profound disconnect 
for me that while we have investments that are badly needed, 
strategic investments that should be made at Fort Bliss like a 
railyard that could help or rail improvements that are critical 
to Defender 20.
    And we have infrastructure that has been deemed unsafe. 
Money is being pulled for a wall that is preventing moms and 
babies and dads and their children from seeking asylum 
protection in the United States and that somehow is key to our 
national security.
    And so I would like to ask Mr. Secretary how will you 
ensure that a community like mine and Fort Bliss, that our 
soldiers who serve at Fort Bliss are not asked to rely on 
unsafe infrastructure when that money is being diverted for a 
wall that is keeping out those moms and babies and those 
fathers and children?
    Secretary Esper. Well, Congresswoman, we wouldn't--we 
wouldn't put any service member in a situation where it affects 
life, health, and safety. If you are aware of something like 
that I would like to know, frankly, because then I could follow 
up with the Secretary of the Army.
    But life, health, and safety issues immediately pop to the 
top of my list of things that we would want to make sure that 
we understand. But that was--has not been reported to me. So I 
would like to follow up with you if that is the case if you 
have something like that.
    [The information referred to can be found in the Appendix 
on page 120.]
    Ms. Escobar. Okay. I will definitely follow up with that.
    How does a border wall improve our strategic capabilities?
    Secretary Esper. Well, the purpose of the wall, obviously, 
is to secure the border from illicit activity, whether it is 
trafficking of human persons, whether it is criminal 
trespassing, or whether it is, for example, it is counter 
narcotics.
    In fact, in the case of the sources just drawn up it comes 
under the 284 account, which is counter narcotics. So that is 
the purpose is to put a border up there so our border patrol 
can respond more effectively and quickly to make sure we 
prevent those elements from coming across the border.
    Ms. Escobar. Well, the funding is being pulled not just 
from those accounts. Is that correct?
    Secretary Esper. It is pulled from the excess to need, 
early to need accounts through the counter narcotics. The 
counter--where we have been asked to support DHS is on parts of 
the border that are these routes for counter narcotics to come 
across.
    Ms. Escobar. And I actually--one of the things that I heard 
from you was about this--the funding being pulled from projects 
that were ahead of or in excess of need. And when one of my 
colleagues asked you--I think it was Mrs. Davis asked in more 
detail about that funding you said, well, Congress put it 
there.
    Secretary Esper. That is right.
    Ms. Escobar. And so you are--are you essentially telling us 
that we overprogrammed in those cases?
    Secretary Esper. Well, this is--this is not unusual, going 
back many decades. But, you know, if we ask for three F-35s and 
you provide five, we consider those two as additional excess to 
need in that budget year.
    Ms. Escobar. And I appreciate that and I don't mean to 
interrupt. I apologize. It is just that 5 minutes goes very 
quickly. So as we are looking to plus-up programs that we 
believe are critical to our national defense or critical to 
helping reinforce the mission that we all share, it would be 
very helpful for us to know in advance what--where we see an 
excess of need. And, you know, obviously, we know where some of 
those areas are but I feel like this excess of need component 
essentially enables the President's--what I consider his 
usurping of congressional authority and usurping the will of 
the people.
    And so any help that we could get as we try to determine 
what those plus-ups are and then we have to look for those 
offsets. Would love your ideas on where we can find those 
offsets to better utilize that money so that the wall debate 
can be had within the Committee on the Department of Homeland 
Security and not the Committee for Armed Services.
    My time is up. I have a number of other questions but I 
will follow up separately with you. Thank you.
    The Chairman. Thank you.
    Mrs. Luria.
    Mrs. Luria. Well, thank you, and thank you both gentlemen 
for staying long enough to get to the last person and our 
newest member, Mr. Brindisi, as well.
    Leading up to this hearing, I wanted to understand the 
data-driven approach that I thought DOD would be using to 
develop their budget request and in doing that I reference two 
documents produced by your department. One is the annual 
performance plan and the other is the annual performance 
report. Are you familiar with and have you reviewed those 
documents and were they used in guiding your submission to this 
committee?
    Secretary Esper. I am aware of them. I have not reviewed 
them recently and I would have to defer to my staff. I can get 
you an answer whether it was used.
    [The information referred to can be found in the Appendix 
on page 121.]
    Mrs. Luria. Okay. There is just a couple things that stood 
out in there to me. The first strategic objective in this 
document says that we should restore military readiness to 
build a more lethal force. I think that sounds like a great 
objective. We can all agree with that.
    Secretary Esper. It is the first line of effort in our 
strategy.
    Mrs. Luria. Yes. But I will dig down because I thought I 
would find some great metrics because this is a performance 
report and the goal is that you use last year's budget, how did 
you accomplish that, where are we this year and, therefore, 
that is justifying the next request that you are making to 
achieve those goals.
    So the number one priority goal, 1.1.1, says to improve the 
Department's ability to measure, assess, and understand 
readiness. All of us who have served, we are familiar with the 
DRRS [Defense Readiness Reporting System] system. I am assuming 
that it is referring to that. And so it's 2020 and our goal is 
still to figure out how to report our readiness. And I even 
found a 1998 GAO study on military readiness that actually says 
in 1998 that for more than a decade various audits and 
oversight organizations have questioned the thoroughness and 
reliability of DOD reports on readiness. So you add all this 
up. I am not great at math here but over 30 years we have been 
trying to figure out how to report our readiness.
    And then, you know, digging in further in your budget 
outline you specifically say that you are going to give $125 
billion to readiness and then within each service, Army $3.4 
billion, Navy and Marine Corps $2.7 billion, Air Force $1.7 
billion additional funds to readiness. And also in your 
comments today you said you support the Navy's decision to fund 
readiness.
    But if we can't even find out--if we don't even know what 
our readiness is, if we don't even know where--you know, do you 
understand what I am saying?
    Secretary Esper. I do. I think one of the changes I made 
when I came in is to get a better accounting of readiness. So 
we have changed the system and we are making a lot of great 
progress working between OSD and the Joint Staff where we have 
measured----
    Mrs. Luria. But it is still your number one objective is to 
actually figure out what readiness is and----
    Secretary Esper. No, I think we have good metrics on 
readiness. We now assess it based on our immediate reaction 
course----
    Mrs. Luria. So this document is maybe not accurate at this 
point?
    Secretary Esper. Could be data because we--at least since I 
have been on the job now 9 months we are continuing to evolve 
the process and make changes. So we better understand. Based on 
war plans, contingency plans, what do we need and when do we 
need it so that we are prepared to put that at a highest 
readiness level, a second readiness level, et cetera.
    Mrs. Luria. Okay. So I appreciate that feedback. You feel 
like you have improvement. You have a better idea of readiness. 
It just was not reflected in this document, which was portrayed 
as being part of the process in developing the budget. So that 
was unclear to me.
    And, you know, I do want to associate myself with the 
comments from Mr. Courtney and Mr. Wittman and Mr. Gallagher 
about a concern about the direction we are going as far as 
shipbuilding and ship construction, especially if we haven't 
seen the 30-year shipbuilding plan.
    I won't reiterate at any length my concern about the 
Optimized Fleet Response Plan. I know that a study is 
forthcoming and you indicated in the next couple weeks. I will 
look forward----
    Secretary Esper. I think you and I agree on this issue. 
So----
    Mrs. Luria. Yes. And also the importance of strategic 
sealift specifically and just pointing out the scale of that 
investment. I know that the plan--I spoke with the CNO 
yesterday--is to buy two new ships next year, one the 
additional year.
    But if you look at the importance of strategic sealift, to 
get 90 percent of our ground forces overseas and to the fight, 
for about $1.5 to $2 billion we could buy all of the ships we 
need used. Yet we don't prioritize that because we buy all this 
equipment and we can't get it there.
    And I know, General Milley, if you could expand a little 
bit in the time remaining. You seem to indicate that we would 
just expand the TPFDD. We would just look at the way to get the 
forces to agree and if we don't have enough ships to get them 
there in the time that we planned for we would just take 
longer. Is that something that you are reevaluating the whole 
OPLAN around not having strategic sealift as designed?
    General Milley. Well, when I--when we evaluate risk and 
when I have to submit my Chairman's Risk Assessment, it is 
based on the ability of us to be able to do our task--military 
task, the mission--to be able to do that at an acceptable level 
of cost expressed in the lives of troops, and do it in 
accordance with time.
    So the time is a function of getting there on time with a 
strategic lift and that is going to be stretched out.
    The Chairman. I am sorry to interrupt. I understand you 
guys are running short of time and I do want to give Mr. 
Brindisi a quick chance before we get you out of here. So we 
are going to have to cut that off.
    Mr. Brindisi, go ahead.
    General Milley. The chairman is always correct and the 
chairman on time.
    [Laughter.]
    Mr. Brindisi. Thank you, Chairman.
    Secretary Esper, Chairman Milley, thank you so much for 
sticking around to hear from me, the low man here. You have 
terrific endurance to make it through all this. So thank you.
    Real quick, I wanted to ask you, the National Defense 
Strategy outlines that we must prioritize R&D [research and 
development] and emerging technologies like quantum and AI 
because China is investing very heavily in those areas.
    Secretary, do you feel that we are investing adequate 
resources to keep pace with China?
    Secretary Esper. In the two areas that you mention, I do. 
There is those two and there is nine other areas where we noted 
as critical technologies for the future and we are putting as 
much as we can into those systems and trying to accelerate the 
development.
    Mr. Brindisi. Okay. And I want to ask, too, because I have 
an Air Force Research Laboratory in my district in Rome, New 
York, and in this year's NDAA, last year's NDAA, we established 
a Quantum Information Science Innovation Center there to really 
help leverage partnerships between DOD, academia, and industry.
    Can you talk to me a little bit about the importance of 
those kinds of partnerships in this area?
    Secretary Esper. I think it gets to the issue we discussed 
earlier about having a broad innovation base and making sure we 
are tapping all potential resources, whether it is not just the 
traditional, you know, big defense companies but also academia, 
small innovators, entrepreneurs--the whole broad range--to make 
sure we can deliver the very best for our warfighters.
    Mr. Brindisi. Okay. And then I want to talk a little bit 
about counter UAS [unmanned aircraft systems]. I am 
specifically concerned about what our adversaries are up to and 
I wanted to ask because this same research lab in Rome is doing 
a lot of great work developing counter UAS technologies to 
mitigate these threats from our adversaries.
    So, Secretary Esper, Chairman Milley, can you speak briefly 
about how the services are postured to address the UAS threat?
    Secretary Esper. It is a challenging threat that is 
constantly evolving, in many cases quicker than we can respond. 
We had all services moving out on a number of different 
programs.
    I consolidated that last year. We made the Army the 
executive agent and now they are pulling together a much more 
focused effort that looks at fewer systems but tries to 
accelerate them.
    But we need to get to the point where it is much less 
hardware based but software based, and going back to the root 
so we can kind of stay ahead of the enemy instead of playing 
catch up with regard to--and there is different systems. We 
have to have systems that we can--we can use back here in the 
States, systems we can use overseas with partner countries, and 
then there are systems we need to be able to use on the 
battlefield.
    Mr. Brindisi. Chairman Milley.
    General Milley. So the threat is increasing significantly 
in the unmanned aerial systems and this threat not only applies 
to nation-states like a China and Russia and Iran and North 
Korea, but terrorist organizations are also increasing the use 
of unmanned aerial systems.
    So we are putting a fair amount of money, I think, in the 
development of ground-based counter UAS systems and we are 
getting them deployed and, in fact, we are using some of them 
right now in the various locations like Afghanistan and Iraq.
    Mr. Brindisi. Can you talk--to the extent you can talk 
about it, what collaboration is there with private industry 
right now around that? Because I could tell you that the lab 
that is in the district that I represent is right next door to 
an FAA [Federal Aviation Administration] test site for unmanned 
aerial research and, really, the 50-mile radius that they have 
to test drones in Upstate New York seems to be in an ideal 
location, located right next door to an Air Force Research 
Laboratory that is doing all this counter UAS work. What kind 
of collaborations are taking place between DOD and private 
industry?
    General Milley. I know there is collaboration. I can't give 
you the specifics. I would have to come back to you with a 
specific collaboration incident or examples of collaboration. 
But I know there is collaboration with industry and all of 
these systems are built by the commercial industry.
    So all we do is lay down requirements and then start 
funding the research development. But all that is done by the 
commercial industry.
    Mr. Brindisi. Okay.
    And Secretary Esper, can you----
    Secretary Esper. I think we need to take that back, 
Congressman, and give you a response, and I will pass it along 
to the Air Force as well when they come up to testify.
    [The information referred to can be found in the Appendix 
on page 121.]
    Mr. Brindisi. That would be great, and I would love to 
invite you up there at some point in time to Rome if you ever 
want to see the work they are doing at the lab there, the Air 
Force Research Laboratory and the test site right next door 
there. I think there is a lot that could be done and, 
certainly, they are on the cutting edge of a lot of the counter 
UAS technology that is taking place.
    Secretary Esper. Good. Thank you.
    Mr. Brindisi. Chairman, I yield back.
    The Chairman. Thank you. I am sorry. We are over time. All 
I have time left is Ms. Speier did have a quick question about 
TBI [traumatic brain injury], which has not been covered yet, 
that I think would be helpful if we could just do that 
reasonably quickly. I will yield to Ms. Speier for those 
questions.
    Ms. Speier. Thank you, Mr. Chairman.
    Very briefly, there was a total of 109 service members that 
were identified as having TBIs after the bombing in Iraq. Could 
you give us an update on how many are being--have been 
diagnosed and what is the status of their conditions?
    Secretary Esper. Item number one, Congresswoman. The first 
priority for us is taking care of our service members and 
making sure they have--medical needs are met and they recover 
expeditiously.
    I think, number two, I think the number is up to 112 right 
now----
    General Milley. A hundred and twelve.
    Secretary Esper [continuing]. Based on--based on what 
happened. This was a new challenge to us. It is the first time 
we have seen our service members subject to a ballistic missile 
attack with a thousand-pound-plus warheads. So we are learning 
things.
    And I have met with the Joint Staff surgeon to talk about 
this in terms of understanding how these symptoms manifest 
themselves over time, what it means, might it change how we 
categorize, take care of them, et cetera, et cetera.
    But the good news is 70 percent of them return to duty. The 
remainder are--some have returned home. Some stay in Germany. 
But 70 percent have returned to duty within--and they have all 
been mild TBI, I think, is the assessment.
    Ms. Speier. Thank you. I yield back.
    The Chairman. Thank you very much.
    The only closing comments I have are two things that were 
raised during the hearing. One, there was a couple times when 
it was raised that we need to hit 3 to 5 percent above 
inflation in the defense budget in order to meet the National 
Defense Strategy.
    Highly unlikely, as you know, that we are going to hit that 
3 to 5 percent number. So it might be appropriate to rethink 
aspects of the NDS and see what makes sense in keeping with the 
overall theme of making sure that our means match our desired 
ends.
    The other thing is on the nuclear piece, this is something 
we are going to fight over here in the budget because the $2.5 
billion that is added to the NNSA is a big part of what has got 
Mr. Courtney and Mr. Wittman so upset, and rightfully so, and 
that we cancelled an attack submarine as part of that.
    At the same time, I hope it was understood that what Mrs. 
Davis was saying was she wasn't questioning the importance of 
the nuclear deterrent. It is incredibly important. There is, 
however, $8 billion in what they artfully refer to as uncosted 
balances currently within the NNSA for programs authorized and 
appropriated for over years.
    If we got $8 billion hanging out in there that we haven't 
spent as planned, I question the wisdom of grabbing $2.5 
billion to add to that just to make us feel like we are doing 
more, particularly at the cost of the very difficult battle we 
have over making sure we have enough submarines and ships 
overall.
    With that, I will yield to Mr. Thornberry for any closing 
comments he might have.
    Mr. Thornberry. Mr. Chairman, I would just say I think it 
is also incumbent upon the Secretary and the Chairman to tell 
us what they think we need to spend and if we don't provide it 
then we have some of the responsibility for the consequences 
that come with that.
    Finally, I would just say on the unobligated balances, I 
think it is up to us to dig deeper into exactly where those 
funds come from. Are they--are they intended for a particular 
purpose, a construction project that is delayed, a weapon 
refurbishment, for example, that has been delayed, and I know 
we have got some of that.
    So it is more into the details that will be important. But 
I appreciate our witnesses being here.
    The Chairman. I think that is a legitimate point. I will 
point out we had, you know, some frustration on missile defense 
along these lines as well that we were sort of getting ahead of 
our skis.
    So we got to have missile defense, we got to have missile 
defense so we poured a bunch of money into things. We just, you 
know, cancelled the program after spending $2 billion and 
determining that it didn't work. That that is the kind of thing 
we want to try to avoid in this area.
    I thank you very much for your patience and getting through 
as many members as we did, and I appreciate your service and 
look forward to continuing to work with you.
    And with that, we are adjourned. Thanks.
    General Milley. Thank you, Chairman.
    [Whereupon, at 1:31 p.m., the committee was adjourned.]

?

      
=======================================================================



 
                            A P P E N D I X

                           February 26, 2020

=======================================================================

      

?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2020

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3451.001
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.002
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.003
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.004
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.005
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.006
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.007
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.008
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.009
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.010
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.011
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.012
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.013
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.014
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.015
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.016
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.017
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.018
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.019
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.020
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.021
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.022
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.023
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.024
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.025
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.026
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.027
    

.eps?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           February 26, 2020

=======================================================================

      

      
    [GRAPHIC] [TIFF OMITTED] T3451.028
    
    .eps[GRAPHIC] [TIFF OMITTED] T3451.029
    

.eps?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 26, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Secretary Esper. The Department of Defense understands that climate 
change poses a challenge to DOD installations. While we currently have 
no indications that climate change impacts our readiness directly, we 
acknowledge that resilient installations and operations are crucial to 
maintaining readiness in the face of a wide variety of threats--
regardless of the source.
    To this end, the Department has been and will continue to be 
proactive in developing comprehensive policy, guidance, and tools to 
mitigate potential climate impacts, with a focus on robust 
infrastructure, sound land management policies, and increased energy 
resilience.   [See page 18.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. ROGERS
    Secretary Esper. We can confirm that the Missile Defense Agency 
(MDA) remains the agency with principal responsibility to develop and 
deploy the hypersonic and ballistic missile tracking space sensor 
(HBTSS) payload and that no FY20 funds from HBTSS MDA were redirected 
from MDA to Space Development Agency (SDA).
    HBTSS is a portion of the larger proliferated low Earth orbit 
(pLEO) Tracking Layer within the National Defense Space Architecture. 
The SDA has responsibility for the entire advanced missile tracking 
capability, within which the satellites from MDA's MFOV (HBTSS) system 
will be deployed. The Tracking Layer will provide complete global 
coverage and targeting data for threats that include hypersonic glide 
vehicles and dim booster upper stages. The Tracking Layer leverages 
MDA's expertise in developing sensor systems able to detect the dimmest 
targets and provide the highest quality targeting data to defeat 
threats. MDA is working closely with SDA to integrate HBTSS into the 
entire Tracking Layer and fuse data to provide global threat warning. 
This relationship is vital to accelerating the development of advanced 
missile tracking.   [See page 23.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CARBAJAL
    Secretary Esper. The W93 warhead is a new program of record that 
will produce an additional submarine-launched ballistic missile warhead 
type in the 2030s. We must get started on the warhead now to mitigate 
future risk to the Triad's sea-based leg and to address the changing 
strategic environment. In November 2019, the Nuclear Weapons Council 
endorsed, and subsequently the Deputy Secretary of Defense approved 
funding for an acquisition program for the W93 and associated new Mk7 
re-entry body. NNSA and the Navy are requesting funding in Fiscal Year 
(FY) 2021 to begin a Phase 1 Concept Study, which is the first step in 
the warhead acquisition process. Given the long timeframes for nuclear 
weapon acquisition programs, and the risk we see on both the technical 
and geopolitical fronts, DOD and NNSA agree we must get started now.
    Development of the W93 warhead and the associated Mk7 aeroshell 
must be undertaken in parallel to ensure the systems work together. Our 
infrastructure and the industrial base that manufactures many of the 
components and materials, particularly for the aeroshell, have 
atrophied significantly. We must start rebuilding this capability and 
the manufacturing skills that go with it now to achieve the target 
timeframe in the 2030s.
    How the W93 will be integrated into the force, and whether it would 
serve to replace or augment other warheads in the stockpile, will be 
decided as the threat environment evolves and as the W93 design 
matures. We do not anticipate that the W93 will increase the overall 
size of the U.S. deployed strategic force.
    The W76-1 life extension program (LEP) and W88 Alteration 370 are 
limited scope refurbishments that did not and will not replace all of 
the critical components in these two systems. Therefore key components 
in the W76 and W88 warheads--originally produced in the 1970s and 
1980s--are continuing to age and will need replacement. Given this and 
the significant timelines for nuclear weapon acquisition programs, DOD 
and NNSA need to start the W93 warhead now so that it can be produced 
in the 2030s, before both the W76 and W88 begin to reach their end of 
life. Additionally, the W93 mitigates technical risk inherent in our 
current overreliance on the W76 and its addition will ensure continued 
operational flexibility and effectiveness as the United States 
transitions to the COLUMBIA-class ballistic missile submarines, which 
have fewer missile tubes than the current OHIO-class.   [See page 45.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. STEFANIK
    Secretary Esper. As provided in the June 26, 2019 letter from the 
Undersecretary of Defense for Research and Engineering (USD(R&E)) to 
the congressional defense committees, the potential Continental United 
States Interceptor Site (CIS) sites vary in pros and cons depending on 
the attribute being considered. Fort Custer, Michigan is currently 
estimated to be the least expensive option, with the fewest 
environmental and constructability challenges. Fort Drum, New York was 
considered to to provide the best operational coverage, but has the 
most environmental and constructability challenges. Camp Garfield, Ohio 
falls in between Fort Custer and Fort Drum relative to those 
attributes. While a final site selection has not been made, per the 
USD(R&E) letter, Ft. Drum was considered the preferred site by a slim 
margin in June 2019. This was based on a slight operational 
effectiveness advantage due to its geographical location, current 
Missile Defense System (MDS) operational performance, and the 
understood threat to the homeland at that time.
    All planning and analysis for the CIS was based on deployment of 
Ground Based Interceptors with Redesigned Kill Vehicles (RKVs) which 
was subsequently terminated. The MDA has initiated the Next-Generation 
Interceptor (NGI) program, which would now be the foundation for a CIS 
deployment should the requirement for a CIS emerge.
    The Department of Defense is continuously monitoring threats to the 
homeland and is actively pursuing development of the NGI as a critical 
step in our defense. Following finalization of the technical details of 
the NGI, the MDA and U.S. Northern Command must re-evaluate the CIS 
analysis to ensure the best possible use of resources for the defense 
of the homeland.   [See page 43.]
    General Milley. The current GBI inventory and operating locations 
are capable of defending against a possible future ICBM launched from 
Iran should Iran develop the capability.   [See page 44.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. KELLY
    Secretary Esper. The Army National Guard(ARNG) and Army 
Reserve(USAR) have been integral to winning our nation's wars. We rely 
upon Active, Guard, and Reserve Soldiers fighting side-by-side. As the 
Army fields modernized equipment, the priority will be to those forces 
expected to make contact with an adversary first--regardless of 
component.
    Here are some examples of how the Army is fielding the most modern 
equipment to the Army National Guard and Army Reserve:
    -Armored Multi-Purpose Vehicle (AMPV). The Army plans to field AMPV 
to all ARNG Armored Brigade Combat Teams (ABCTs). The AMPV fielding 
schedule is still being developed, but the first ARNG fielding is 
expected to take place after Fiscal Year (FY)25.
    -Integrated Visual Augmentation System (IVAS). The current CFT IVAS 
fielding plan coordinated with US Army Forces Command includes the 30th 
ABCT (North Carolina Army National Guard) in 4th Qtr FY21, which is the 
first year of fielding. FY22 includes fielding multiple National Guard 
BCT formations.
    -Next Generation Squad Weapon (NGSW). NGSW will be fielded to all 
Army components including the Army National Guard and Army Reserve.
    -Network. Command Post Integrated Infrastructure, Low Cost Tactical 
Radio systems, HMS Man pack, 2 CH LDR Radio, Joint Battle Command 
Platform (JBC-P) will be fielded to Active, Guard and Reserve Units.
    ---AH-64E Apache. The 4 ARNG Attack Reconnaissance Battalions will 
be fielded in FY22, FY23, FY25, and FY26 with 24 AH64E in each 
Battalion.
    -UH-60 Blackhawk. UH-60M Black Hawk modernization to COMPO 3 (USAR) 
is complete (FY16) with COMPO 1 and COMPO 2 fielding ongoing (COMPO 1 
H-60M complete in FY22 & COMPO 2 complete in FY28). Additionally, UH-
60V's will be fielded to all three COMPO's, beginning with COMPO 2 in 
FY21. The Army National Guard's 1-106th Assault Helicopter Company will 
be the Army's UH-60V FUE.
    -Joint Light Tactical Vehicle (JLTV). The Army National Guard 
(ARNG) will field its first set of JLTV to select elements of the 19th 
Special Forces Group beginning in the 3QFY21. ARNG BCTs will begin JLTV 
fielding in FY23.   [See page 47.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MS. HORN
    General Milley. USA: Completed. The Army approach was to 
immediately send officers to visit every soldier's on-base housing unit 
to put eyes on any problems. Army Installation leadership completed 
100% of the housing walk-throughs by 19 March 2019.
    USN: Completed. The Navy approach was equally comprehensive. Chief 
of Naval Operation's NAVADMIN from Feb 2019 ordered chain of command 
contact with every Sailor, regardless of housing category in CONUS and 
OCONUS (PPV, community, GO/GL MFH and UH) on the condition of their 
residence. Approximately 1800 Sailors reported issues in PPV housing 
and requested home visits by their chain of command. Approximately 1100 
of the chain of command home visits had various issues documented by 
the chain of command and were recorded in complaint module of 
Enterprise Military Housing (eMH) by Navy Housing Service Center 
government personnel. All Navy home visits were completed by 30 Apr 
2019. The NAVADMIN generated PPV complaints were jointly addressed by 
government housing and local PPV property managers. All NAVADMIN 
generated complaints were closed out EOM August 2019.
    USMC: Completed. In accordance with CMC White Letter 1-19, the 
Marine Corps outreach consisted of contacting each resident to educate 
them on the three step process and ensure that they knew who to contact 
to address their housing concerns. Nearly 92,000 residents were 
contacted. The Marine Corps did not conduct home inspections of PPV or 
Government owned homes.
    USAF: Completed. US Air Force addressed the review like the Navy. 
As a result nearly 7,300 military members residing in PPV housing 
reported issues with their housing, and 8,674 home visits were 
conducted by the chain of command. Commanders completed home visits by 
30 Jun 2019. The resulting 4,985 health and safety issues identified in 
these homes were documented, jointly addressed by government housing 
and local PPV property managers, and tracked to completion by the Air 
Force leadership team. Only one housing issue at Keesler Air Force Base 
that requires extensive work to the unit remains open. Additionally, 
the Air Force has created a Resident Advocate position at every MHPI 
installation. The Resident Advocate reports directly to the vice 
installation commander, and is charged with addressing issues that 
cannot be resolved at the Project Owner and Military Housing Office 
levels. We have filled 9 of 60 of these new positions and we are 
aggressively working to fill the remaining positions.
    Space Force: The Chief of Space Operations completed all housing 
visits to the ten Space Force installations as of Jan 2020.   [See page 
23.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CISNEROS
    Secretary Esper. The Department of Defense (DOD) remains fully 
committed to ensuring our military reflects the great nation we serve. 
We strive to make DOD a workplace of choice that is characterized by 
equity, inclusion, and the vast diversity unique to the United States. 
Our efforts to attract and sustain a force of diverse talent and 
experience are an intrinsic part of recruiting, employing, developing, 
and retaining our workforce.
    From Fiscal Year 2008 to Fiscal Year 2018, DOD has made 
advancements in the representation of talented minority and female 
Service members across the officer corps as well as the enlisted force. 
Representation of racial minorities among DOD officers and enlisted has 
increased. With regard to the senior grades, while there are many 
factors that contribute to its composition, increasing minority and 
female representation at the senior grades requires a strong leadership 
pipeline of diverse candidates. Our efforts are focused on recruiting 
and retaining the talent we need to maintain this diverse pipeline, but 
we recognize there is more to be done.
    Military recruiting efforts are designed to have a broad reach to 
attract diverse talent. The Military Services have developed robust and 
focused marketing and advertising campaigns and continue to enhance key 
partnerships with community leaders and other influencers to generate 
interest in, and inform youth of, the benefits of military service 
across minority and female populations. The recruiting commands and 
officer accession recruiters, including Reserve Officers' Training 
Corps and Military Service Academy recruiters, also engage in outreach 
efforts tailored to reach underrepresented groups. As DOD continues to 
build on its efforts to cultivate a diverse and inclusive workforce, we 
must continue to draw upon the widest possible set of backgrounds, 
talents, and skills to maximize our warfighting capability, adapt to 
address new threats and challenges, and take advantage of new 
opportunities--strengthening the lethality and readiness of the Total 
Force.   [See page 57.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. CROW
    General Milley. The DOD remains a ready, agile, and capable Joint 
Force that can compete, deter, and win across all domains while facing 
the coronavirus threat. The United States military is the strongest in 
the world because of our people, and we are committed to ensuring their 
health and safety. The Joint Force has responded to the needs of 
communities across the nation with some 62,000 service members and more 
than 3,500 DOD health care professionals working on the front lines of 
some of the hardest-hit areas. DOD continues to evaluate additional 
funding and resourcing required to ensure we can respond effectively to 
the challenges faced from the coronavirus, protect the defense 
industrial base, and help to stimulate the economy. We are focused on 
partnering with industry to maintain Joint Force readiness and drive 
modernization while protecting the defense industrial base supply 
chain. We recognize COVID-19 presents a significant challenge to the 
Joint Force, but we will never lose sight that our mission is to deter, 
fight, and win our Nation's wars. I appreciate the support of Congress 
to provide the required funding and resourcing authorities required for 
the armed forces to meet the challenges from the COVID-19 pandemic.   
[See page 64.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. SLOTKIN
    Secretary Esper. When addressing Department of Defense (DOD) PFAS 
releases, DOD follows the Federal cleanup law, called the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA). Under 
CERCLA Section 121, there is an established process for evaluating if a 
State cleanup standard is applied. If the State standard meets the 
criteria in CERCLA, it is incorporated into the cleanup levels that 
must be attained at that site.
    Separately and not part of the cleanup program, DOD must also 
follow the Safe Drinking Water Act for locations where we are the 
purveyor of drinking water. If a State promulgates a State drinking 
water standard, all water purveyors in that State (including DOD), must 
comply with the State standard in finished drinking water. We already 
do this for many other chemicals and it is considered part of normal 
operations for our DOD water systems.   [See page 67.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. ESCOBAR
    Secretary Esper. The DOD Components responsible for infrastructure 
take mitigation of life, health, safety issues very seriously. These 
types of infrastructure issues are prioritized for mitigation. I would 
appreciate any input you are aware of where military personnel or their 
families' life, health, and safety are at risk and not addressed 
promptly.   [See page 72.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. WALTZ
    General Milley. The United States continues to provide training, 
advice, and assistance to Afghan National Defense and Security forces 
(ANDSF) to improve their capacity to counter terrorist threats in 
Afghanistan. At the same time, we have entered into an agreement with 
the Taliban in which the group committed to ``prevent any group or 
individual, including al-Qa'ida, from using the soil of Afghanistan to 
threaten the security of the United States and its allies.'' On the 
battlefield, the Taliban continue to conduct operations to regain 
territory from ISIS-Khorasan. In 2019, the Taliban's operations 
contributed to CT pressure that caused ISIS-Khorasan to withdraw from 
Nangarhar Province and the Taliban is now positioned to pressure ISIS-
Khorasan's presence in Kunar Province. We continue to monitor Taliban 
compliance with its counterterrorism commitments. We remain skeptical 
of the Taliban's willingness to take substantive action against al-
Qaeda due to the long-standing relationship between the two groups, 
which is why we will closely monitor and verify the Taliban's 
commitment.   [See page 71.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MRS. LURIA
    Secretary Esper. Yes, the Annual Performance Plan (APP) and Annual 
Performance Report (APR) are important tools used throughout the budget 
formulation process to maintain an unwavering focus on the Department's 
strategic goals and objectives. Directly aligned to the three major 
strategic goals of the National Defense Strategy (NDS), the APP and APR 
provide the performance measures, milestones and results feedback 
needed to track the progress toward, and when necessary, make course 
corrections to fully implement the NDS.
    This alignment with the NDS goal of reforming the Department's 
business practices for greater performance and affordability permeates 
the Fiscal Year(FY) 2021 budget request. Building on previous reform 
efforts, the Defense-Wide Reviews (DWRs) conducted in support of the FY 
2021 budget development focused the entire Department on improving the 
alignment of time, money and people to NDS priorities. The DWRs 
identified FY 2021 savings of over $5 billion for investment in support 
of readiness, innovation, and a more lethal Joint Force.   [See page 
73.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. BRINDISI
    Secretary Esper. The DOD has and continues to collaborate 
extensively with our private industry partners in regards to Counter 
UAS systems. As you had previously mentioned, your district has 
outstanding facilities both private and within the DOD and Government 
(FAA) to conduct this developmental work. We have taken advantage of 
this with the Air Force Research Laboratory (AFRL), located in Rome, 
New York, awarding over $600 million in contracts to companies within 
the local community this past year alone. Enterprize, Scherzi Systems 
LLC, Syracuse University's Center for Advanced Systems and Engineering, 
Autonomous Systems Policy Institute, Atolla Surveillance, SRC Inc. and 
Black River Systems Co are but a few of the companies in New York that 
have been contracted on Counter UAS work.
    The DOD's efforts in Counter UAS have been streamlined with the 
recent establishment of the Joint Counter Small UAS Office (JCO) to 
lead DOD's efforts to coordinate Joint Requirements, inform future 
collaboration with private industry and field solutions. The JCO has 
and will continue to leverage collaboration of industry and DOD efforts 
in research and development efforts with the support of the Air Force 
and the other Services. This work will continue not only in New York 
but throughout the United States as it has in the past.
    For reference, other private companies awarded contracts in the 
past year through the various Services and DOD in Counter UAS: Anduril 
Industries, Inc. (California), Citadel (California), Black River 
Systems (New York), Sky Safe (California), Echodyne (Washington), 
Fortem Technologies (Utah), Verus Technology Group (Virginia).   [See 
page 76.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 26, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Secretary Esper, in PB21 how much funding is allocated 
to MDA to develop and deliver the hypersonic and ballistic tracking 
space sensor payload, as directed by Congress in the FY20 NDAA? In what 
funding line in the PB21 request is HBTSS payload development work, as 
the FY20 line was zeroed out in MDA's budget? If the SDA $99.6 million 
is supposed to be for development of the overall space tracking layer, 
how does that account for the $260 million that MDA had anticipated 
needing in FY21 for sensor payload development per their previous 
program plan?
    Secretary Esper. The Missile Defense Agency (MDA) was funded $108M 
to develop a hypersonic and ballistic tracking space sensor (HBTSS) mid 
field of view (MFOV) sensor payload in FY20.
    In FY21, MDA will not need additional funding for MFOV sensor 
payload development as the $108M supports development across FY20 and 
FY21. Approximately $20M in Space Development Agency (SDA) funds will 
go toward the MFOV system in FY21.
    The initial acquisition plan for the HBTSS payload allowed four 
performers to complete through Preliminary Concept Review (PCR), and 
then would downselect to two performers each producing two satellites 
(4 satellites total). The Department built the initial HBTSS funding 
profile prior to receiving industry proposals. The submitted proposals 
provide better cost estimates. The initial funding profile for HBTSS 
included all costs for ground systems in a single mission scenario that 
was self-contained and independent. Moving forward, HBTSS will leverage 
investments in the National Defense Space Architecture's transport and 
tracking constellation ground system infrastructure to reduce cost 
further.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. The National Guard has units who perform missions in 
support of space that are missions that the new Space Force will take 
over. These units are mature units, some of whom have had their 
missions and command structures for over 25 years. What is your best 
military advice regarding how to transition these forces to the Space 
Force?
    Secretary Esper. The Department of the Air Force is actively 
working with the Guard, Reserves and other DOD stakeholders developing 
and analyzing a Space organizational structure that considers the Air 
Reserve and National Guard and will provide comprehensive options for 
decision-makers in the near future. The Department will come back to 
Congress once the analysis is complete. In the meantime, National Guard 
and Air Force Reserve units performing space missions today are aligned 
to continue to support the USSF as the Department of the Air Force 
completes analysis and develops recommendations.
    Mr. Lamborn. Should there be a Space National Guard as a component 
of the new Space Force?
    Secretary Esper. National Guard and Reserve units play critical 
roles in today's space missions. The Space Force is a unique 
opportunity to consider a clean sheet, 21st century approach to Regular 
and Reserve Component roles with a human capital management plan 
specially designed for national security needs, this unique mission set 
and the desires of current and future Service members. The Department 
is currently developing and analyzing these new approaches for the 
Space Force, and will come back to Congress once the analysis is 
complete.
    Mr. Lamborn. In your personal opinion, as someone who has both worn 
the uniform and worked in the defense industry, how would the Space 
Force benefit from National Guard members who work fulltime in civilian 
industry and part time in the National Guard?
    Secretary Esper. National Guard and Reserve members have a wealth 
of capabilities garnered from the civilian industry they collectively 
bring to the Services. This will continue to be the case in the future. 
The Department is evaluating new and innovative ways to continue to 
capitalize on this unique expertise. As we do, the focus is on a clean 
sheet, 21st century approach to Regular and Reserve Component roles 
with a human capital management plan specially designed for the Space 
Force mission set.
    Mr. Lamborn. The National Guard has units who perform missions in 
support of space that are missions that the new Space Force will take 
over. These units are mature units, some of whom have had their 
missions and command structures for over 25 years. What is your best 
military advice regarding how to transition these forces to the Space 
Force?
    General Milley. The National Guard plays an important role in 
military space operations and will continue to do so. As we stand up 
the Space Force, we have the rare opportunity to develop a clean sheet, 
21st Century approach to ensure its active, guard, and reserve 
components are structured in a way that meets current and future 
mission needs. DOD is carefully analyzing multiple innovative 
approaches to tailor the Space Force's Total Force construct to its 
distinct mission. While these options are shaped and refined, the 
National Guard personnel and units currently delivering space 
capabilities will continue to execute their operational missions under 
the authority of U.S. Space Command.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. In 1999, two senior Communist Chinese Army colonels 
wrote the following in a book titled Unrestricted Warfare, ``. . . 
financial war is a form of non-military warfare which is just as 
terribly destructive as a bloody war, but in which no blood is actually 
shed. Financial warfare has now officially come to war's center stage--
a stage that for thousands of years has been occupied only by soldiers 
and weapons, with blood and death everywhere. We believe that before 
long, `financial warfare' will undoubtedly be an entry in the various 
types of dictionaries of official military jargon.''
    In your view, is DOD organized and equipped to work alongside the 
Departments of State and Homeland Security, and the Intelligence 
Community (IC) as part of an integrated grand strategy to wage 
financial warfare against America's foreign enemies?
    Secretary Esper. Yes, today the Department is better equipped and 
more aligned with interagency counterparts to safeguard the homeland, 
deter adversaries, and assure allies and partners than in 1999. In the 
two decades since ``Unrestricted Warfare'' discussed the United States' 
ability to generate a whole-of-nation response during Operations Desert 
Shield and Desert Storm, the U.S. Government has only further unified 
departments and agencies to advance and protect national security 
interests.
    Mr. Scott. The Taiwan Travel Act of 2018 expressed the sense of the 
Congress that officials at all levels of the United States, to include 
senior DOD officials and active duty general and flag officers, travel 
to Taiwan to meet their Taiwanese counterparts. Can we expect to see a 
more robust implementation of visits in 2020 and beyond?
    Secretary Esper. DOD conducts regular, low-profile key leader 
engagements, both in Taiwan and the United States, between senior DOD 
officials/active duty general and flag officers and their respective 
Taiwan counterparts. We will continue to plan for additional such 
engagements in Taiwan (as permitted given the ongoing COVID-19 crisis) 
to address critical strategic and operational issues of mutual concern. 
As dictated by Executive Branch policy, we will continue to work with 
the Department of State to ensure its concurrence in all such travel 
engagements.
    Mr. Scott. Why can't visiting military personnel from Taiwan wear 
uniforms in the United States while on official business? Why aren't 
Taiwan's military attaches issued military IDs like attaches from other 
countries? Why aren't Taiwan's military attaches invited to more events 
like their foreign counterparts?
    Secretary Esper. Visiting Taiwan military personnel cannot wear 
uniforms in the United States per Department of State policy. Taiwan 
military attaches are issued IDs to enter Department of Defense (DOD) 
facilities, this is in line with procedures for other allies and 
partners. Taiwan military attaches are invited to events with other 
allies and partners, as the DOD does not extend separate treatment to 
Taiwan military attaches and encourages fulsome engagement between all 
of our allies and partners.
    Mr. Scott. How vulnerable is our ``defense industrial base'' today? 
Do we have the ability to ``surge'' production if necessary, or have we 
compressed/collapsed to such a degree that we have far too few places 
to manufacture ships, planes, missiles and tanks and those remaining 
few places are highly vulnerable to disruption by foreign powers.
    Secretary Esper. In terms of war production competitiveness, the 
shipbuilding industry is in a vulnerable wartime footing. Though able 
to support the fleet we are building today, industry contraction has 
impacted our shipbuilding industrial base- we have lost 10 major 
shipbuilders since the mid-1980s. A healthy and efficient industrial 
base continues to be the fundamental driver for achieving and 
sustaining the Navy. Our shipbuilding and supporting vendor base 
constitute a national security imperative that is unique and must be 
protected. Without continuous commitment to steady acquisition 
profiles, the industrial supplier base will continue to struggle, and 
some elements may not survive any down turns in procurement.
    Mr. Scott. The Intelligence Community, in its Annual Worldwide 
Threat Assessment, identifies numerous threats or challenges we could 
face but it explicitly does NOT prioritize these threats nor does it 
assess which of them puts us at great ``risk.'' How are we vulnerable 
to such threats?
    Secretary Esper. The World Wide Threat Assessment of the U.S. 
Intelligence Community identifies a range of global and regional 
threats that could pose risk to the United States--from threats posed 
by China and Russia to counterintelligence. The character and severity 
of such threats would vary by context. The Department's National 
Defense Strategy (NDS) makes clear that the erosion of military 
advantage in key regions is the most pressing national security 
challenge the Department must address. The NDS continues to serve as 
the Department's guide to ensure the Joint Force has the ability to 
compete, deter, and if necessary win any conflict--to reduce the risk 
this most pressing security challenge poses to our Nation's defense.
    Mr. Scott. Why is there no definition of victory in the January 
2020 DOD Dictionary of Military and Associated Terms? Can we expect it 
to be updated to include a definition of victory before you testify 
again next year? If not, why not.
    General Milley. In ``great power competition'' there is not a 
static state of victory, but a continuous competitive spectrum that 
will favor one version of global norms or another at any given moment. 
While the desired end-state for any given conflict is described in that 
conflict's specific war planning documents, held at higher 
classification levels, the DOD will continue to defend America's 
interests and support realization of strategic objectives. The theory 
of victory for the emerging Joint Warfighting Concept is available at 
higher classification levels.
    Mr. Scott. In 1999, two senior Communist Chinese Army colonels 
wrote the following in a book titled Unrestricted Warfare, ``. . . 
financial war is a form of non-military warfare which is just as 
terribly destructive as a bloody war, but in which no blood is actually 
shed. Financial warfare has now officially come to war's center stage--
a stage that for thousands of years has been occupied only by soldiers 
and weapons, with blood and death everywhere. We believe that before 
long, `financial warfare' will undoubtedly be an entry in the various 
types of dictionaries of official military jargon.''
    In your view, is DOD organized and equipped to work alongside the 
Departments of State and Homeland Security, and the Intelligence 
Community (IC) as part of an integrated grand strategy to wage 
financial warfare against America's foreign enemies?
    General Milley. The Department is postured to provide the President 
and the National Security Council a broad range of military options to 
support comprehensive approaches that achieve policy end states that 
counter America's adversaries, including options short of actual 
conflict. The Irregular Warfare Annex to the National Defense Strategy 
addresses this very concept; leverage what we have learned during the 
war on terror and adapt it to adversarial competition. The financial 
and economic aspects of this competition have direct impacts on our 
ability to execute our military missions. The Joint Staff is working 
alongside our OSD and interagency partners and allies to develop 
integration mechanisms and processes that will allow us to effectively 
employ all elements of power in coordinated campaigns against those who 
would threaten our nation and endanger our values.
    Mr. Scott. The Taiwan Travel Act of 2018 expressed the sense of the 
Congress that officials at all levels of the United States, to include 
senior DOD officials and active duty general and flag officers, travel 
to Taiwan to meet their Taiwanese counterparts. Can we expect to see a 
more robust implementation of visits in 2020 and beyond?
    General Milley. The current policy is under review to ensure we are 
compliant with the Taiwan Travel Act of 2018. The Department has been 
very deliberate about its approach to senior level visitors. We will 
ensure future trips provide substantive improvements to Taiwan defense 
capabilities.
    Mr. Scott. Would you support or oppose legislation that would add a 
Coast Guard Admiral to the membership of the Joint Requirements 
Oversight Council (JROC)?
    General Milley. The Department would not support adding a Coast 
Guard Admiral to the Joint Requirements Oversight Council (JROC).
    The Joint Requirements Oversight Council (JROC) derives its primary 
mission and responsibilities from Title 10 U.S. Code 181. It in turn 
establishes the JROC as statutory council to the CJCS to address ONLY 
Title 10 responsibilities. The Coast Guard by law, as stated in Title 
14 U.S. Code 103, shall be a service in the Department of Homeland 
Security, except when operating as a service in the Navy. Coast Guard 
warfighting requirements should be adjudicated through the Navy, 
consistent with the responsibilities and relationships established in 
this statutory framework.
    Mr. Scott. Do you plan to issue a Chairman's Reading List like some 
of your predecessors?
    General Milley. I am a strong believer in the importance of 
professional military education, not only within the halls of our war 
colleges, staff colleges, and other professional military education 
institutions, but also individual self-study efforts. I have developed 
a reading list that will be released in the coming months. It will 
contain books from several categories which I think are critical to the 
development of engaged and agile intellectual Joint Force leaders, 
including geopolitical rivalry, lessons from history, innovation, 
problem-solving, joint operations, and national strategy.
    Mr. Scott. What is the specific force posture we need, based on 
what threats and strategy? For example, during the Cold War, we 
prepared a strategy and subsequent forces to fight two and a half wars 
simultaneously--Europe, North Asia and a ``half'' in the Middle East. 
What about today?
    General Milley. The National Defense Strategy provides clear 
guidance on this issue. During conflicts, a fully mobilized Joint Force 
must be shaped, sized, postured, and readied to simultaneously defeat 
aggression against the United States, its national interests, allies, 
or key partners by a great-power adversary; and deter opportunistic 
aggression in a second theater.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. VELA
    Mr. Vela. The Defense Health Agency announced that 38 Military 
Training Facilities will be transitioning to serving Active Duty Only. 
This will impact family members of Active Duty service members and 
retirees, requiring them to find medical services and pharmacies in 
town, which they've never had to do before.
    a. One, what criteria was used to select these 38 facilities?
    b. Two, what training has been done or is planned so that immediate 
family members understand the changes and how to use their benefits out 
in town so they don't experience any gaps in coverage?
    c. Three, what is the timeline for the policy change going into 
affect?
    Secretary Esper. a) The criteria used are contained in 10 United 
States Code Sec. 1073d. As a part of the implementation of these 
criteria, the Department included a government and independent 
assessment of the ability of local networks to meet the demand of DOD 
beneficiaries. In addition, on-site visits were conducted with local 
installation and military medical leadership to provide additional 
information on network capabilities. The network assessment information 
is available in the report and associated attachments located at 
https://www.health.mil/About-MHS/OASDHA/Defense-Health-Agency/
Congressional-Relations/Restructuring-and-Realignment-of-Military-
Medical-Treatment-Facilities. DOD pharmacies are not affected by the 
transition and will remain open to all beneficiaries.
    b) The Department will provide case management support to 
transitioning beneficiaries. The transition of beneficiaries will be 
timed to match the ability of the local communities to meet the 
increased demand and will be location specific. We expect that in some 
locations the transition will take 2-5 years to complete. The 
Department will monitor implementation of the transitions and make 
adjustments as necessary.
    c) Prior to any changes taking place the Department will develop 
implementation plans that will include input from local stakeholders by 
September 30, 2020. Implementation timing will be location specific and 
will take from 2-5 years.
    Mr. Vela. General Milley, with the planned drawdown of military 
forces in 2020 in Afghanistan, what criteria must be met to make you 
comfortable drawing down US Forces?
    a) As you have continued to work with NATO partners regarding 
Afghanistan, how have you gauged their commitment to Afghanistan and 
their criteria for drawing down their forces?
    General Milley. We continue to pursue a political settlement to the 
longstanding conflict as the best option to achieve a more stable 
Afghanistan that is inhospitable to terrorists and safeguarding U.S. 
national interests. The United States committed to reduce its forces in 
Afghanistan to 8600 within 135 days of the signature of the February 29 
agreement with the Taliban. Further reductions will be conditions-based 
after the U.S. Government assesses the current security environment and 
will be in coordination with our NATO allies and partners. Our partners 
share our commitment to ensuring that terrorists can never again use 
Afghanistan as a training ground or launching point for attacks against 
our homelands.
    Mr. Vela. The Army is looking to grown by nearly 5,000 soldiers. 
Given the U.S.'s planned drawdowns in the Middle East and potentially 
in other parts of the world, what is the purpose of growing the Army's 
active force?
    General Milley. I defer to the Department of the Army to provide 
the appropriate response.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. ABRAHAM
    Dr. Abraham. You have made it clear that you are fully committed to 
building a fleet of 355 ships or larger. However, in order to get 
there, the Navy is going to have to fundamentally reshape itself around 
smaller ships that can be more quickly bought than the large, exquisite 
designs the service now relies on. Would these ships, which you've 
indicated would be ``lightly manned,'' be the Medium and Large Unmanned 
Surface Vessels for which the Navy is currently seeking proposals or is 
there potential for other smaller ships to be incorporated into the 
Fleet mix?
    Secretary Esper. I have charged the Deputy Secretary to conduct a 
comprehensive review of the Navy's future fleet force structure. The 
results are due back to me this summer. It is my intention to be 
transparent with the Congress regarding the methods, progress and 
results of this review. See the attached letter for more details.
    Dr. Abraham. You have also mentioned that your office would be 
taking a leading role in bringing Congress to the table on a new Fleet 
design. Can you elaborate on how you plan to include interested Members 
of Congress in this process?
    Secretary Esper. It is my intention to be transparent with the 
Congress on the methods, progress, and results of the comprehensive 
shipbuilding review the Deputy Secretary is leading. See the attached 
letter for more details.
    Dr. Abraham. You have stressed that ``the United States must have 
an expanded and healthy industrial base with modern shipyards'' and 
that you ``think we can actually expand the number of shipyards in the 
United States . . . to ensure adequate capacity.'' How do you plan to 
integrate new shipyards into the Navy's shipbuilding industrial base?
    Secretary Esper. The total number of shipyards in the United 
States, and the subset of that total that is actively engaged in the 
construction and depot maintenance of battle force ships for the U.S. 
Navy, has historically fluctuated over time. U.S. shipbuilding growth 
prospects have recently and convincingly changed, however. The newly 
emergent threat of great power warfare on the high seas is driving more 
investment into American shipbuilding. Existing shipyards (for example 
Newport News and Electric Boat) are making large capital investments 
into what is very clearly a strategic business opportunity. We also 
have foreign orders for surface combatant warships in our shipyards for 
the first time in decades. For ship depot maintenance, we are also 
working to grow capacity by certifying new shipyards and their 
facilities to support Navy work. Furthermore, the Coast Guard and the 
Maritime Administration are in the early stages of new recapitalization 
programs.
    This growth is not being ignored by corporate America. As companies 
invest in new and/or expanded technologies, capabilities, and 
production facilities, the Navy will welcome those that competitively 
earn their way in, to join the defense industrial base. Competition 
will decide which firms and facilities earn a place in U.S. naval 
shipbuilding and depot maintenance.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KELLY
    Mr. Kelly. Recruiting is a challenge, those on non-deployable 
status are increasing and suicides continue to affect service members 
across the military and veteran community. The Department has had 16 
Under Secretaries for Personnel and Readiness, acting or otherwise, 
since 2008. Do you think we are experiencing a personnel crisis within 
DOD? What are the key metrics you're using to determine personnel 
readiness?
    I am curious about recruiting, injury rates, non-deployable status 
and suicide numbers across the services and how they compare to 
historical trends.
    Secretary Esper. Recruiting: The recruiting market is cyclical 
through history and we are currently in a challenging period. The 
Department closely monitors the Services ability to achieve its 
recruiting goals both in terms of quantity and quality. Quality is 
measured along two dimensions the first of which is the percentage of 
new accessions that have at least a high school diploma or equivalent 
(Tier 1) credential or higher and the second is the percentage of new 
accessions who score a 50 or better on the Armed Forces Qualification 
Test. The Department's benchmark for these metrics are 90 percent and 
60 percent respectively. Currently, all Services and Components are at 
or above the DOD benchmarks in terms of quality. Most Services/
Components continue to achieve their quantity mission and those that 
are behind have a plan to be back on track before the end of the fiscal 
year. We will continue to monitor recruiting efforts as each strives to 
maintain its authorized end strength.
    Injury rates: The safety of our troops is one of the Department's 
highest priorities. Currently, mishap fatality rates and Class `A' 
mishap rates are key metrics used to track the safety of the 
Department. However, the Department also tracks Military Injury rates. 
These Military Injury `Lost Time' Case Rates are based on medical 
treatment data. Service member `lost time' injuries are more severe 
injuries, resulting in hospitalization and/or time away from work, or 
`lost time'. The rate for `lost time' injuries declined in the most 
recent four fiscal years, from a high in FY2016 at 3.33 to a low in 
FY2019 at 2.67, showing that there are fewer severe injuries, resulting 
in fewer lost time cases. From FY2008 to FY2019, the DOD averaged 3 
lost time military injury cases per 100 Service members per fiscal 
year.
    Non-Deployability Status: the Services have implemented policies 
and procedures to reduce their non-deployable populations and thereby 
improve overall personnel readiness. They are making steady progress 
toward achieving the Department goal of no more than 5% non-deployable 
across the force.
    <bullet>  As of 31 January 2020, the Department was at 5.36% non-
deployable personnel (-114K).
    <bullet>  In January 2019, the Department's non-deployable rate was 
5.41%.
    <bullet>  In January 2018, the Department's non-deployable rate was 
at 13.9%.
    Suicide: Sadly, suicide rates in civilian populations have 
increased over time, and the military is showing similar trends over 
the last five years. Last year, the Department released its first-ever 
Annual Suicide Report for Calendar Year 2018, which reflects our 
commitment to transparency and accountability in efforts to combat this 
tragedy. Because there is no one `fix', we are committed to addressing 
suicide comprehensively by targeting areas of greatest concern--
including young and enlisted members and National Guard members--and 
supporting military families.
    One of our focus areas is increasing access to care, especially for 
those who are geographically isolated. We are partnering with the 
Department of Veterans Affairs to increase Reserve and National Guard 
members' accessibility to mental health care through VA Mobile Vet 
Centers during drill weekends. We are also working with the National 
Guard Bureau to support its implementation of the Suicide Prevention 
and Readiness Initiative for the National Guard, which examines 
protective factors, risks, and promising practices related to suicide 
and readiness in the National Guard. Lastly, we have also developed a 
joint program evaluation framework to better measure program 
effectiveness across the Military Services.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CISNEROS
    Mr. Cisneros. Though there have been improvements in diversity in 
the officer ranks since the military became an all-volunteer force 
after 1973, there is still disproportionate demographic representation 
in the officer ranks. Mr. Secretary/General Milley, what specific steps 
is the Department taking to recruit and retain minority officers, so 
our officer corps better reflects the U.S. general population 
demographics?
    Secretary Esper. The Department of Defense (DOD) remains fully 
committed to ensuring our military reflects the great nation we serve. 
We strive to make DOD a workplace of choice that is characterized by 
equity, inclusion, and the vast diversity unique to the United States. 
Our efforts to attract and sustain a force of diverse talent and 
experience are an intrinsic part of recruiting, employing, developing, 
and retaining our workforce.
    From Fiscal Year 2008 to Fiscal Year 2018, DOD has made 
advancements in the representation of talented minority and female 
Service members across the officer corps as well as the enlisted force. 
Representation of racial minorities among DOD officers and enlisted has 
increased. With regard to the senior grades, while there are many 
factors that contribute to its composition, increasing minority and 
female representation at the senior grades requires a strong leadership 
pipeline of diverse candidates. Our efforts are focused on recruiting 
and retaining the talent we need to maintain this diverse pipeline, but 
we recognize there is more to be done. Military recruiting efforts are 
designed to have a broad reach to attract diverse talent. The Military 
Services have developed robust and focused marketing and advertising 
campaigns and continue to enhance key partnerships with community 
leaders and other influencers to generate interest in, and inform youth 
of, the benefits of military service across minority and female 
populations. The recruiting commands and officer accession recruiters, 
including Reserve Officers' Training Corps and Military Service Academy 
recruiters, also engage in outreach efforts tailored to reach 
underrepresented groups. As DOD continues to build on its efforts to 
cultivate a diverse and inclusive workforce, we must continue to draw 
upon the widest possible set of backgrounds, talents, and skills to 
maximize our warfighting capability, adapt to address new threats and 
challenges, and take advantage of new opportunities--strengthening the 
lethality and readiness of the Total Force.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HOULAHAN
    Ms. Houlahan. I understand the DOD provides scholarships, such as 
the Information Assurance Scholarship Program, to recruit and develop 
tech talent.
    Has this program been effective? What is the retention rate of 
personnel who receive these scholarships?
    Secretary Esper. The Fiscal Year 2018 National Defense 
Authorization Act changed the name of the program from the Information 
Assurance Scholarship Program (IASP) to the Cyber Scholarship Program 
(CySP). At present, the program is producing quality students that are 
educated to meet DOD Cyber mission requirements. Over the life of CySP 
program, the Retention Rate of the CySP Recruitment Scholarship is 96%. 
(Around 523 of 547 scholarship recipients were able to complete their 
service obligation). The factors that contribute to this high retention 
rate are:
    <bullet>  Upon graduation, students are offered full-time 
employment with various components and agencies across the DOD.
    <bullet>  Students are required to work for the DOD a minimum of 
one year for each year of scholarship support they receive. On average 
students have a two-year service obligation.
    Ms. Houlahan. China is attempting to surpass the U.S. as the world 
leader in technology by 2030. There is no bright line between Chinese 
military and civilian technological development. Here, of course, we 
have a different relationship between government and industry--
recently, President and CEO of Aerospace Industries Association, Eric 
Fanning, testified before our Future of Defense Task Force: ``Sometimes 
it has been hard for the innovation taking place in industry to find 
its way to our military in the field. Government must better adjust to 
private sector developments rather than force those developments to fit 
its needs.''
    What legislative or resource constraints are inhibiting greater 
cooperation with industry? What do you think about the idea of creating 
an inter-agency coordination body that would be responsible for 
developing and fostering innovation in our national security industrial 
base?
    Secretary Esper. Ship building is a good example of an industry 
that could benefit from great government cooperation. Due to the small 
commercial market in the U.S., most large shipyards in America are 
specialist naval builders. A strategic legislative initiative to 
strengthen merchant marine and merchant shipbuilding policy would be 
required to grow a significant commercial market in the U.S., which in 
turn would provide better opportunities to develop and transition 
innovation in this sector.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. Multiple studies show the U.S. isn't prepared for large-
scale medical emergencies or biological attacks. In the 2020 NDAA we 
authorized DOD to collaborate with HSS, DHS, and the VA to create a 
civil-military partnership to develop a more robust emergency medical 
surge capability for our country. This is of interest to Omaha because 
the UNMC is a center of excellence for Ebola--now coronavirus, and we 
want to do more. Do you have the right authorities to go forward? What 
else do you need?
    Secretary Esper. At this time, the Department has the right 
authorities to go forward and no additional requirements have been 
identified. Section 740 of the National Defense Authorization Act for 
Fiscal Year 2020 authorized the Department to conduct a pilot program 
on civilian and military partnerships to enhance interoperability and 
medical surge capability and capacity of the national disaster medical 
system (NDMS). The Department has approved and is in the process of 
beginning the pilot project. It is anticipated this project will take 5 
years to complete. A report on the findings will be provided to 
Congress no later than 180 days after the project is completed.
    Mr. Bacon. Do you have the funds necessary to recapitalize the 
nuclear triad? What level of risk are you accepting with ground based 
strategic deterrent (GBSD) ICBMs?
    Secretary Esper. Yes. Efforts to sustain and modernize the nation's 
nuclear deterrent are the Department of Defense's (DOD's) top priority. 
As such, DOD is prioritizing full funding for nuclear enterprise 
modernization and sustainment. The President's Budget Request for 
FY2021 is consistent with this prioritization. The Air Force strategy 
for GBSD is to pursue a low risk, technically mature, and affordable 
total system replacement of Minuteman III to meet Intercontinental 
Ballistic Missile operational requirements through 2075.
    Mr. Bacon. I hear concerns from military veterans on the direction 
of senior level professional military education. Their concerns are 
about a standardization of all the SDE programs, which risks losing 
their traditions and specialties each has brought over the years. 
Chairman, what is your philosophy on SDE and programs like the National 
War College, Eisenhower, and four service schools?
    General Milley. There is no effort underway to standardize War 
College (SDE Joint Professional Military Education Phase II) as 
described. Title 10, specifically section 2155, provides guidance 
applicable to all JPME II programs. CJCS Officer PME policy further 
articulates Desired Leader Attributes and Joint Learning Areas that are 
applicable, but the achievement of these fundamentally pivot on the 
individual mission statements of the various War Colleges, which vary 
in purpose, while retaining a common scope of strategic education. As 
we prepare our rising leader cohort to achieve intellectual overmatch 
against adversaries, ``one size'' does not fit all.
    Mr. Bacon. Do you foresee a time when we may have to reconstitute a 
24-hour airborne nuclear alert capability like we had with the LOOKING 
GLASS that was ended 20 years ago?
    General Milley. Our nuclear forces must be capable of adopting a 
readiness posture appropriate to a variety of geopolitical 
circumstances. We continually evaluate the sufficiency of that posture 
to ensure the effectiveness of U.S. deterrence and assurance and our 
ability to respond effectively if deterrence were to fail. If I believe 
a change is needed, I will provide my best military advice to the 
Secretary of Defense and the President.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BANKS
    Mr. Banks. Section 904 of the FY20 NDAA asked for an assessment of 
the Chief Management Officer position. Secretary Esper, can you please 
elaborate on the benefits of the CMO position since its creation in 
2018? Additionally, to maximize the efficiency of the position, would 
you recommend granting the CMO any additional authorities in the FY21 
NDAA?
    Secretary Esper. Yes, the required review is being conducted under 
the auspices of the Defense Business Board at my direction. The DBB is 
uniquely qualified to perform the review insofar as it brings the 
varied perspectives of individuals who have significant business 
leadership experience and understand best business practices as well as 
leaders from academia and those with prior defense-related experience.
    As you know, the Chief Management Officer (CMO) position is new, 
having been created in the 2017 NDAA, and the position has only been 
occupied by a Senate confirmed nominee for 9 months. It was created as 
an incremental step in response to prior efforts to promote 
institutional reform within the Department. Those prior efforts had 
limited success, I believe in part because the prior DCMO position 
lacked the necessary authority to mandate reform throughout the 
Department, and in part because the role had been filled by individuals 
who lacked the private sector business transformation experience 
mandated by the 2017 NDAA. The elevation of the role to the number 
three position in the Department has had a significant positive impact 
on the ability to produce results.
    The CMO has become a vital position in the Department both in its 
role driving reform and through my recent amplifying guidance on the 
role of the CMO on 6 January 2020 that codified the CMO's 
responsibility for the business functions of Defense-Wide (DW) 
organizations. I have directed the CMO to serve in a capacity 
equivalent to that of a service secretary in managing the Defense-Wide 
organizations, which includes the Fourth Estate. Among other 
responsibilities, this includes the CMO consolidating what was 
previously 10 fiscal guidance documents into a single POM build.
    The Deputy Secretary provided supplemental guidance on 24 January 
2020 directing a bottom-up (i.e., clean sheet, DWR 2.0) review of 
selected DAFAs. The CMO will lead an assessment of the roles and 
responsibilities outlined in the agency's charter/organization chart, 
identify origins by statutory, regulatory, or policy and recommend 
adjustments as part of the FY2022-FY2026 POM Submission.
    The CMO has worked to institutionalize lasting cultural change by 
making processes, budget requests, and governance structures more 
efficient and streamlined, resulting in validated savings of $6.5B in 
FY19 as well as programmed and budgeted future savings of $7.73B in 
FY20 and $9.06B in FY21.
    Along with the other reform savings the CMO has realized, the CMO 
played a key leadership role in the first Defense-Wide Review which 
identified $5.7 billion savings across roughly 50 Defense-Wide 
organizations. This reinvestment will realign towards lethality and 
readiness priorities.
    In regards to additional authorities which the CMO needs, I am 
completing a robust review of the OCMO organization in accordance with 
Sec. 904 which will set forth recommendations for legislative or 
administrative actions required to maximize efficiency of the 
organization. I will share my recommendations with the Committee 
following an opportunity to evaluate the report.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. SHERRILL
    Ms. Sherrill. Secretary Esper testified that ``Congress matters.'' 
I was glad to hear that viewpoint from the Secretary especially given 
the conduct of this administration and this Department of Defense. The 
testimony that has been presented to this committee in the past, 
particularly regarding sending troops to the border and the recent 
reprogramming of funds, suggests that your Department might have a 
different opinion. I sincerely hope that we can expect better from our 
Department of Defense in the coming year.
    Having served in our Navy, I know firsthand how difficult it can be 
for our soldiers and sailors in the field when they are unable to carry 
out crucial missions because of exigencies outside of their control. 
Understanding that those exigencies often necessitate flexibility, 
Congress has delegated to the Department a limited ability to reprogram 
funds.
    This arrangement only works when there is a level of trust between 
the Department of Defense and Congress. The actions of this 
administration and this Department have severely diminished that trust.
    As noted by my colleague, Ms. Slotkin, Secretary Esper is the first 
confirmed Secretary of Defense to move money out his own budget, 
contrary to the will of Congress. I am deeply concerned about the 
precedent being set by the Secretary's submission to the 
Administration's political agenda, and what implications that precedent 
might have for our national defense in the future.
    As Congress moves into the budgeting process for the Department of 
Defense for Fiscal Year 2021, what assurances can Secretary Esper offer 
that the Department will not reprogram funds contrary to the expressed 
will of Congress, or, to paraphrase Ranking Member Thornberry, again 
substitute the judgment of the Department for the judgment of Congress?
    Secretary Esper. The Department will support all lawful direction 
provided by the President. The President directed the Department of 
Defense (DOD) to support the Department of Homeland Security (DHS) at 
the southern border, and we are using the authority Congress has given 
the Department to do so, including the authority provided by 10 USC 284 
to block drug smuggling corridors. The border barrier construction 
support that DOD is providing to DHS this year will allow DHS to 
fulfill the President's border security policy promise. Aside from 
costs associated with U.S. Army Corps of Engineers oversight, we do not 
foresee that DOD will be asked to support DHS border barrier 
construction next year.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. WALTZ
    Mr. Waltz. On Afghanistan, I think the concern from Ms. Cheney, 
myself, and others is that signal that we are prepared to draw down and 
withdraw from Afghanistan, could cause a fracturing of the government, 
by extension a fracturing of the army, which to me is the canary in the 
coal mine with the ethnic tensions, and essentially put us back to 
2001. Do you believe that the Taliban has the capability, assuming they 
have the will to enter into a peaceful political process, to enforce 
the agreement and keep al-Qaida and ISIS at bay, where we have 
struggled, the coalition has struggled, now the 300,000 man Afghan has 
struggled, in the wake of a withdrawal?
    General Milley. The United States continues to provide training, 
advice, and assistance to Afghan National Defense and Security forces 
(ANDSF) to improve their capacity to counter terrorist threats in 
Afghanistan. At the same time, we have entered into an agreement with 
the Taliban in which the group committed to ``prevent any group or 
individual, including al-Qa'ida, from using the soil of Afghanistan to 
threaten the security of the United States and its allies.'' On the 
battlefield, the Taliban continue to conduct operations to regain 
territory from ISIS-Khorasan. In 2019, the Taliban's operations 
contributed to CT pressure that caused ISIS-Khorasan to withdraw from 
Nangarhar Province and the Taliban is now positioned to pressure ISIS-
Khorasan's presence in Kunar Province. We continue to monitor Taliban 
compliance with its counterterrorism commitments. We remain skeptical 
of the Taliban's willingness to take substantive action against al-
Qaeda due to the long-standing relationship between the two groups, 
which is why we will closely monitor and verify the Taliban's 
commitment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. HAALAND
    Ms. Haaland. I understand the Department zeroed out the Operational 
Energy Capability Improvement fund this year. That fund has been used 
as seed money to test operational energy initiatives that extend range 
and lethality by increasing fuel efficiency. While the focus is on 
readiness, the higher fuel efficiency means using less fossil fuels and 
lowered Greenhouse gas emissions. These programs have a 76% success 
rate in showing cost savings that frees up O & M funds for other uses. 
Despite evidence showing fuels as a significant logistical hurdle, the 
Department continues to under-invest in solutions to those problems. 
What is the Department doing to ensure that our plans, posture, and 
program investments are energy and logistics informed? And what is the 
Department doing to speed up base resiliency efforts to expand 
renewable energy?
    Secretary Esper. Energy is an essential enabler of military 
capability and the Department depends on energy resilient forces and 
facilities to achieve its mission. Regarding fuel and logistics, the 
Department is establishing a baseline of current and planned fuel 
infrastructure investments and revising the policy governing bulk fuel 
storage to support the global integration and prioritization of 
Department resources. In addition to completing the first Department-
wide wargame focused on energy in August 2019, the Department also is 
integrating energy constraints into Service wargames to reflect the 
contested operating environment likely to affect plans and operations.
    At our installations, the Department is pursuing Energy Resilience 
Readiness Exercises (ERREs), also referred to as black-start exercises, 
to identify risks, vulnerabilities, and gaps that degrade the mission. 
In addition, the Department has implemented an Installation Energy 
Planning (IEP) process that requires all installations to identify 
critical energy security and resilience gaps, and to develop plans to 
close them using a holistic and technology agnostic approach. This 
approach enables implementation of the most cost effective, resilient, 
cybersecure technology solutions, which could include renewables.
    Ms. Haaland. In FY2020 Congress appropriated $50 million dollars 
towards the Defense Community Infrastructure Program. The program aims 
to provide grants to state and local governments to improve and expand 
infrastructure that enhances the military value, resilience, and 
quality of life at a military installation and surrounding community. 
To date, the Department has yet to release guidance or details about 
the process by which communities will be able to propose projects and 
compete for funding under the program.
    Will you commit today that the Department will support the program, 
and can you tell us a timeline for the implementation of this program?
    Secretary Esper. Yes, the Department supports this program. I 
anticipate the public roll-out of this program shortly, with timelines 
intended to ensure the appropriated funds are fully obligated prior to 
September 30, 2020, when funds expire if a grant is not awarded; and, 
the Office of Economic Adjustment will brief the program to the 
Committees upon its execution.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. TRAHAN
    Mrs. Trahan. Secretary Esper, in your written testimony, there is 
very little mention of the people who serve our nation in the 
Department of Defense. No matter the organization, our greatest 
resource is human capital. It is our responsibility to ensure that our 
active duty service men and women are properly resourced and taken care 
of. What investments has the Department made in the last fiscal year to 
combat the rise of suicide rates among our service members? How is the 
mental health of our civilian and military personnel being prioritized 
to accomplish the mission?
    Secretary Esper. The Department believes that our suicide 
prevention efforts must address the many aspects of life that impact 
suicide, and we are committed to addressing suicide comprehensively. 
The Department is focused on fully implementing and evaluating a multi-
faceted public health approach to suicide prevention that targets our 
military populations of greatest concern--young and enlisted Service 
members, and members of the National Guard--and continue to support to 
our military families. Specific initiatives include:
    <bullet>  Young and Enlisted Service Members: We are piloting an 
interactive educational program to teach foundational skills early in 
one's military career to help address life stressors, and to enable 
these individuals as they progress in their career to teach others 
these skills under their leadership. We will also teach young Service 
members how to recognize and respond to suicide ``red flags'' on social 
media--to help Service members recognize how they can reach out to help 
others who might show warning signs.
    <bullet>  National Guard Members: National Guard Service members 
face unique challenges in comparison to their Active Component 
counterparts, including geographic dispersion, significant time between 
drill activities, access to care, and healthcare eligibility. We are 
seeking ways to expand access to care and promote help-seeking 
behavior, for example through formal partnerships, such as with the 
Department of Veterans Affairs (VA) to increase National Guard members' 
accessibility to readjustment counseling services through VA Mobile Vet 
Centers during drill weekends. The VA mobile teams provide support 
services such as care coordination, financial support services, and 
readjustment counseling, including facilitating support to Service 
members who are not eligible for other VA services. We are also working 
closely with the National Guard Bureau (NGB) to better understand this 
unique and critical force, and assist in identifying unique protective 
factors, risks, and promising practices related to suicide and 
readiness in the National Guard. For example, we fully support their 
efforts to implement the new Suicide Prevention and Readiness 
Initiative for the National Guard (SPRING). This comprehensive 
initiative leverages predictive analytics and improved reporting 
protocols to allow NGB to pioneer a unified approach to data-driven 
decision-making and suicide prevention.
    <bullet>  Measuring Effectiveness: The Department has developed a 
joint program evaluation framework to better measure effectiveness of 
our non-clinical suicide prevention efforts. This evaluation will 
inform retention of effective practices and elimination of ineffective 
practices.
    <bullet>  Military Families: We are equally committed to the well-
being of our military families. The Calendar Year (CY) 2018 Annual 
Suicide Report was the first time the Department published suicide data 
for our military family members. This is an important step forward. 
These results integrate data from both departmental data sources and 
the most comprehensive U.S. population data available--the Centers for 
Disease Control and Prevention's National Death Index. The Department 
estimates there were 186 military spouses and dependents who died by 
suicide in CY 2017, which is the most recent data available on military 
family members. Suicide rates for military spouses and dependents in CY 
2017 were comparable to, or lower than, the U.S. population rates after 
accounting for age and sex. The Department will continue to work to 
effectively capture military family suicide data and report out on this 
important information in a transparent and timely manner, reporting on 
these data each year. We continue to pilot and implement initiatives 
focused on increasing family members' awareness of risk factors for 
suicide--to help our military community recognize when they are at risk 
so they seek help. We continue to develop initiatives on safe storage 
of lethal means (e.g., safely storing medications and firearms to 
ensure family safety), as well as how to intervene in a crisis--to help 
others who might show warning signs.
    <bullet>  Mental health of our civilian and military personnel 
continues to be a top priority for the DOD. To accomplish the mission, 
our direct care Mental Health providers include: Active Duty, 
Government Civilian, and Government Contractor personnel totaling more 
than 6,000 health care professionals. DOD Mental Health providers 
includes psychiatrists, psychologists, mental health nurse 
practitioners, licensed social workers, and licensed registered nurses. 
DOD is currently assessing the state of our Mental Health care and 
Mental Health services including an evaluation of recruiting and 
retention efforts. We aim to capture information to help illustrate the 
state of the MH workforce in order to recommend a strategy to improve 
health care services and health care delivery, and better recruit and 
retain MH providers.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GOLDEN
    Mr. Golden. Secretary Esper, in a written answer as part of your 
Senate confirmation hearing, you stated the following:
    Question: In February 2018, then-Secretary of Defense Mattis 
established the Close Combat Lethality Task Force (CCLTF)--a cross-
functional task force charged to ``strengthen the . . . lethality, 
survivability, resiliency, and readiness'' of U.S. squad-level infantry 
formations to ``ensure close combat overmatch against pacing threats.'' 
If confirmed, would you continue to support the CCLTF, ensuring that it 
is properly resourced for mission accomplishment?
    Answer: Yes. Having served as both an Infantry Officer and as 
Secretary of the Army, I am well aware of the unique challenges our 
squad-level infantry formations face if we are to achieve close combat 
overmatch against peer competitors. As Secretary of the Army, I worked 
with the CCLTF and, if confirmed, I will continue the direct and close 
relationship between the Secretary and this task force to ensure it is 
properly resourced and supported for mission accomplishment.
    Question: What is your view of the value of the CCLTF in advancing 
the Department's implementation of the 2018 NDS?
    Answer: This unique organization is an invaluable tool for the 
Secretary because it brings a focused expertise that provides timely 
recommendations and solutions that can be taken for action now. The 
cross-functional nature of the CCLTF increases coordination of effort 
department wide, but most importantly it is an oversight mechanism for 
the Secretary ensuring follow through on decisions.
    Earlier this month you remarked: ``What we're going to do, 
probably, is transition it [CCLTF] to the Army because something like 
that needs a strong foundation of backbone upon which its ideas can 
then filter out.''
    What is your reasoning behind this restructuring, and are you 
concerned that this move will sacrifice Marine Corps small unit 
training and readiness?
    Secretary Esper. The original mandate that created the CCLTF, to 
include the extension, envisioned from the very beginning there would 
be a transition. My intent was always to maintain the Joint and Cross-
Functional nature of the CCLTF by continuing to include USMC and SOCOM 
personnel within the task force. The exact nature of a future 
transition is currently being reviewed by Secretary McCarthy and I 
anticipate his recommendations on the best way to continue to ensure 
the readiness of our small unit close combat formations across the 
Joint Force. The Department's commitment to address the ``90/4/1'' 
paradigm must be enduring in nature and that is why I asked the 
Secretary of the Army to look for feasible restructuring or transition 
of our efforts.
    Mr. Golden. Since May 2019, the U.S has deployed over 14,000 troops 
to CENTCOM. Yet our National Defense Strategy calls for a ``2 plus 3'' 
formulation of two primary threats posed by China and Russia and three 
secondary threats posed by Iran, North Korea and Violent Extremist 
Organizations. I understand that prioritization does not imply 
exclusivity, but should we be concerned that this surge in personnel in 
CENTCOM will come at the cost of preparedness in INDOPACOM?
    Secretary Esper. Since the increase in tensions with Iran beginning 
in May 2019, I have approved the deployment of an additional 20,000 
forces to the Middle East to improve regional defenses, deter Iranian 
aggression, and maintain response options. These deployments have been 
critical in managing the risk of potential Iranian escalation, 
supporting Department of Defense (DOD) regional partners, and messaging 
U.S. resolve. I conduct regular reviews of the scope and duration of 
these deployments to ensure DOD effectively balances crisis-driven 
requirements with DOD's focus on the National Defense Strategy (NDS) 
priorities and readiness. DOD and the NDS are sufficiently flexible to 
respond to emerging crises while also maintaining a focus on great 
power competition and high-intensity warfighting capability.
    Mr. Golden. Since May 2019, the U.S has deployed over 14,000 troops 
to CENTCOM. Yet our National Defense Strategy calls for a ``2 plus 3'' 
formulation of two primary threats posed by China and Russia and three 
secondary threats posed by Iran, North Korea and Violent Extremist 
Organizations. I understand that prioritization does not imply 
exclusivity, but should we be concerned that this surge in personnel in 
CENTCOM will come at the cost of preparedness in INDOPACOM?
    General Milley. There are adequate forces in the Central Command 
Area of Responsibility to deter Iran. However, if deterrence breaks 
down, the Joint Force will analyze the situation and take the necessary 
action to achieve the security objectives relative to Iran. These 
decisions may or may not include additional force allocation. Force 
posture is but one of the tools the Joint Force leverages to compete 
and achieve NDS Priorities. Within the construct of the NDS, the Joint 
Force constantly evaluates the force posture within each Combatant 
Command and remains prepared to allocate forces based on the global 
threat situation, Commander's request, and Service considerations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Contraception is critical for military readiness, 
family planning, and treatment of health conditions such as 
endometriosis. Women make up more than 17 percent of all active-duty 
and reserve members of the Armed Forces and are half of all 
beneficiaries of the TRICARE program. According to DOD estimates, 95 
percent of all women serving are of reproductive age. Under TRICARE, 
active-duty service members have contraceptive coverage without cost 
sharing, but many non-active duty service members and family dependents 
have to pay copays for birth control. Out-of-pocket costs for birth 
control can be an insurmountable barrier for service members. The total 
cost of a long-lasting method such as an IUD can exceed $1,000, and 
even a few dollars out of pocket can put care out of reach for military 
families.
    1. Under the Affordable Care Act, which does not extend to TRICARE, 
all FDA-approved contraception and any related education and counseling 
must be covered without cost sharing. Do you agree that service members 
and their families deserve the same level of coverage and care as the 
civilians they fight to protect, and so should not be subject to cost 
sharing for contraception?
    Secretary Esper. Our Active Duty Service Members (ADSM) and their 
families (ADFM) have coverage that is comparable to and exceeds that 
which is offered to civilians. ADSMs do not have copayments when they 
obtain prescription contraceptives at Military Medical Treatment 
Facilities (MTFs), network civilian pharmacies, or through TRICARE Mail 
Order. However, we recognize that ADFMs do have copayments when they 
obtain prescription contraceptives outside of the MTF. These are 
usually between $7 and $13, but can be up to $50 or higher, depending 
on the pharmaceutical chosen by the beneficiary and her physician. 
While preventive services are covered at no charge for all TRICARE 
beneficiaries when obtained by a network provider, if additional 
services are sought outside the preventive care visit (e.g., IUD 
insertion), there may be an additional copay for the visit, depending 
on the beneficiary's plan. While these copayments are established by 
statute, we are continually evaluating alternatives to improve the 
TRICARE benefit and to encourage the use of high-value services.
    Ms. Speier. Please update us on the status of implementation of the 
Defense Health Agency Procedural Instruction (DHA PI 6200.02) on 
Comprehensive Contraceptive Counseling and Access to the Full Range of 
Methods of Contraception, issued May 13, 2019. Specifically,
    1. Have you collected data on how many women have obtained 
contraception sufficient for the duration of their deployments and 
which methods they accessed? If you have collected this data, please 
provide the results in detail.
    2. Are you monitoring service members' access to the full range of 
contraceptive methods during deployment? If service members are not 
accessing certain methods, which methods and why?
    3. Have you identified any barriers to implementing the DHA PI 
requirement that providers ensure access to prescription contraceptives 
for the duration of service members' deployments? Please describe any 
barriers identified. [p. 12 DHA PI 6200.02]
    4. The DHA PI requires all members attending initial officer or 
enlisted training will ``receive comprehensive evidence-based family 
planning and contraception education on all available contraception 
methods, including EC, menstrual suppression, and the prevention of 
common sexually transmitted infections.'' How is each branch delivering 
training to service members that meets this requirement? [p.13, DHA PI 
6200.02]
    5. Please update us on the status of implementation of the clinical 
counseling requirements set forth in the DHA PI. Are there any barriers 
to full implementation of these requirements? If so, what are they? 
[pp. 6-10, DHA PI 6200.02]
    Secretary Esper. 1. The Department has collected data in the past 
on contraception use. In November 2017, the Armed Forces Health 
Surveillance Branch (AFHSB) reported contraceptive utilization data in 
active duty service women between 2012-2016, including those in 
deployed settings. While this study did not speak to the sufficiency of 
contraception access during deployment duration, the Department did 
conclude the following:
    <bullet>  Permanent sterilization was the most common contraceptive 
method among deployed servicewomen, especially those in armored motor 
transport occupations.
    <bullet>  Use of long-acting reversible contraception (LARC), such 
as IUDs and implants, was 17.9%, with the highest rates among senior 
enlisted personnel.
    <bullet>  Use of short-acting reversible contraception (SARC), such 
as contraceptive pills, was 28.0%.
    <bullet>  A total of 163 deployed women (or 0.4%) were identified 
with a prescription or medical encounter for emergency contraception 
during deployment.
    <bullet>  These 2012-2016 findings revealed that utilization of 
contraception during deployment had increased since the prior study of 
data from 2008-2013. The Department has not collected specific data 
regarding contraception prescription sufficiency during durations of 
deployment. More current data collection and analysis is needed in 
order to review for full compliance with Defense Health Agency 
Procedural Instruction (DHA-PI) 6200.02. Once completed, we will share 
the data in detail with the committee.
    2. The Department believes servicemembers have access to the full 
range of contraceptive methods during deployment, and we collect data 
on the methods used as noted in the 2017 MSMR report cited above. 
Regarding what methods are not accessed and the reasons why, the 2018 
administration of the Health-Related Behavior Survey (HRBS) of Active 
Duty Military Personnel obtained information on: ``Use of family 
planning methods, including information on which method was used and, 
if pregnant during the past year of the survey, whether the pregnancy 
was intended, and whether deployment conditions affected the decision 
on which family planning method or methods were selected.'' Responses 
to this question should give us more insight regarding why certain 
contraception methods are selected. We anticipate the results of the 
2018 HRBS will be made public within the next few months. The 
Department also just licensed a Women's Health Survey that will be in 
the field in two weeks that will ask about servicemembers' use of SARC 
and LARC; any problems with availability; whether or not they have 
received contraception counseling; and how satisfied servicemembers 
have been with these services. The Women's Health Survey will conclude 
this Fall, and we anticipate the findings to be available by the end of 
the calendar year.
    3. Yes. Although access to the mail-order pharmacy allows access to 
refill contraceptive medication in most deployed settings, there is not 
a guarantee that a 6 to 12 month supply of contraceptives, as outlined 
in the DHA PI, would be available to provide for service members 
deploying to more austere environments. The MHS Pharmacy does not carry 
an inventory of contraceptives beyond a four month expiration date.
    4. The Department will audit the military Services regarding 
implementation of the DHA-PI's requirement that comprehensive evidence-
based family planning and contraception education is being conducted by 
the Services and how they are meeting this requirement.
    5. Current efforts have focused on implementing the clinical 
counseling requirements as part of Service members' annual Periodic 
Health Assessment (PHA). The Department does not anticipate any 
barriers with full implementation of these requirements.
    Ms. Speier. Contraception is critical for military readiness, 
family planning, and treatment of health conditions such as 
endometriosis. Women make up more than 17 percent of all active-duty 
and reserve members of the Armed Forces and are half of all 
beneficiaries of the TRICARE program. According to DOD estimates, 95 
percent of all women serving are of reproductive age. Under TRICARE, 
active-duty service members have contraceptive coverage without cost 
sharing, but many non-active duty service members and family dependents 
have to pay copays for birth control. Out-of-pocket costs for birth 
control can be an insurmountable barrier for service members. The total 
cost of a long-lasting method such as an IUD can exceed $1,000, and 
even a few dollars out of pocket can put care out of reach for military 
families.
    1. Under the Affordable Care Act, which does not extend to TRICARE, 
all FDA-approved contraception and any related education and counseling 
must be covered without cost sharing. Do you agree that service members 
and their families deserve the same level of coverage and care as the 
civilians they fight to protect, and so should not be subject to cost 
sharing for contraception?
    General Milley. Our Active Duty Service Members (ADSM) and their 
families (ADFM) have coverage that is comparable to and exceeds that 
which is offered to civilians. ADSMs do not have copayments when they 
obtain prescription contraceptives at Military Medical Treatment 
Facilities (MTFs), network civilian pharmacies, or through TRICARE Mail 
Order. However, we recognize that ADFMs do have copayments when they 
obtain prescription contraceptives outside of the MTF. These are 
usually between $7 and $13, but can be up to $50 or higher, depending 
on the pharmaceutical chosen by the beneficiary and her physician. 
While these copayments are established by statute, we are continually 
evaluating alternatives to improve the TRICARE benefit and to encourage 
the use of high-value services.
    Ms. Speier. Please update us on the status of implementation of the 
Defense Health Agency Procedural Instruction (DHA PI 6200.02) on 
Comprehensive Contraceptive Counseling and Access to the Full Range of 
Methods of Contraception, issued May 13, 2019. Specifically,
    1. Have you collected data on how many women have obtained 
contraception sufficient for the duration of their deployments and 
which methods they accessed? If you have collected this data, please 
provide the results in detail.
    2. Are you monitoring service members' access to the full range of 
contraceptive methods during deployment? If service members are not 
accessing certain methods, which methods and why?
    3. Have you identified any barriers to implementing the DHA PI 
requirement that providers ensure access to prescription contraceptives 
for the duration of service members' deployments? Please describe any 
barriers identified. [p. 12 DHA PI 6200.02]
    4. The DHA PI requires all members attending initial officer or 
enlisted training will ``receive comprehensive evidence-based family 
planning and contraception education on all available contraception 
methods, including EC, menstrual suppression, and the prevention of 
common sexually transmitted infections.'' How is each branch delivering 
training to service members that meets this requirement? [p.13, DHA PI 
6200.02]
    5. Please update us on the status of implementation of the clinical 
counseling requirements set forth in the DHA PI. Are there any barriers 
to full implementation of these requirements? If so, what are they? 
[pp. 6-10, DHA PI 6200.02]
    General Milley. #1. The DOD has collected data in the past on 
contraception use. In November 2017, the Armed Forces Health 
Surveillance Branch (AFHSB) reported contraceptive utilization data in 
active duty service women between 2012-2016, including those in 
deployed settings. While this study did not speak to the sufficiency of 
contraception access during deployment duration, the Department did 
conclude the following:
    <bullet>  Permanent sterilization was the most common contraceptive 
method among deployed servicewomen, especially those in armored motor 
transport occupations.
    <bullet>  Use of long-acting reversible contraception (LARC), such 
as IUDs and implants, was 17.9%, with the highest rates among senior 
enlisted personnel.
    <bullet>  Use of short-acting reversible contraception (SARC), such 
as contraceptive pills, was 28.0%.
    <bullet>  A total of 163 deployed women (or 0.4%) were identified 
with a prescription or medical encounter for emergency contraception 
during deploy&not;ment.
    <bullet>  These 2012-2016 findings revealed that utilization of 
contraception during deployment had increased since the prior study of 
data from 2008-2013. The DOD has not collected specific data regarding 
contraception prescription sufficiency during durations of deployment. 
More current data collection and analysis is needed in order to review 
for full compliance with Defense Health Agency Procedural Instruction 
(DHA-PI) 6200.02. Once completed, we will share the data in detail with 
the committee.
    #2. Servicemembers have access to the full range of contraceptive 
methods during deployment, and the DOD collects data on the methods 
used as noted in the 2017 MSMR report cited above. Regarding what 
methods are not accessed and the reasons why, the 2018 administration 
of the Health-Related Behavior Survey (HRBS) of Active Duty Military 
Personnel obtained information on: ``Use of family planning methods, 
including information on which method was used and, if pregnant during 
the past year of the survey, whether the pregnancy was intended, and 
whether deployment conditions affected the decision on which family 
planning method or methods were selected.'' Responses to this question 
should give the DOD more insight regarding why certain contraception 
methods are selected. The DOD anticipates the results of the 2018 HRBS 
will be made public within the next few months. The DOD also just 
licensed a Women's Health Survey that will be in the field in two weeks 
and anticipates the findings to be available by the end of the calendar 
year.
    #3. The Department of Defense has identified one barrier. Although 
access to the mail-order pharmacy allows access to refill contraceptive 
medication in most deployed settings, there is not a guarantee that a 6 
to 12 month supply of contraceptives, as outlined in the DHA PI, would 
be available to provide for service members deploying to more austere 
environments. The MHS Pharmacy does not carry an inventory of 
contraceptives beyond a four month expiration date.
    #4. The DOD will audit the military Services regarding 
implementation of the DHA-PI's requirement that comprehensive evidence-
based family planning and contraception education is being conducted by 
the Services and how they are meeting this requirement.
    #5. Current efforts have focused on implementing the clinical 
counseling requirements as part of Service members' annual Periodic 
Health Assessment (PHA). The DOD does not anticipate any barriers with 
full implementation of these requirements.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BYRNE
    Mr. Byrne. The President's FY2021 budget request represents a 
significant step back from the President's pledge to build a strong 
Navy to counter the growing threat from China and Russia. This request 
for only seven ships represents a significant blow to the already 
fragile defense maritime industrial base. To make the matter more 
urgent, the recent reprogramming of ships appropriated in FY2020 puts 
even greater stress on the Nation's industrial base and puts at risk 
the jobs of thousands of skilled tradesman and thousands of suppliers, 
many of them small businesses, located throughout the country. What 
consideration of the defense industrial base entered into the 
development of the FY2021 shipbuilding budget? What are the likely 
impacts of this budget on the shipbuilding industry, particularly the 
mid-tier yards and their supplier base?
    Secretary Esper. I am committed to a Navy of at least 355 ships. To 
get there, I think the composition of the fleet needs to change so that 
we have fewer large platforms, and smaller platforms that are lightly 
manned, moving to eventually optionally manned. The fleet needs to have 
certain compositional characteristics, including distributed awareness, 
lethality, survivability, and sustainability, and we need to be much 
more aggressive in terms of experimenting and prototyping, and then 
quickly moving to production once we feel confident. The backlog of 
shipbuilding built up in FY18-20 allows us to take some risk in FY21, 
with a lower number of ships requested than originally planned as we 
address the future composition of the Fleet, and concentrate on 
improving readiness and lethality of the current Fleet.
    Mr. Byrne. Specifically, the DOD reprogramming action took funding 
from the Expeditionary Fast Transport (EPF) appropriated in FY20. EPFs 
are built by Austal which is one of the Navy's mere seven new 
construction shipyards and employs thousands of my hardworking 
constituents. The Navy has repeatedly agreed that keeping the 
industrial base surrounding the Austal shipyard healthy is vital as it 
explores new opportunities for this versatile and cost-effective yard, 
particularly as the FFG(X) frigate competition continues. Do you have 
concerns about the viability and cost effectiveness of the decision to 
reprogram this ship?
    Secretary Esper. We tried to be very objective in terms of where we 
took the resources for the reprogramming. The funds were sourced from 
FY 2020 dollars that were determined to be either ahead of need or 
excess to need, in other words, not requested in the FY 2020 budget by 
the Department. The sources were reviewed by the Chairman of the Joint 
Chiefs of Staff who determined that this reprogramming was not of 
significant immediate strategic negative impact to the overall defense 
of the United States.
    Mr. Byrne. The President's FY2021 budget request represents a 
significant step back from the President's pledge to build a strong 
Navy to counter the growing threat from China and Russia. This request 
for only seven ships represents a significant blow to the already 
fragile defense maritime industrial base. To make the matter more 
urgent, the recent reprogramming of ships appropriated in FY2020 puts 
even greater stress on the Nation's industrial base and puts at risk 
the jobs of thousands of skilled tradesman and thousands of suppliers, 
many of them small businesses, located throughout the country. What 
consideration of the defense industrial base entered into the 
development of the FY2021 shipbuilding budget? What are the likely 
impacts of this budget on the shipbuilding industry, particularly the 
mid-tier yards and their supplier base?
    General Milley. A healthy industrial base, including shipyards and 
the associated workforce, is absolutely critical to achieving the 
Department's goal of a 355-plus ship Navy. With adequate resources, and 
with budget predictability and stability, the industrial base has the 
capacity and capability to support getting to 355 ships in 10 years. I 
defer to the Navy regarding impacts of continued efforts to best 
support workload stability and the shipyard's workforce, while 
supporting the assertion that we must provide acquisition clarity and 
stability to our industrial base partners.
    Mr. Byrne. Specifically, the DOD reprogramming action took funding 
from the Expeditionary Fast Transport (EPF) appropriated in FY20. EPFs 
are built by Austal which is one of the Navy's mere seven new 
construction shipyards and employs thousands of my hardworking 
constituents. The Navy has repeatedly agreed that keeping the 
industrial base surrounding the Austal shipyard healthy is vital as it 
explores new opportunities for this versatile and cost-effective yard, 
particularly as the FFG(X) frigate competition continues. Do you have 
concerns about the viability and cost effectiveness of the decision to 
reprogram this ship?
    General Milley. The Secretary determined that transferring $3.831 
billion to support this DHS request for assistance to block drug 
smuggling corridors was a higher priority item, based on unforeseen 
military requirements, and would not adversely affect the military 
preparedness of the United States. The $3.831 billion in funding 
sources are in excess or early to current programmatic needs and were 
not part of the FY 2020 plan. Specific to the Expeditionary Fast 
Transport (EPF), funds are excess to current programmatic need. The 
procurement exceeds the program-of-record requirement. DOD remains 
committed to building a Navy of at least 355 ships.

                                  [all]
</pre></body></html>
